<html>
<title> - BOOSTER SEATS AND THE FORGOTTEN CHILD: CLOSING A SAFETY GAP</title>
<body><pre>[Senate Hearing 107-1091]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 107-1091

      BOOSTER SEATS AND THE FORGOTTEN CHILD: CLOSING A SAFETY GAP

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE AND TOURISM

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



88-785 PDF                Washington : 2004

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
                Ann Choiniere Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON CONSUMER AFFAIRS, FOREIGN COMMERCE 
                              AND TOURISM

                PETER G. FITZGERALD, Illinois, Chairman
CONRAD BURNS, Montana                BYRON L. DORGAN, North Dakota
SAM BROWNBACK, Kansas                JOHN D. ROCKEFELLER IV, West 
GORDON SMITH, Oregon                     Virginia
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2001...................................     1
Statement of Senator Dorgan......................................    71
Statement of Senator Fitzgerald..................................     1

                               Witnesses

Baloga, Tom, President, Britax Child Safety, Inc.................    81
    Prepared Statement...........................................    83
Lund, Adrian K., Chief Operating Officer, Insurance Institute for 
  Highway Safety.................................................    18
    Prepared statement...........................................    21
Paul, Ph.D., Heather, Executive Director, National Safe Kids 
  Campaign.......................................................    72
    Prepared statement...........................................    75
Quinlan, Kyran, M.D., MPH, Department of Pediatrics, University 
  of Chicago.....................................................    45
    Prepared statement...........................................    47
Shelton, L. Robert, Executive Director, National Highway Traffic 
  Safety Administration..........................................     4
    Prepared statement...........................................     6
Skeen, Autumn Alexander, Child Passenger Safety Advocate.........    14
    Prepared statement...........................................    16
Stone, Judith Lee, President, Advocates for Highway and Auto 
  Safety.........................................................    52
    Prepared statement...........................................    54
Vondale, James, Director, Automotive Safety Office, Ford Motor 
  Company........................................................    78
    Prepared statement...........................................    80
Weinstein, Elaine B., Acting Director, Office of Safety 
  Recommendations and Accomplishments, National Transportation 
  Safety Board...................................................    10
    Prepared statement...........................................    11
Winston, Flaura Koplin, M.D., Ph.D., Assistant Professor of 
  Pediatrics, Children's Hospital of Philadelphia and University 
  of Pennsylvania School of Medicine.............................    39
    Prepared Statement...........................................    42

                                Appendix

The National Association of Governors' Highway Safety 
  Representatives, prepared statement............................    93

 
      BOOSTER SEATS AND THE FORGOTTEN CHILD: CLOSING A SAFETY GAP

                              ----------                              


                        TUESDAY, APRIL 24, 2001

                               U.S. Senate,
    Subcommittee on Consumer Affairs, Foreign Commerce and 
                                                   Tourism,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:12 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Peter G. 
Fitzgerald, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. I am going to call this hearing to 
order. This is the hearing of the Senate Commerce Committee, 
the Subcommittee on Consumer Affairs, and it is a hearing on 
``Booster Seats and the Forgotten Child: Closing the Safety 
Gap.'' First, I will deliver my opening statement. If any other 
members join us, I will give them an opportunity to give an 
opening statement, and then we will turn to our first panel of 
experts. I will ask each of you, if you have a prepared 
statement, to submit your prepared statement for the record, to 
condense your remarks and, if possible, give them impromptu. If 
you do read your remarks, if you would try and limit them to 5 
minutes, we would appreciate it. We will try and keep this 
moving so that everybody has an opportunity to be heard.
    Late last year, Congress passed the Transportation Recall 
Enhancement Accountability and Documentation, or TREAD, Act, 
which, at my insistence, included a requirement that the 
National Highway Traffic Safety Administration update its 
standards on child safety seats, including booster seats. The 
enactment of this requirement is an important step toward 
protecting our older child passengers. But I believe that we 
can and should do more.
    The National Highway Traffic Safety Administration, or 
NHTSA, will, I hope, expand and improve its performance 
standard for booster seats. But developing better booster seats 
is of limited value if people do not use them. It has been 
reported that only about 5 to 6 percent of children who should 
be in booster seats are using them. In the United States, there 
are 19.5 million so-called ``forgotten children,'' that is 
children between the ages of 4 and 8; and we need to do a 
better job of protecting them.
    Those kids are too large to ride in child safety seats, but 
some experts believe that they are often too small to be 
properly seated in a three-point safety belt. In 1998, 495 
children aged 5 to 8 were killed and 86,000 were injured in car 
crashes and collisions. Indeed, car crashes and collisions are 
the leading cause of death and serious injury in children under 
10 in the United States.
    Ongoing research is providing increasingly compelling 
evidence of the need to use booster seats. Three-point shoulder 
and lap belts, even those in the back seat where it is 
recommended that children sit, currently are not made or tested 
for children. Children who are graduated at 40 pounds or so 
directly from their child safety seat to adult seat belts can 
suffer serious harm.
    In some crashes, the seat belts do not restrain the child 
or the child's upper body. In others they do, but the shoulder 
belt that cuts across the small child's neck and the lap belt 
that rides high over her abdomen cause severe internal injuries 
to the liver, spleen, intestines, and the spinal cord.
    Parents obviously want to do what is best for their 
children. Safety restraint use for children under a year old is 
97 percent, and it is 91 percent for children ages 1 to 4. 
These high usage rates are due in large part to mandatory child 
restraint laws in all 50 states. Usage rates for booster seats, 
however, fall woefully short of this level. Although all 50 
states have mandatory child safety seat laws, there is no 
similar uniform requirement for booster seat use, and there are 
very serious gaps in state laws regarding child restraints 
generally. Some states require seat belts only for children 
sitting in the front seat. Others only require children to wear 
seat belts if they are younger than 5 or 6 years old. According 
to NHTSA, for children between ages 5 and 15, restraint use is 
only 68.7 percent; and NHTSA data for 1998 shows that over 47 
percent of fatally injured children ages 4 to 7 ride completely 
unrestrained.
    Only 3 states--Washington, California, and Arkansas--have 
adopted mandatory booster seat laws and none of them are in 
effect yet. Recent attempts to pass meaningful legislation in 
other states, including my home state of Illinois, have failed. 
A lack of understanding of the benefit of booster seats may 
account for why more states have not acted, but there are also 
unanswered questions about what booster seat laws should 
require that could be retarding state action. Should children 
be in booster seats until they are 4, 6 or 8 years old, 60 
pounds or 80 pounds? Or should states not use age and weight 
measures and instead rely on the fit of the particular child in 
the particular vehicle? There appears to be no clear consensus.
    Additionally, the federal standard for booster seats 
currently only covers seats for children up to 50 pounds. NHTSA 
was directed in the TREAD Act to consider changing this 
standard to 80 pounds. In the meantime, though, what does it 
mean for a state law to require that children up to 60 pounds 
be in a ``federally certified booster seat''?
    At today's hearing we will address these and other 
questions. Some of the witnesses will speak about efforts 
underway to address the ``forgotten child'', the child who has 
outgrown her child safety seat and is inappropriately placed in 
an adult-sized safety belt without an adult positioning booster 
seat or, worse still, left completely unrestrained.
    The education that these groups are providing is critical 
to closing the knowledge gap. A recent survey of 1,000 parents 
and caregivers conducted by NHTSA and Daimler-Chrysler revealed 
that 96 percent of parents and caregivers did not know the 
correct age at which a child no longer requires a booster seat 
or a child safety seat.
    Education is critical and I hope to further raise public 
awareness. Education alone, however, is not enough. As I said 
before, one of the reasons child safety seat usage is so high 
is because it is mandated in all 50 states. People not only 
want to comply with the law for the law's sake and for fear of 
being penalized; they also understand that laws codify often 
our knowledge or promote a desirable social end, in this case 
child safety.
    In the past, Congress has provided incentives for states to 
adopt responsible highway laws. We have done so to encourage 
states to adopt repeat offender and open container laws. Last 
year, we did this to encourage states to adopt .08 blood 
alcohol level laws. Perhaps it is still too early for federal 
legislation to require states to adopt mandatory booster seat 
use laws, because of the deficiency in the current federal 
standard, because comprehensive medical data showing the 
benefits of booster seats is still being developed, and because 
a lot of states have yet to adopt adequate safety belt laws.
    Nevertheless, I think the safety of the forgotten child is 
extremely important and we need to consider all of the tools at 
our disposal to advance it. One such tool is the continuation 
of federal child passenger protection education grants, the 
authorization for which expires this year.
    In closing, there is still much we do not know. We do know, 
however, that more needs to be done to protect many of our 
child passengers between the ages of 4 and 8. I look forward to 
working with my children in the U.S. Senate to develop 
solutions to this critical issue.
    With that, we are going to turn to our witnesses. On the 
first panel we have: Mr. Robert Shelton, the Executive Director 
of NHTSA; Ms. Elaine Weinstein, Acting Director, Office of 
Safety Recommendations and Accomplishments at the National 
Transportation Safety Board; Ms. Autumn Alexander Skeen from 
the state of Washington, a child passenger safety advocate; Dr. 
Flaura Winston--doctor, good to see you again--assistant 
professor of pediatrics at the Children's Hospital of 
Philadelphia and the University of Pennsylvania School of 
Medicine; Dr. Kyran Quinlan--Dr. Quinlan is from the Department 
of Pediatrics at the University of Chicago in my home state of 
Illinois; thank you for being with us; and Ms. Judith Lee 
Stone, the President of the Advocates for Highway and Auto 
Safety.
    In addition, we have added to the first panel Dr. Adrian K. 
Lund, the Chief Operating Officer of the Insurance Institute 
for Highway Safety. I understand that Dr. Lund may have a 
different take on the whole issue and we decided to put him on 
the first panel so that we might get some give and take.
    With that, I want to start with Mr. Shelton, if he could be 
kind enough to give us his testimony. Thank you all for being 
here.

 STATEMENT OF L. ROBERT SHELTON, EXECUTIVE DIRECTOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Shelton. Thank you, Mr. Chairman, for inviting me to 
testify on child booster seats. I also want to thank you, Mr. 
Chairman, for sponsoring legislation to improve child passenger 
safety. We are working hard to implement that legislation, now 
a part of the TREAD Act enacted last November.
    Traffic crashes are the leading cause of death for 
children. Six out of ten children who die in passenger car 
crashes are either not restrained at all or improperly 
restrained. The most effective way to protect children in a 
crash is to ensure that they are properly restrained in the 
rear seat in an appropriate restraint system on every trip. For 
the older child, generally 4 to 8 years old, booster seats, 
properly used, can help prevent injury by making adult-sized 
belts fit better.
    Booster seats help prevent injury to children between 40 
and 80 pounds. Without a belt-positioning booster seat, the lap 
belt can ride up over the stomach and the seat shoulder belt 
can cut across the neck. In a crash, this could cause serious 
or even fatal injuries. With a booster seat, the lap and 
shoulder belt fit correctly, reducing the risk of belt-induced 
injury during a crash. Correct fit also reduces the chance of 
ejection during a crash.
    Based on current data, children should be in booster seats 
until they reach about 80 pounds and a height of 4 feet 9 
inches. Unfortunately, as you pointed out, few children who 
could benefit from booster seats now use them. Most studies 
show booster seat use rates below 10 percent. Survey data show 
that these children often use seat belts instead or ride 
totally unrestrained.
    In 1998, NHTSA included questions about booster seat use in 
a telephone survey of parents or caregivers of children under 
the age of 6. They were asked if they were aware of booster 
seats. While 76 percent said they were aware of booster seats, 
only 53 percent of those who were aware said they had ever used 
them for their children. The survey confirmed that children who 
should be in booster seats often use seat belts instead.
    Premature use of seat belts by a child can cause 
significant injury in a crash. Many parents and caregivers do 
not understand the risks that adult seat belts can pose to 
children who weigh between 40 and 80 pounds. They also do not 
understand that booster seats are designed to remedy this 
problem. Educational efforts are needed to inform parents and 
caregivers on the benefits of booster seats and when to 
transition the child to seat belts.
    A significant barrier to the use of booster seats is gaps 
in state child passenger safety and seat belt use laws. These 
gaps promote low booster seat use rates and premature 
graduation of children from safety seats to seat belts. In many 
states children over 4 can legally ride unrestrained in the 
rear seat, because these laws apply only to front seat 
occupants. In most states, children older than 4 are covered by 
seat belt laws, not child restraint laws, a matter that 
contributes to premature use of seat belts.
    NHTSA is taking a number of steps to improve existing 
standards for the performance and testing of booster seats. 
Federal Motor Vehicle Safety Standard 213, Child Restraints, 
establishes performance and structural integrity requirements 
for booster seats. These requirements provide for dynamic tests 
of the seats in three-point lap and shoulder belts that can 
restrain children weighing up to 50 pounds.
    In accordance with the TREAD Act, we are considering 
whether to amend the standard to cover restraints for children 
weighing up to 80 pounds. Though NHTSA recommends the use of 
booster seats for children up to 80 pounds and many 
manufacturers now recommend booster seats up to 80 pounds and 
higher, we currently test booster seats with a dummy that 
simulates a 6-year-old child weighing 47 pounds. At this time 
we do not have an acceptable test dummy larger than a 47-pound 
6-year-old child dummy and smaller than a 105-pound, 5th 
percentile female dummy.
    NHTSA has been working with the Society of Automotive 
Engineers to develop a 10-year-old child dummy. We expect to 
have a prototype of this dummy to evaluate this June. 
Incorporation of the dummy's specifications into our standards 
will require further testing and rulemaking. As an interim 
measure, however, we are assessing the approach of adding 
weights to the existing 6-year-old dummy to evaluate the 
performance of booster seats for larger children.
    In addition, we are conducting a study, as required by the 
TREAD Act, on the use and effectiveness of booster seats. This 
study will be completed by November.
    We also are examining ways to expand our educational 
efforts to raise awareness and increase the use of booster 
seats and give parents, caregivers and others the information 
they need to determine the correct use of all child safety 
seats.
    In 1998, NHTSA sponsored a blue ribbon panel of experts to 
recommend better ways to protect children ages 4 to 16 years 
old. Also in 1998, TEA-21 provided a new incentive grant 
program targeting specific occupant protection laws and 
programs. It authorized $83 million over 5 years for a two-part 
program. Under the first part, a 5-year program, states receive 
grants if they demonstrate they have in place certain occupant 
protection laws and programs, such as a child passenger 
protection law that requires minors to be properly secured in 
an appropriate child system.
    As you mentioned, Mr. Chairman, under part two, a 2-year 
program which expires at the end of fiscal year 2001, states 
receive grants if they carry out child passenger protection and 
education activities, including activities on the use of 
booster seats.
    In 1999, to address the issue of non-use of booster seats, 
NHTSA awarded a total of $800,000 to six states and communities 
for pilot and demonstration programs to increase booster seat 
use for children between ages 4 and 8 and seat belt use among 
older children.
    In February 2000, in response to one of the blue ribbon 
panel's recommendations, NHTSA launched ``Don't Skip a Step,'' 
a national booster seat campaign to educate parents and 
caregivers not to skip a step as their children grow, beginning 
with rear-facing infant seats and progressing to forward-facing 
child seats, booster seats, and ultimately properly restrained 
in adult belts, in the back seat for all children 12 years and 
under.
    Also, raising booster seat awareness has been the keystone 
of our national child passenger safety week campaign for the 
last several years.
    We will continue to implement our booster seat initiatives 
by updating our legislative fact sheets, which provide 
technical assistance to states. In addition, we are developing 
a booklet, ``Protecting America's Children: The Case for Strong 
Child Passenger Safety Laws,'' which will be completed this 
summer, to highlight the need to close gaps in state child 
passenger safety laws discussed earlier.
    NHTSA also has been a close partner in the development and 
refinement of the ``Boost America'' program sponsored by Ford 
Motor Company. This $30 million program, to be launched next 
week, will give away a million booster seats during the 
program's first 12 months and award $1 million in grants to 
local organizations to support grassroots booster seat advocacy 
and distribution efforts.
    NHTSA's web site now contains a separate section on child 
safety seats, which makes it easy for the public to locate and 
obtain specific information on all child seats, including 
booster seats. This new service is designed to help families 
obtain the latest safety seat information and guide parents and 
caregivers to the right restraint choices for their children. 
The site provides one-stop shopping to those who want to learn 
about the correct use and installation of all child safety 
seats, and links the user to a list of locations throughout the 
Nation where parents and caregivers can have safety seats and 
booster seats inspected. Additional information on booster 
seats is also provided toll-free through our Auto Safety 
Hotline.
    Finally, NHTSA is currently developing a 5-year booster 
seat education strategic plan, as required by the TREAD Act. We 
will complete the plan by November of this year.
    Mr. Chairman, this concludes my statement. I will be 
pleased to answer any questions.
    [The prepared statement of Mr. Shelton follows:]

 Prepared Statement of L. Robert Shelton, Executive Director, National 
                 Highway Traffic Safety Administration
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to testify on child booster seats. I also want to take this 
opportunity to thank you, Mr. Chairman, for raising awareness about the 
leading killer of children in America, motor vehicle crashes, and for 
your sponsorship of legislation to improve child passenger safety. We 
are working hard to implement that legislation, now a part of the 
Transportation Recall Enhancement, Accountability, and Documentation 
(TREAD) Act, enacted last November.
    Traffic crashes are the leading cause of death for children of 
every age from 5 to 16 years old. Six out of 10 children who die in 
passenger motor vehicle crashes are either not restrained at all or are 
improperly restrained. The single most effective way to protect 
children in the event of a crash is to ensure that they are properly 
restrained in the rear seat in appropriate restraint systems on every 
trip. For children from 4 to 8 years old, booster seats, properly used, 
can help prevent injury by making adult-sized seat belts fit correctly.
When to Use a Booster Seat
    Booster seats are intended to be used as a transition to lap and 
shoulder belts by children who have outgrown forward-facing child 
safety seats. Children outgrow the weight and height limits of most 
forward-facing child safety seats at around 4 years of age, when they 
weigh about 40 pounds and are about 40 inches tall. At that time, they 
should be moved to a booster seat to help the lap and shoulder belt fit 
correctly. Based on current data, NHTSA believes children should stay 
in booster seats until they reach about 80 pounds, and a height of four 
feet, nine inches.
    Booster seats help prevent injury to children between 40 to 80 
pounds. Without a belt-positioning booster seat, the lap belt can ride 
up over the stomach and the shoulder belt can cut across the neck. In a 
crash, this could cause serious or even fatal injuries. With a booster 
seat, the lap and shoulder belts fit correctly, reducing the risk of 
belt-induced injury during a crash. Correct fit also reduces the chance 
of ejection during a crash.
Why Is Booster Seat Use So Low?
    Unfortunately, few children who could benefit from booster seats 
use them. Most studies show booster seat use rates below 10 percent. 
Survey data show that these children often use seat belts instead, or 
ride totally unrestrained.
    In 1998, NHTSA included questions about booster seat use in a 
telephone survey of a randomly selected national sample of about 4,000 
persons age 16 and older. A selected subgroup of this sample, parents 
or caregivers of children under the age of 6, were asked if they were 
aware of booster seats. While 76 percent of these participants said 
they were aware of booster seats, 21 percent said they had not heard of 
them and 3 percent were unsure. Of those who were aware of booster 
seats, 53 percent said they had used them at some time for their 
children.
    The survey confirmed that children who should be in booster seats 
often use seat belts instead. While most participants thought children 
in rear-facing seats were expected to move on to other safety seats, 14 
percent expected their older child to use seat belts. Slightly more 
than half (55 percent) said that when children outgrow a child safety 
seat they would use a different seat or booster seat while 43 percent 
answered either that the children would graduate to seat belts or that 
they did not know what would happen.
    Premature use of seat belts by a child can cause significant injury 
in a crash. A recent research project conducted for NHTSA by 
TraumaLink, The Children's Hospital of Philadelphia, concludes that 
many parents and caregivers simply do not understand the risk that 
adult seat belts can pose to children who weigh between 40 and 80 
pounds. They also do not understand that booster seats are designed to 
remedy this problem.
    The project identified several barriers to use of booster seats, 
including child behavior; child discomfort; availability and cost; and 
gaps in state child passenger safety and seat belt use laws. Potential 
strategies to overcome these barriers focused on educational efforts 
needed to inform parents and caregivers on the benefits of booster 
seats and when to transition the child to seat belts.
    The matter of state law drew particular comment in the project 
report. The report found that gaps in state child passenger safety laws 
and seat belt use laws promote low booster seat use rates and premature 
graduation of children from safety seats to seat belts. For example, in 
many states, children over the age of 4 can legally ride unrestrained 
in the rear seat because these laws apply only to front seat occupants.
    Since 1985, all 50 states and the District of Columbia have adopted 
child restraint laws. All of these laws are primary laws (which means 
that a law enforcement officer may stop a vehicle solely for restraint 
law violations) and require that young children be properly secured in 
a child safety seat. Though child restraint laws have helped to 
increase the use of child restraints, they often fail to conform to 
current best practices. For example, some states permit children as 
young as two years of age to be restrained in a seat belt if the child 
is in the rear seat, while others have no restraint requirements for 
any rear-seat occupants other than for children under a specified age. 
In most states, children older than 4 are covered by seat belt laws 
(most of which are secondary enforcement laws), not child restraint 
laws-a matter that contributes to premature use of seat belts.
    The project also found that parents and caregivers rely on state 
child restraint laws for instruction and guidance. They believe that 
these laws are an accurate guide for what is recommended to be safe for 
their children; but, many state laws do not provide such a guide. To 
date, only two states, California and Washington, require the use of 
booster seats. These laws require booster seat use only for children to 
age 6 or 60 pounds.
    Late last year, NHTSA provided technical assistance to the 
DaimlerChrysler Corporation for a survey on parental attitudes and 
expectations about state child restraint laws. Among the survey's 
conclusions--released early this month--was the finding that parents 
are confused about when children may safely ride in an adult safety 
belts and the exact purpose of booster seats. The survey's findings 
have reinforced the continuing need to make the purpose, use and 
details of booster seats a top agency priority.
What NHTSA Is Doing: Motor Vehicle Safety Initiatives
    NHTSA is taking a number of steps to improve existing standards for 
the performance and testing of booster seats. Federal Motor Vehicle 
Safety Standard (FMVSS) 213, ``Child Restraints,'' establishes 
performance and structural integrity requirements for booster seats. 
These requirements provide for dynamic tests of the seats in 3-point 
lap and shoulder belts that can restrain children weighing up to 50 
pounds.
    In accord with the TREAD Act, we are considering whether to amend 
the Standard to cover child restraints for children weighing up to 80 
pounds. Though NHTSA recommends the use of booster seats for children 
up to 80 pounds, and many child restraint manufacturers now certify 
booster seats up to 80 pounds and higher, we currently test booster 
seats with a dummy that simulates a 6-year-old child. At this time, we 
do not have an acceptable test dummy larger than our 47-pound 6-year-
old dummy and smaller than our 95- 105-pound 5th percentile female 
dummy.
    To acquire a test dummy suitable for evaluating booster seats 
designed for larger children, NHTSA has been working with the Society 
of Automotive Engineers (SAE) to develop a 10-year-old child dummy, 
which would be approximately 4-feet 6-inches tall and weigh 71 pounds. 
We expect to have a prototype of the 10-year-old dummy to evaluate by 
June 2001, but incorporation of the dummy's specifications into our 
standards will require further testing and rulemaking. As an interim 
measure, we are assessing the approach of adding weights to the 
existing 6-year-old dummy to evaluate the performance of booster seats 
for larger children. However, the primary concern for older children is 
head excursion which is influenced by the height of the dummy. Thus, 
adding weight to a 6-year-old dummy is not a satisfactory long-term 
solution.
    NHTSA is currently conducting a study, as required by the TREAD 
Act, on the use and effectiveness of booster seats. This study is 
hampered, however, by the lack of use of booster seats by older 
children, which makes it hard to find enough crash cases with booster 
seats to give reasonable estimates of their effectiveness. This study 
will be completed this November.
    In addition to setting and maintaining federal motor vehicle safety 
standards, NHTSA conducts compliance tests to assure that the standards 
are met. We generally test every child restraint model available on the 
market each year for compliance with FMVSS No. 213. From 1996 to the 
present, NHTSA has conducted compliance tests on 63 models of booster 
seats. In 1998, we sent a letter to all child safety seat manufacturers 
urging them to manufacture child seats so that they ``perform well 
beyond the minimum requirements of our standard.'' We can also conduct 
investigations and seek a recall if there is evidence that these 
restraints contain a safety-related defect.
What NHTSA Is Doing: Education and Information Initiatives
    In addition to NHTSA's motor vehicle safety initiatives to improve 
booster seats, we are continually examining ways to expand our 
educational efforts to give parents, caregivers and others the 
information they need to determine the correct use of all child safety 
seats. These efforts include initiatives to raise awareness and 
increase the use of booster seats.
    The agency has four strategies that have been determined to be 
especially effective in meeting child passenger safety goals: public 
education; high visibility law enforcement; public-private 
partnerships; and strong legislation.
    In1998, NHTSA sponsored a ``Blue Ribbon Panel'' of experts to 
recommend better ways to protect children passengers 4 to16 years old. 
In March 1999, the panel presented recommendations for these children 
in three areas:

  <bullet> Marketing and Public Education--Educate parents and 
        caregivers on the importance of booster seats for children who 
        have outgrown child safety seats; generate peer programs for 
        increasing seat belt use among older children.

  <bullet> Legislation and Enforcement--Close gaps in the child 
        passenger safety and seat belt laws that leave children ages 4 
        to 16 unprotected; encourage high visibility enforcement of 
        child passenger safety laws.

  <bullet> Product Design and Implications--Improve booster seat design 
        for safety and comfort; develop recommendations for the use of 
        aftermarket products.

    Also in 1998, the Transportation Equity Act for the 21st Century 
(TEA-21) added a new incentive grant program to our occupant protection 
efforts. Beginning in FY 1999, TEA-21 authorized $83 million over 5 
years for a two-part program to target specific occupant protection 
laws and programs. Under part one, a 5-year program beginning in FY 
1999, states receive grants if they demonstrate that they have in place 
certain occupant protection laws and programs, such as a child 
passenger protection law that requires minors to be properly secured in 
an appropriate restraint system. Under part two, a 2-year program in FY 
2000 and 2001, states receive grants if they carry out child passenger 
protection and education activities, including activities on the use of 
booster seats.
    Since 1998, NHTSA and AAA have jointly published a brochure, Buying 
a Safer Car for Child Passengers, designed to help consumers make an 
informed decision when purchasing a family vehicle. The brochure, which 
is updated annually to include safety features available on new model 
year vehicles, highlights information on booster seats.
    In 1999, to address the issue of non-use of booster seats, NHTSA 
awarded a total of $800,000 to six states and communities (NY, RI, TX, 
WA, AZ, ND) for pilot and demonstration programs to increase booster 
seat use for children between age 4 and 8 years old and seat belt use 
among older children. Using final reports on these programs, due at the 
end of 2001, NHTSA will develop ``best practices'' strategies and 
educational materials for the use of the states and our national 
partner organizations.
    In February 2000, in response to one of the Blue Ribbon Panel's 
recommendations, NHTSA launched Don't Skip a Step, a national booster 
seat campaign to educate parents and caregivers not to skip any step as 
their children grow: beginning with rear-facing infant seats and 
progressing to forward-facing child safety seats, booster seats, and 
properly restrained in an adult belt in the back seat for all children 
12 and under. As part of the campaign, NHTSA has distributed campaign 
brochures to enlist the support of child safety advocates, health care 
providers, law enforcement personnel and others to help spread the 
booster seat safety message across the country. An expanded booster 
seat education program is planned for later this year. In addition, 
raising booster seat awareness has been the centerpiece of NHTSA's 
``National Child Passenger Safety Week'' campaign for the last several 
years.
    We will continue to implement our booster seat initiatives by 
updating NHTSA's legislative fact sheets, which provide technical 
assistance to the states. In addition, we are developing a booklet, 
Protecting America's Children: The Case for Strong Child Passenger 
Safety Laws, which will be completed this summer, to highlight the need 
to close gaps in state child passenger safety laws discussed earlier. 
In January 2001, the National Committee on Uniform Traffic Laws and 
Ordinances developed a model law on occupant protection that provides 
coverage for all occupants in all seating positions.
    NHTSA has been a close partner in the development and refinement of 
the ``Boost America!'' program sponsored by Ford Motor Company. This 
$30-million program, to be launched at the end of this month, will give 
away a million booster seats during the program's first 12 months, and 
award $1 million in grants to local organizations to support grassroots 
booster seat advocacy and distribution efforts. In addition, the 
program will distribute pre-school and elementary school educational 
materials promoting booster seat use. NHTSA plans to continue to work 
with child safety seat manufacturers and retailers to raise consumer 
awareness of booster seats.
    NHTSA's web site, www.nhtsa.dot.gov, now contains a separate 
section on ``Child Safety Seats,'' that makes it easy for the public to 
locate and obtain specific information on all child seats, including 
booster seats. This new Internet-based service, launched last month by 
Secretary Mineta, is designed to help families obtain the latest child 
safety seat information and guide parents and caregivers to the right 
restraint choices for their children. When a user clicks on the icon, 
``Child Safety Seats,'' the user is linked to a comprehensive source of 
information, tips and recommendations. Dozens of full-color photos of 
the different types of child safety seats are provided, together with 
step-by-step installation guidelines. This site provides one-stop 
shopping to those who want to learn about the correct use and 
installation of all child safety seats, and includes: (1) a current 
listing of all new child safety seats available; (2) a list of model 
year 2001 vehicles with child safety seat features; (3) a description 
and list of various features available on the restraints that may make 
them easier to use and install; and (4) a child safety seat dictionary 
of terms. The site also has links to a comprehensive list of locations 
throughout the country where parents and caregivers can have child 
safety seats and booster seats inspected, and to the brochure, Buying a 
Safer Car for Child Passengers, mentioned earlier.
    Additional information on booster seats also is available toll-free 
through NHTSA's Auto Safety Hotline, 1-888-DASH-2-DOT. Our Hotline 
operators are available to answer questions from 8 a.m. to 10 p.m., 
Eastern time, Monday through Friday. Messages can be left on tape 24 
hours a day.
    NHTSA currently is developing a 5-year booster seat education 
strategic plan, as required by the TREAD Act, to reduce deaths and 
injuries caused by failure to use the appropriate booster seat in the 
4- to 8-year-old age group by 25 percent. Booster seat use will be 
monitored using NHTSA's databases. We will complete the plan by 
November of this year.
    In closing, I would like to note that NHTSA staff have been active 
participants at the Association for the Advancement of Automotive 
Medicine's (AAAM) Conference on ``Booster Seats for Children,'' taking 
place this week in Washington, DC. This conference has brought together 
international experts in pediatric restraint science from Canada, 
Sweden, the United States, the United Kingdom and Germany to review the 
current state of the art in child booster seat design, materials, 
tolerances and child riding behavior. The proceedings of the conference 
will be published to serve as a guide to future research in child 
safety engineering, provide recommendations for the medical community, 
and address the formulation of effective restraint laws for 4- to 8-
year old children.
    Mr. Chairman, this concludes my statement. I will be pleased to 
answer any questions.

    Senator Fitzgerald. Mr. Shelton, thank you very much.
    Ms. Weinstein.

      STATEMENT OF ELAINE B. WEINSTEIN, ACTING DIRECTOR, 
             OFFICE OF SAFETY RECOMMENDATIONS AND 
     ACCOMPLISHMENTS, NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Weinstein. Good morning, Mr. Chairman. It is a pleasure 
to represent the National Transportation Safety Board this 
morning on this very important issue.
    According to the National Highway Traffic Safety 
Administration, in the decade of the 1990s, 8,600 children 
between the ages of 4 and 8 died in motor vehicle crashes. 
Highway crashes are the leading cause of death for children in 
this country, Mr. Chairman, and we applaud you for holding this 
much-needed hearing.
    The Centers for Disease Control and Prevention have stated 
that children who have outgrown child safety seats should ride 
in a booster seat that positions the shoulder belt across the 
chest, with the lap belt low across the upper thighs. Without a 
booster seat, a child can slouch and slide forward, causing the 
vehicle lap belt to ride up into the child's abdomen, resulting 
in serious or fatal injuries.
    The Safety Board agrees with that position, and in 1996 we 
recommended that the states require children up to 8 years old 
to use child restraint systems and booster seats. As you 
mentioned, in the 4 years since our recommendation was issued 
only 3 states--Washington, California, and Arkansas--have 
enacted some form of booster seat legislation.
    Another problem identified in the Safety Board's 1996 study 
was that there are children who exceed the 60-pound weight 
limit established by most child restraint manufacturers for 
booster seats, but these children are still too short to 
properly use lap and shoulder belts. In addition, the NHTSA 
standard only covers child restraints for children up to 50 
pounds. Also 4 years ago, the Safety Board asked NHTSA to 
establish performance standards for booster seats that can 
restrain children up to 80 pounds, but today there are still no 
such standards.
    Safety advocates often tell parents that the safest place 
for their children in the car is the center of the back seat, 
because it is the farthest away from a side or frontal crash. 
Parents have been listening. Today 46 percent of back seat 
occupants in crashes seated in the center seat are under the 
age of 13. But to use one of the booster seats on the market 
today, you need a lap and a shoulder belt in the center rear 
seat position. Except few minivans and SUVs, which are today's 
family car, many vehicles now have lap and shoulder belts in 
the center rear seat position.
    The Safety Board believes that the back seat of the car 
should be designed with children in mind, and we have issued 
several recommendations to the automobile manufacturers to make 
the back seats of the cars more child-friendly.
    In December of last year, the Safety Board sponsored a 
meeting with safety advocates and representatives of industry 
and government to identify immediate, short-term and long-term 
actions that can be taken to ensure that all children are 
equally protected when they are traveling on our nation's 
roadways. We were particularly concerned about low income and 
minority children.
    Some of the solutions identified by participants include 
more products, including booster seats that are compatible with 
lap-only belts, more education of parents of 4 to 8 year old 
children about the need to use booster seats, incentives such 
as store-manufacturer coupons to purchase low-cost booster 
seats, more availability of booster seats in stores that reach 
low income and minority families, and retailer education to 
ensure that booster seats are available.
    Mr. Chairman, too many parents buckle their children into 
adult restraints in their automobiles and think that their 
child is safe. We know that that is not the case. The Safety 
Board believes that action must be taken by the states, the 
automobile manufacturers and NHTSA to ensure that there is one 
level of safety for all children.
    That completes my statement, Mr. Chairman. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Weinstein follows:]

 Prepared Statement of Elaine B. Weinstein, Acting Director, Office of 
  Safety Recommendations and Accomplishments, National Transportation 
                              Safety Board
    Good morning Mr. Chairman and Members of the Subcommittee. It is a 
pleasure to represent the National Transportation Safety Board before 
you today regarding child passenger safety, particularly the use of 
booster seats by children between the ages of 4 and 8 years old.
    Americans understandably react with horror at random acts of 
violence that take the lives of innocent children, and they demand that 
action be taken when a child is killed in a school firearm incident. In 
1998, 121 children under age 10 died as a result of unintentional 
firearm-related actions, according to the National Safe Kids Campaign. 
That same year, 922 children under age 10 died as passengers in motor 
vehicle crashes, according to the National Highway Traffic Safety 
Administration's (NHTSA) Fatality Analysis Reporting System (FARS). 
Although highway crashes are the leading cause of death for children in 
this country, we do not hear a nationwide outcry every time a young 
girl or boy dies in a traffic crash. Mr. Chairman, the Safety Board 
applauds you for holding this hearing to bring much needed attention to 
this important issue.
    According to NHTSA, in the decade of the 1990s, over 90,000 
children died in motor vehicle crashes, and over 9 million were 
injured. Eight thousand six hundred of the children who died were 
between the ages of 4 and 8. That equals about 16 children between the 
ages of 4 and 8 killed each week in motor vehicle crashes. More than 70 
percent of the 778 children age 4-to-8 killed in automobile accidents 
in 1999 were totally unrestrained (546 children), and 13 percent (105 
children) were in lap/shoulder belt restraint systems designed for 
adults.
    The Safety Board has for some time been concerned about the dangers 
to our children when riding in an automobile. In 1996, the Safety Board 
adopted a study on the performance and use of child restraint systems, 
seatbelts, and air bags for children in passenger vehicles.
    In part, the Board's 1996 report concluded that:

  <bullet> Children (especially those properly restrained) in the back 
        seats of vehicles are less likely to sustain injury than those 
        seated in the front seats;

  <bullet> Children of all ages need to be properly restrained and 
        should be covered by the states' child restraint and seatbelt 
        use laws;

  <bullet> More than two-thirds of the children in the Safety Board's 
        study sample were not in the appropriate restraint for their 
        age, height, and weight;

  <bullet> Children tended to be in restraint systems too advanced for 
        their development, such as moving from child restraint systems 
        to seatbelts rather than using booster seats; and

  <bullet> Booster seats that restrain children who weigh more than 50 
        pounds are not subject to any performance standards; however, 
        booster seats are necessary for some children above that 
        weight.

    Two years ago, to focus attention on our 1996 safety 
recommendations, the Safety Board implemented a comprehensive campaign 
regarding children passenger safety. We met on several occasions with 
automobile and child safety seat manufacturers, participated at child 
safety seat fitting stations and check points, testified at legislative 
hearings, spoke at and attended numerous conferences and symposia, and 
held several meetings. As a direct result of the Board's work, we have 
seen many improvements regarding child passenger safety, especially 
related to increasing proper use of child safety seats. For instance:

  <bullet> NHTSA developed a guidebook for states to use in 
        establishing and operating fitting stations;

  <bullet> Many states have set up fitting stations at health centers 
        or in police, sheriff, or fire stations;

  <bullet> DaimlerChrysler established Fit for A Kid, a nationwide 
        program of permanent fitting stations, at selected dealerships. 
        Fit for a Kid is now in all 50 states, and much of the U.S. 
        population is less than an hour's drive from a Fit for a Kid 
        location;

  <bullet> General Motors established mobile fitting stations in every 
        state in partnership with the National Safe Kids Campaign; and

  <bullet> Ford Motor Company established the ``Boost America'' program 
        to provide support for existing community fitting stations, to 
        conduct child safety seat inspections, and to implement a 
        campaign to give away booster seats to needy families.

    Mr. Chairman, it is unfortunate that booster seats are still not 
recognized or understood by the public as the next step in child 
passenger protection after a child outgrows a child restraint system.
Seatbelt Fit for 4-to-8-year-old Children
    Once children outgrow child restraint systems, they often use the 
vehicle seatbelts. In the crashes investigated for the Safety Board's 
1996 study, 73 children should have been in booster seats according to 
their age, height, and weight, but only 11 children were restrained in 
booster seats. Fifteen children in our study cases were improperly 
restrained by the vehicle seat belt. Fourteen of those children should 
have been in booster seats, and the other one should have been in a 
child safety seat.
    Vehicle seat belts, like air bags, were designed to protect adults. 
Poor shoulder belt fit was reported in 8 seatbelt misuse cases by 
children in our sample as the reason for wearing the shoulder belt 
under the arm or behind the back. Moderate to severe injuries were 
sustained by 9 of the children; all but 1 were involved in high 
severity crashes. Five children in the study who sustained no or minor 
injuries were involved in low to moderate severity crashes. Improper 
use of the lap/shoulder belt decreased as the child's height increased 
above 50 inches, resulting in a better fit of the shoulder portion of 
the belt.
    According to the Centers for Disease Control and Prevention, 
children who have outgrown their child safety seats should ride in a 
booster seat that positions the shoulder belt across the chest, and 
with the lap belt low across the upper thighs. Without a booster seat, 
a child can slouch and slide forward, causing the vehicle lap belt to 
ride up on to the child's abdomen, resulting in serious or fatal 
injures.
    The Safety Board believes that children of all ages need to be 
properly restrained and should be covered by the states' child 
restraint and seatbelt use laws. Accordingly, on October 31, 1996, the 
Safety Board recommended to the Governors and Legislative Leaders of 
the 50 states and U.S. Territories, that children up to 8 years old be 
required by the state's mandatory child restraint use law to use child 
restraint systems and booster seats. In the over five years since the 
safety recommendation was issued, only three states--Washington, 
California, and Arkansas--have enacted some form of booster seat law.
    Another problem identified in the Safety Board's 1996 study was 
that there were 22 children who exceeded the 60-pound weight limit 
established by most child restraint manufacturers for booster seats, 
but were too short (all of these children were less than 59 inches 
tall) for lap/shoulder belts according to the age, height, and weight 
classification system used by the Board. NHTSA's own research confirms 
that ``the minimum size child in this study who could use three-point 
belts alone had a sitting height of 74 cm [29.6 inches], standing 
height of 148 cm [59.2 inches], and weight of 37 kg [82 pounds].'' On 
September 20, 1996, the Safety Board asked NHTSA to establish 
performance standards for booster seats that can restrain children up 
to 80 pounds. NHTSA responded to the Board's recommendation with a 
letter to the child restraint manufacturers asking them if they had 
plans to produce booster seats for older children and if there was a 
need for federal standards. NHTSA subsequently convened a Blue Ribbon 
Panel on older children in 1998 which recommended a number of actions 
similar to what the Safety Board asked for in it's 1996 
recommendations.
    Mr. Chairman, when discussing child passenger safety there are two 
additional areas that need to be discussed--child-friendly back seats 
and children in low income families.
Child-Friendly Back Seats
    The Safety Board believes that the back seat of vehicles should be 
designed with children in mind. We have issued safety recommendations 
to the automobile manufacturers to design child-friendly back seats by 
having center lap/shoulder belts in the rear seats of new vehicles, 
lap/shoulder belts in the rear outboard seating positions that fit 
older children, and built-in child safety seats.
    The Safety Board first asked manufacturers to consider installing 
center lap/shoulder belts in all newly manufactured passenger vehicles 
following a 1986 safety study on the performance of lap belts in 
frontal crashes. Although more vehicles have lap and shoulder belts in 
the center rear seat position today than in 1986, few minivans or sport 
utility vehicles--today's family car--have lap/shoulder belts available 
for children in all back seat positions.
    Safety advocates often tell parents that the safest place for their 
children is the center position in the back seat because it's the 
farthest away from a side or frontal crash. Parents have been 
listening. NHTSA's FARS data show that 46 percent of all back seat 
occupants seated in the center position are under the age of 13, and 75 
percent of them are under the age of 21. Vehicle occupants seated in 
the center rear seat position should be afforded the same level of 
protection as other occupants of the back seat.
    The Board has also recommended that lap/shoulder belts in the rear 
outboard seating positions should fit older children comfortably and 
securely. Manufacturers have argued that the adjustable upper shoulder 
belt anchorages, now standard in the front seat, aren't feasible in the 
back seat because the back seat's design renders the anchorage 
ineffective. If that is true, the Safety Board has suggested that 
manufacturers put their design teams to work looking for alternative 
solutions.
    Lastly, the Board recommended that vehicles should have built-in 
child safety seats. Few manufacturers offer a built-in safety seat. It 
is almost solely an optional equipment item, and often is not marketed 
well. Auto manufacturers have suggested that built-in child seats are a 
tough sell. Many people who have children young enough to use them are 
not in the market for a new car, and car dealers do not want to stock 
vehicles with integrated seats.
Children in Low Income Families
    A concern recently expressed by the Safety Board involves the use 
of booster seats in older vehicles. Booster seats currently on the 
market are, with one exception, designed for use with lap and shoulder 
belts. However, lap/shoulder belts have only been required in the 
outboard seating position of vehicle back seats since 1990. That means 
that about 34 percent of all cars (some 43 million vehicles) still in 
use today have lap belts in all back seat positions. Shoulder belts 
still are not required in the center back seat position, and many 
current model vehicles, including sport utility vehicles, only have lap 
belts in the center rear seat position. When Board representatives 
participated in child safety seat fitting stations and check points, we 
were told that it is difficult to find booster seats for use in 
vehicles with lap-only belts.
    According to the 1995 National Personal Transportation Survey, 
conducted for the Federal Highway Administration, the average age of 
vehicles owned by low-income households is 11 years. Therefore, it is 
reasonable to assume that low-income families with children between the 
ages of 4 and 8 years old are likely to own a vehicle with lap-only 
belts in the back seat. The Safety Board is concerned that adequate, 
affordable protection is not readily available for these children when 
they are transported in cars.
    In December 2000, the NTSB sponsored a meeting with safety 
advocates and representatives of industry and government to identify 
immediate, short-term, and long-term actions that can be taken to 
ensure that all children are equally protected when they are traveling 
on our nation's roadways. Some of the solutions identified by the 
participants include:

  <bullet> More products, including lap-only belt compatible 
        restraints;

  <bullet> More education of parents of 4-to-8-year old children about 
        the need to use booster seats;

  <bullet> Incentives, such as store/manufacturer coupons, to purchase 
        low cost booster seats and more availability of booster seats 
        in stores that reach low-income and minority families; and

  <bullet> Retailer education to ensure that booster seats are 
        available.

    As a result of the Safety Board's meeting, representatives of the 
Departments of Transportation, Health and Human Services, and the 
Safety Board's Chairman signed a Letter of Intent to work together to 
increase the availability of child safety seats and booster seats for 
low-income families.
    Mr. Chairman, too many parents buckle their children into adult 
restraints in their automobiles and think their child is safe. We know 
that is not the case. The Safety Board believes that action must be 
taken by the states, the automobile manufactures, and NHTSA to ensure 
that there is one level of safety for all children.
    That completes my statement, and I will be happy to respond to any 
questions you may have.

    Senator Fitzgerald. Ms. Weinstein, thank you very much.
    Ms. Autumn Alexander Skeen from Walla Walla, Washington. 
Thank you very much for being here.

             STATEMENT OF AUTUMN ALEXANDER SKEEN, 
                CHILD PASSENGER SAFETY ADVOCATE

    Ms. Skeen. Mr. Chairman and Senators: I am Autumn Alexander 
Skeen of Washington state. Thank you for allowing me to 
testify. It is seemly that this opportunity would come less 
than 2 weeks after my son's birthday. Spring and Easter are the 
most painful times now, their message of new life and green 
glory underscoring what Anton has lost. He would have been 9 
years old this year, just like your son.
    But Anton was 4 years old and a good-sized lad when he, his 
sister and I came home from Japan for summer vacation in June 
1996, leaving my husband at his post in Tokyo as the Pacific 
editor of Stars and Stripes. We were to have a whole summer at 
our family cabin in central Oregon.
    My parents live in Seattle and for the summer I borrowed 
their SUV, a 1988 Dodge Raider. In the whirl of travel, my mind 
quickly touched upon the basics of transport. The front seats 
were where the only lap and shoulder belts were in this 
vehicle, and of course it had no air bags. Washington state law 
said you could buckle children Anton's size and weight, nearly 
50 pounds and too big for a child car seat, into seat belts. I 
concluded he should be up front with the best seat belts.
    I am a journalist. I had researched the law in 1993, 
writing on the lack of child passenger safety laws on Indian 
reservations. So I felt knowledgeable about the law. I was a 
mom who played by the rules: bike helmets, limited TV time, 
brush teeth and bed time by 8:30.
    Anton's grandmother remembers buckling him into the seat 
that morning when we left Seattle. ``I get to ride up in front 
with mommy,'' he crowed to her. He was a sunny child, loving, 
smart, healthy--everything a parent could want.
    He and I headed toward central Washington, planning to 
visit friends there before driving on to Oregon. My daughter 
Geneva was to follow us the next day with my sister, her aunt. 
Two and a half hours into our drive, we were traveling 
approximately 65 miles an hour on I-82, crossing a high desert 
steppe, a desolate place used by the Army as a firing range. 
Anton's head leaned against the window as he fell asleep in the 
warm sun.
    When the noon news faded, I reached for the car radio, 
which was positioned exceptionally low, just over the car's 
hump. At the same time, we passed a semi truck in the right-
hand lane, and basically that is all I remember. At the same 
time I leaned over, we apparently hit a gust of wind, drifting 
onto the shoulder, which had no rumble strips. I must have 
startled when I realized where we were and overcorrected. The 
wheels bit into the volcanic ash and sand, tripping the vehicle 
into a triple roll.
    They found me unconscious in the car, critically injured, 
but nonetheless alive. The seat belt held me in, saving my 
life. But next to me they found no one. When the Washington 
State Patrol examined the car, they found Anton's seat belt 
still clicked shut, but Anton was in the median, dead from 
massive head injuries. The seat belt had failed to hold him in 
and he was thrown out, only to have the car roll over him, and 
just that fast this beautiful boy was gone, never to be seen 
nor held by me again.
    Anton did get to the cabin in Oregon in the end, but as 
ashes, ashes we spread in the cold Metolius River. I have a 
river since then, too, for the pain of missing him and the pain 
of knowing what he has missed is an insurmountable sorrow for 
his father and me.
    I realize, however, one mother's broken heart alone is not 
enough to change a nation's behavior. But Anton's death was no 
anomaly. Some 500 children in Anton's age group bloody the road 
sides of America and die. Thousands more are hurt for life. 
Since this last Thanksgiving, within a 50-mile radius of my 
house, in separate incidents a 5\1/2\ year old boy in an adult 
seat belt was partially thrown out in a rolling pickup truck 
and died, a 6 year old girl in an adult seat belt was thrown 
out in a crash and died. Last week, in a three-car collision 
another 6 year old was injured by the adult seat belt itself. 
These are just the recent ones I know about in rural southeast 
Washington state.
    These are not statistics who suffer or die. These are 
worlds that die: Tonka trucks and teddy bears packed away, Dr. 
Seuss and Curious George stories boxed up, hollow birthdays 
celebrated only with prayers and burning candles. The start of 
the school year only signals more sadness for us parents, 
mentally graduating lost children along: first grade, second 
grade, and now third grade.
    Because many of these deaths are preventable, guilt and 
blame drive divorce, chemical dependency, family dysfunction, 
and, yes, suicide, to fill the empty silhouette of a child.
    I was fortunate in one way. My marriage and psyche have 
survived this catastrophe. Nonetheless, almost equal to my 
sorrow is my rage, at myself and at the other elements of this 
horror--foremost, the lack of regulation in regard to safety 
practices and safety equipment for passengers smaller than 170-
pound males. Where have our governments been? Even though car 
crashes are the number one killer of children, apparently there 
has not been enough dead youngster data to set off a 
commensurate alarm.
    Yet people in safety and automotive circles have known 
about this problem of poor fit for the post-car seat aged child 
since the late 1980's. Safety equipment in a car is no 
guarantee, but it does imply a chance. Perhaps Anton would not 
have survived the crash forces, but we will never know, because 
his seat belt did not, could not, deliver.
    Too late, in retrospect I see how ludicrous it was to think 
its ill fit would suffice. But I extrapolated then that if the 
law said it was OK, someone somewhere had tested the 
engineering. Adult seat belts are better than nothing. 
Nonetheless, they present an illusion of safety, a lie in 
effect to these children who trust us with their very lives, 
the same way I naively trusted the law.
    I am not the only one. Parents are awash in health and 
safety messages. Their priority filters tell them that if a 
warning is not law the potential is not life-threatening. 
Nothing could be further from the truth when it comes to car 
crashes.
    In our commuter society, children travel more than a 
thousand car trips a year, and yet they are subjected to the 
capricious nature of state child passenger safety laws, all of 
which, even Washington and California's new improved ones, fall 
short of best practice. But parents do not realize this.
    These treasured children are Americans first. They carry 
American passports, not state passports. They deserve a uniform 
standard of regulatory protection coast to coast, whether that 
involves auto design or booster seats or both. As citizens, it 
is their birth right to come of age. We all failed Anton. Good 
conscience and good government demand we not fail another 
vulnerable young spirit.
    This ends my testimony. I will answer any questions. Thank 
you.
    [The prepared statement of Ms. Skeen follows:]

 Prepared Statement of Autumn Alexander Skeen, Child Passenger Safety 
                                Advocate
    Mr. Chairman and Senators of the Committee, I am Autumn Alexander 
Skeen of Washington state.
    Thank you for allowing me to testify. It is seemly that this 
opportunity would come less than two weeks after our son's birthday. 
Spring and Easter are the most painful times now, their messages of new 
life and green glory underscoring what Anton has lost. He would have 
been nine years old this year, just like your son, Senator Fitzgerald.
    But Anton was four years old and a good-size lad, when he, his 
sister and I came home for summer vacation in June 1996, leaving my 
husband at his post in Tokyo as the Pacific editor of Stars and 
Stripes. We were to have a whole summer at our family cabin in Central 
Oregon.
    My parents live in Seattle and for the summer I borrowed their SUV, 
a 1988 Dodge Raider. In the whirl of travel, my mind quickly touched 
upon the bases of transport: The front seats were where the only lap-
shoulder belts were in this vehicle. And of course, it had no air bags. 
Washington state law said you could buckle children Anton's size and 
weight--nearly 50 pounds and too big for a child carseat--into 
seatbelts. I concluded he should be up front with the best seatbelts. 
I'm a journalist; I had researched the law in 1993, writing on the lack 
of child passenger safety laws on Indian reservations, so I felt 
knowledgeable about the law. I was a mom who played by the rules--bike 
helmets, limited TV time, brushed teeth and bedtime by 8:30.
    Anton's grandmother remembers buckling him into the seat that 
morning we left Seattle: ``I get to ride up in front with Mommy!'' he 
crowed to her. He was a sunny child, loving, smart, healthy--everything 
a parent could want.
     He and I headed toward Central Washington, planning to visit 
friends there before driving on to Oregon. My daughter Geneva was to 
follow us the next day with my sister, her aunt. Two and a half hours 
into our drive, we were traveling approximately 65 miles an hour on 
I82, crossing a high desert steppe, a desolate place used by the army 
as a firing range. Anton's head leaned against the window as he fell 
asleep in the warm sun.
    When the noon news faded I reached for the car radio, which was 
positioned exceptionally low, just over the car's hump. At the same 
time, we passed a semi-truck in the right-hand lane. And basically 
that's all I remember. At the same time I leaned over, we apparently 
hit a gust of wind, drifting onto the shoulder, which had no rumble 
strips. I must've startled when I realized where we were and 
overcorrected. The wheels bit into the volcanic ash and sand, tripping 
the vehicle into a triple roll.
    They found me, unconscious in the car, critically injured, but 
nonetheless alive. The seatbelt held me in, saving my life.
    But next to me, they found no one. When the Washington State Patrol 
examined the car, they found Anton's seatbelt still clicked shut, but 
Anton was in the median, dead from massive head injuries. The seatbelt 
had failed to hold him in, and he was thrown out, only to have the car 
roll over him.
    And just that fast, this beautiful boy was gone, never to be seen 
nor held by me again.
    Anton did get to the cabin in Oregon in the end but as ashes, 
Senators, ashes we spread in the cold Metolius River. I have wept a 
river since then, too, for the pain of missing him and the pain of 
knowing what he has missed is an insurmountable sorrow for his father 
and me.
    I realize, however, one mother's broken heart alone is not enough 
to change a nation's behavior, but Anton's death was no anomaly. Some 
500 children in Anton's age group bloody the roadsides of America and 
die; thousands more are hurt for life. Since this past Thanksgiving, 
within a 50-mile radius of my house in separate incidents, a 5\1/2\ 
year old boy in an adult seatbelt was partially thrown out in a rolling 
pick up and died; a 6-year-old-girl in an adult seatbelt was thrown out 
in a crash and died, last week in a three-car collision another 6-year-
old was injured by the adult seatbelt itself. And those are just the 
ones I know about in rural southeast Washington.
    These aren't statistics who suffer or die, these are worlds that 
die: toy trucks and teddy bears packed away; bedtime stories boxed up; 
hollow birthdays celebrated only with prayers and burning candles. The 
start of the school year only signals more sadness for parents--
mentally graduating lost children along: first grade, second grade, and 
now third grade. Because most of these deaths are preventable, guilt 
and blame drive divorce, chemical dependency, family dysfunction and 
yes, suicide to fill the empty silhouette of the child.
    I was fortunate in one way--my marriage and psyche have survived 
this catastrophe. Nonetheless, almost equal to my sorrow is my rage--at 
myself and at the other elements of this horror, foremost the lack of 
regulation in regard to safety practices and safety equipment for 
passengers smaller than 170-pound males.
    Where have our governments been? Even though car crashes are the #1 
killer of children, apparently there hasn't been enough dead-youngster 
data to set off a commensurate alarm. Yet, people in safety and 
automotive circles have known about this problem of poor fit for the 
post-carseat age child since the late 1980's. Safety equipment in a car 
is no guarantee, but it does imply a chance. Perhaps Anton would not 
have survived the crash forces, but we'll never know because his 
seatbelt did not, could not deliver. Too late, in retrospect I see how 
ludicrous it was to think its ill fit would suffice. But I extrapolated 
then that if the law said it was OK, someone somewhere had tested the 
engineering. Adult seatbelts are better than nothing, nonetheless they 
present an illusion of safety, a lie in effect, to these children who 
trust us with their very lives, the same way I naively trusted the law.
    I'm not the only one. Parents are awash in health and safety 
messages. Their priority-filters tell them that if a warning is not 
law, the potential is not life threatening. Nothing could be further 
from the truth when it comes to car crashes.
    In our commuter society, children travel more than 1,000 car trips 
a year and yet they are subjected to the capricious nature of state 
child passenger safety laws, all of which, even Washington and 
California's new improved ones, fall short of best practice. But 
parents don't realize this.
    These treasured children are Americans first; they carry American 
passports, not state passports. They deserve a uniform standard of 
regulatory protection coast to coast, whether that involves auto 
design, or booster seats or both. As citizens, it's their birthright to 
come of age. We all failed Anton; good conscience and good government 
demand we not fail another vulnerable young spirit.

    Senator Fitzgerald. Ms. Skeen, I want to thank you for that 
very powerful and compelling testimony and thank you and 
applaud you for your courage in coming forward with that, and 
for all the good work and advocacy you have been doing in this 
area. We will work so that there are not other parents what 
have to undergo the suffering that you have endured, and we 
will keep Anton in our memories. Thank you very much for your 
courage in coming forward with that powerful testimony.
    Mr. Lund, the Chief Operating Officer of the Insurance 
Institute for Highway Safety, thank you for being here.

              STATEMENT OF ADRIAN K. LUND, CHIEF 
          OPERATING OFFICER, INSURANCE INSTITUTE FOR 
                         HIGHWAY SAFETY

    Dr. Lund. Thank you, Mr. Chairman. The Insurance Institute 
for Highway Safety is a nonprofit research and communications 
organization that identifies ways to reduce motor vehicle 
crashes and crash losses.
    Senator Fitzgerald. Mr. Lund, could you just pull that 
microphone a little bit closer to you. I would appreciate it. 
Thank you.
    Dr. Lund. I am the Institute's Chief Operating Officer and 
I am here to discuss the issue of child occupant protection, in 
particular the advisability of requiring booster seats. With me 
today are Michele Fields, General Counsel for the Institute, 
and Shelly Martin, our Government Affairs Representative, who 
will help me at various stages.
    To begin, I want to emphasize that the Institute believes 
that the main issue with regard to child occupant protection is 
the fact that so many children ride unrestrained. Although 
child restraint use is up markedly since the 1970's and 1980's, 
only one in three children killed in motor vehicle crashes in 
1999 were restrained.
    When it comes to protecting infants and children in motor 
vehicles, the key issue is whether a restraint system is used. 
It is not the type of restraint or whether it is installed 
precisely as the manufacturer intended. Although these can be 
important, it is not the main issue. Research indicates that 
even when restraints are misused, they do often provide good 
protection. We should not lead parents to assume that the belt 
provides no protection.
    When the Institute evaluated child restraint laws around 
the nation last year, we did not consider what kind of 
restraint a law requires for children or how extensively it 
defined proper use of the restraint. Instead, the principal 
concern was whether the laws included provisions that we know 
from data maximize the use of some kind of restraint. Our 
emphasis throughout was to ensure that all children in all 
vehicle seats are restrained all the time.
    In this situation, where do boosters come in? Restraint use 
is a particular concern among those children who are graduating 
from child restraints and for whom boosters are being 
recommended. Research shows that restraint use declines 
precipitously among children ages 3 to 6 compared with their 
zero to 2 year old. It declines from around 95 percent to 
around 40 to 50 percent in rear seats. We do not know why this 
decline occurs, but it means these children are at increased 
risk of injury in crashes.
    Are boosters the answer? The fact is boosters can help. A 
child should use a lap belt that fits over the upper legs or 
pelvis and not the stomach. The shoulder belt should cross the 
center of the chest. It should not come across the neck and 
face. For some children, this optimal level of restraint may 
not be achievable without a booster seat. However, the 
Institute believes that requiring boosters is a misplaced 
priority at this time.
    First, requiring boosters complicates the first priority in 
protecting child occupants, which is to get kids buckled up in 
the first place. It means that we must convince parents not 
only to buckle their children, but also to have booster seats 
available for all the children they might carry. A parent who 
buckled their child into a vehicle's lap-shoulder belt alone 
would become a law-breaker even if no booster were required to 
achieve a good fit.
    Now, a second concern at the Institute is that booster 
seats are not all the same. They do not fit all cars or all 
kids the same. To get a handle on this, the Institute has 
examined how different booster seats fit two different children 
in three different vehicles. Our finding is that booster seats 
sometimes improve belt fit and sometimes have no effect or can 
make things worse.
    I have asked Shelly to help us look at some exhibits here. 
I would like to start with this picture of 6 year old Laura in 
the rear seat of a Honda Accord. As you can see, the adult lap-
shoulder belt fits Laura in this vehicle reasonably well 
without a booster. Now, she still might benefit from a booster 
in perhaps another vehicle with different belt geometry. But in 
this vehicle, when we looked at different booster seats we saw 
that they were as likely to worsen belt fit for her as to 
improve it.
    The second exhibit----
    Senator Fitzgerald. Dr. Lund, could I stop you for a second 
and ask you how much that young girl who you said was 6 years 
old weighed?
    Dr. Lund. She weighs 62 pounds.
    Senator Fitzgerald. 62 pounds.
    Dr. Lund. So she's just over the 60-pound limit, but well 
under the 80-pound limit.
    Senator Fitzgerald. How tall would she have been?
    Dr. Lund. She is 52 inches.
    Senator Fitzgerald. 52 inches, and she does look like she 
fits into that.
    Dr. Lund. Yes.
    Now, the second exhibit shows a different story. This is 5 
year old Camron in the rear seat of a Hyundai Excel. Without 
benefit of a booster, we see two problems with the belt fit. 
First, the belt does lie across Camron's neck and face. But 
most importantly, we see that the belt crosses his stomach 
rather than lying down on his thighs or across his pelvis.
    Now, if we go to the next exhibit, we see Camron in a 
Britax Star-Riser booster seat. This is not an ad for Britax, 
but there are other boosters that do this as well. But we see 
that with this Britax seat a good improvement in the belt fit. 
We see that the belt has been re-routed across the chest and, 
most importantly, the arms on this seat are keeping the lap 
belt low on the thighs and pelvis. That is what you want to do 
to avoid abdominal injuries.
    Now, if we go to the next exhibit, here is the problem that 
we see. This is the Jupiter Comfort Rider GTX booster. It does 
not help so much. The belt fit is somewhat better as it passes 
over the shoulder, but it achieves this by lengthening the 
amount of shoulder belt that is out. That means that in a 
frontal crash this seat is going to rotate further in that 
crash, allowing the head to go further forward. We know that in 
real world crashes a problem for kids is head injuries, even 
restrained kids.
    More importantly in my view in this case, though, is the 
fact that if you look at that lap belt fit on the child, you 
see that the lap belt is still in the stomach, threatening 
abdominal injuries in a severe frontal crash.
    Thus, our research is indicating that booster seats do not 
necessarily improve belt fit. Whether they do depends on the 
specific child, the specific booster seat, and the specific car 
model in which the two are positioned.
    That leads me to the final point that I would like to make. 
Booster seats are not well defined. In general, a booster seat 
raises a child up for a better fit. But does this mean a firm 
cushion qualifies as a booster seat? What about a phone book? 
We note that the National Highway Traffic Safety Administration 
sets forth extensive testing requirements for infant and child 
seats, and all states require the use of federally approved 
seats. These seats have been tested and approved.
    But these requirements do not apply to booster seats for 
children who weigh more than 50 pounds. It makes no sense in 
our view to require the use of special restraint devices that 
have not been tested or approved for the children that they are 
required for.
    Given these observations, the Institute has the following 
recommendations for improving child occupant protection at this 
time. The very first order of business is to get older children 
into restraints. Lap-shoulder belts may have limitations, but 
they still greatly improve the likelihood that children will 
survive in crashes. State legislatures are already moving to 
remove the loopholes in restraint legislation that are partly 
responsible for the decline in restraint use by elder children. 
The next step is we have got to get the police enforcing those 
laws as well.
    At the same time, though, we must recognize that these 
belts do not fit all children well. Research should proceed to 
document the benefits that booster seats can and cannot 
provide. We need to understand not only the potential 
limitations of lap-shoulder belts, but also the aspects of 
booster seats that help or do not help.
    We do not yet--I go back to my point that not all boosters 
are the same, and our problem is we do not know which 
differences are the most important. We need research. At a 
minimum, before we require booster seats we need a federal 
definition of booster seats that is based on science and test 
requirements that are standard and realistic.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Dr. Lund follows:]

    Prepared Statement of Adrian K. Lund, Chief Operating Officer, 
                 Insurance Institute for Highway Safety
    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce motor 
vehicle crashes and crash losses. I am the Institute's chief operating 
officer, and I am here to discuss the issue of child occupant 
protection--in particular, the advisability of requiring booster seats.
Main Issue is Whether Restraints are Used
    The proportion of children who ride restrained has increased 
markedly since the early 1980s,<SUP>1,</SUP>\2\ but too many children 
still ride unrestrained. The results are deadly. In 1999, more than 
1,300 child passengers (12 and younger) died in crashes. Only 36 
percent of them were restrained. Another 14 percent were either 
improperly restrained (in all likelihood, gross misuse of the child 
seat or safety belt) or restraint use was unknown. Fifty percent of the 
children who died were unrestrained. Thus, nearly two of every three 
child deaths probably involved a failure to use an available restraint 
system. Among the older children in this group, restraint use was lower 
than among the infants and youngest children (0-3 years old).
---------------------------------------------------------------------------
    \1\ Williams, Allan F. 1976. Observed child restraint use in 
automobiles. American Journal of Diseases of Children 130:1311-17.
    \2\ National Highway Traffic Safety Administration. May 1999. 
National occupant protection use survey, 1998, controlled intersection 
study (draft). Research Notes. Washington, D.C. U.S. Department of 
Transportation.

                                   CHILDREN KILLED IN PASSENGER VEHICLES, 1999
----------------------------------------------------------------------------------------------------------------
                                     Unrestrained         Unknown/Improper Restraint          Restrained
     Age           Count     -----------------------------------------------------------------------------------
                                   NO.         Percent         NO.         Percent         NO.         Percent
----------------------------------------------------------------------------------------------------------------
   0-3 years        451            172           38%           80            18%           199           44%
   4-6 years        281            148           53%           37            13%           96            34%
   7-8 years        215            119           55%           33            15%           63            29%
  9-12 years        362            212           59%           33            9%            117           32%
----------------------------------------------------------------------------------------------------------------
       TOTAL       1,309           651           50%           183           14%           475           36%
----------------------------------------------------------------------------------------------------------------
Source: Fatality Analysis Reporting System

    So, when it comes to protecting infants and children in motor 
vehicles, the key issue is whether a restraint system is used--not what 
type of restraint or whether it is installed precisely as the 
manufacturer intended (research indicates that, even when restraints 
are misused, they often provide good protection).\3\ What matters is 
that so many children still are riding unprotected by any kind of 
restraint.
---------------------------------------------------------------------------
    \3\ Melvin, John W.; Weber, Kathleen; and Lux, Paula. Performance 
of child restraints in serious crashes. Proceedings of the 24th Annual 
Conference of the American Association for Automotive Medicine, 117-31. 
Morton Grove, IL: American Association for Automotive Medicine.
---------------------------------------------------------------------------
Ratings of State Laws Based on Likelihood of Increasing Restraint Use
    The Insurance Institute for Highway Safety always has placed the 
highest importance on enacting and enforcing laws that require 
restraint use by all children sitting in all vehicle seats. Last year 
the Institute rated selected traffic safety laws in every state, based 
on research indicating the extent to which the laws enhance highway 
safety (attachment).\4\ To evaluate laws protecting child passengers, 
the Institute considered the comprehensiveness of both child restraint 
and adult belt use laws, which cover older children. The laws that earn 
the highest ratings provide primary coverage for all children 12 and 
younger in all vehicle seats. (Primary coverage means police may stop 
and ticket motorists for restraint violations alone. All child 
restraint laws are primary, but most adult belt laws are secondary, 
which means motorists have to be stopped for some other violation 
first.) Laws with low ratings allow some children to ride unrestrained.
---------------------------------------------------------------------------
    \4\ Insurance Institute for Highway Safety. 2000. How state laws 
measure up. Status Report 35:10.
---------------------------------------------------------------------------
    Children too old to be covered under the child restraint laws in 11 
states (Alabama, Arizona, Idaho, Illinois, Indiana, Iowa, Minnesota, 
Mississippi, New Jersey, Ohio, and Pennsylvania) are protected by adult 
belt laws that apply only to people riding in the front seat. Thus, it 
is perfectly legal in these states for children to ride unrestrained in 
rear seats. This makes no sense. The back seat is where we tell parents 
it is safest for their children to ride, so restraint laws should cover 
the kids who sit there. Closing such loopholes in the laws should be 
our highest priority.
    In rating the laws, the Institute did not consider what kind of 
restraint a law requires for children of various ages. Adults could 
buckle children into rear-facing infant restraints, forward-facing 
child restraints, or adult lap/shoulder belt systems, as appropriate. 
This reflects the Institute's major concern, which is to ensure that 
all children in all vehicle seats are restrained all the time.
Restraint Use Declines After Age Two
    The problem of children riding unrestrained is not uniform from 
infant through preteen years. Restraint use declines after age two, 
according to recent Institute surveys conducted in three states. In 
particular, restraint use drops off precipitously among children ages 
3-6 compared with 0-2 year-olds.\5\ We do not know why this is 
happening, but it means these children are at unnecessary injury risk 
in crashes.
---------------------------------------------------------------------------
    \5\ Ferguson, Susan A.; Wells, JoAnn K.; and Williams, Allan F. 
2000. Child seating position and restraint use in three states. Injury 
Prevention 6:24-28.

                     PERCENT OF CHILDREN RESTRAINED
------------------------------------------------------------------------
                                     FRONT SEAT  (in     REAR SEAT  (in
                                         percent)           percent)
------------------------------------------------------------------------
MICHIGAN
    younger than 1                                82                 96
    1-2 years                                     69                 98
    3-6 years                                     56                 44
    7-12 years                                    69                 39
NORTH CAROLINA
    younger than 1                                89                 94
    1-2 years                                     83                 96
    3-6 years                                     66                 57
    7-12 years                                    79                 39
TEXAS
    younger than 1                                77                 89
    1-2 years                                     64                 92
    3-6 years                                     55                 42
    7-12 years                                    73                 37
------------------------------------------------------------------------
Source: Ferguson, Susan A.; Wells, JoAnn K.; and Williams, Allan F.
  2000. Child seating position and restraint use in three states. Injury
  Prevention 6:24-28.

Are Booster Seats the Answer?
    There is merit in the idea of booster seats for some children who 
have outgrown their child restraints. Experts agree that a child should 
use a lap belt that fits over the upper legs or pelvis (not the 
stomach) and a shoulder belt that crosses the center of the chest (not 
the face or neck). The knees should bend at the edge of the vehicle 
seat so the child is not encouraged to slouch down for comfort, 
displacing the lap belt up over the stomach or perhaps even allowing 
the child to slide out from under the belt system.
    For some children, this level of restraint may not be achievable 
without a booster seat, so some people would like to require boosters. 
The idea is that adult belts will fit better, more 3-6 year olds will 
ride restrained, and these children will be better protected than in 
adult belts alone. Three states already have passed booster seat 
requirements covering children to age 6 or 60 pounds: Arkansas, 
California, and Washington. States also are considering legislation 
that would extend booster seat requirements to children who weigh less 
than 80 pounds or are shorter than 57 inches, as recommended on the 
National Highway Traffic Safety Administration's website.\6\
---------------------------------------------------------------------------
    \6\ National Highway Traffic Safety Administration. 2001. 
www.nhtsa.dot.gov/people/injury/childps/Boosterseat/talking.html. 
Washington, D.C. U.S. Department of Transportation.
---------------------------------------------------------------------------
    The Institute believes emphasizing boosters is a misplaced 
priority. One problem is that it complicates the task of complying with 
the law. Parents have to buy boosters and have them available for any 
children they might take along in their cars. A parent who buckles a 
child into a vehicle's lap/ shoulder belt alone would become a 
lawbreaker, even if no booster were needed to achieve a good belt fit. 
Adding booster seat requirements for 4-6 year olds without also 
extending the coverage of child restraint laws to 7-12 year-olds still 
would leave substantial numbers of children unprotected.
    Booster seat requirements still might be a good idea if the 
boosters were to greatly improve the fit of adult safety belts. But it 
is not clear that they do. Institute researchers have tried to get a 
handle on this by buckling two children (a 6-year-old girl 52 inches 
tall weighing 62 pounds; a 5-year-old boy 45 inches tall weighing 42 
pounds) into 6 different booster seats positioned in 3 different 
passenger vehicles (a small car with contoured seats, a midsize car 
with bench seats, and a passenger van with captain's chairs). For 
comparison, the researchers conducted the same placements with a Hybrid 
III dummy representing a 6-year-old boy (50th percentile height at 45 
inches tall; 75th percentile weight at 52 pounds). Sixty-three 
different placements were assessed, including ones in which no booster 
seats were used (adult belt systems only).
    One finding is that some booster seats are very good--that is, they 
route the adult lap/shoulder belt correctly--while others provide only 
marginal improvement in belt fit. Getting a good one does not 
necessarily mean buying the most expensive one. The Britax Star-Riser 
is a good choice at $100. Evenflo's Right Fit is another good booster 
seat costing only $20.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Adult safety belts alone (above left) do not fit some children, 
like 5-year-old Camron who weighs 42 pounds. The shoulder belt cuts 
across his face and neck, while the lap belt is much too high across 
his stomach instead of lower on his upper legs or pelvis. Plus his 
knees do not bend at the edge of the vehicle seat, so he is likely to 
scoot forward. The right booster seat can help. The key is to get the 
right one. The Jupiter Komfort Rider GTX (above middle) does not help 
much. The shoulder belt is routed better than with an adult belt alone, 
but the lap belt still is positioned too high. A better fit is in the 
Britax Star-Riser (above right), which routes both the lap and shoulder 
portions for a correct fit. But not every child 4-8 years old needs a 
booster seat. Laura (below), who is nearly 7 and weighs 62 pounds, fits 
reasonably well in an adult belt system without a booster.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The main finding of this research is that booster seats enhance 
belt fit in some configurations. In others, a booster makes no 
difference or results in a poorer fit. All of this variability makes it 
difficult, if not impossible, to generalize about which groups of 
children would benefit from a booster seat requirement. It depends on 
the specific child, the specific booster seat, and the specific car 
model in which the two are positioned.
    An even more basic problem with requiring booster seats is that we 
in the United States do not have a clear definition of what boosters 
for older children are. In general, a booster seat raises a child up 
for a better fit in an adult belt system. Does this mean a firm cushion 
would qualify as a booster seat? What about a phone book? Kids, even 
when they are the same age, vary widely in height and weight. Booster 
seats vary in size and shape. Vehicle seats vary from bench-type to 
contoured. Safety belt systems also vary from car model to model. So 
which boosters work best in which vehicles? Which children need booster 
seats in what vehicle models? For how long? The answers vary from child 
to child and vehicle to vehicle. There is too much variability to apply 
a single booster seat requirement to all kids of specified ages (or 
heights or weights) in all cars.
    Another issue involves testing. The National Highway Traffic Safety 
Administration sets forth extensive testing requirements for infant and 
child restraints. All states require the use of federally approved 
seats. But these requirements do not apply to booster seats for 
children who weigh more than 50 pounds. It makes no sense to promote, 
let alone require, the use of devices for older children that have not 
been tested or approved.
Recommendations
    The first order of business is to get older children in restraints 
regardless of what type of restraint is used. Lap/shoulder belts may 
have limitations, but they still greatly improve the likelihood that 
children will survive in crashes. State legislators already are 
extending child restraint laws to cover older children, which 
accomplishes two objectives. It closes loopholes that once allowed some 
children to ride unrestrained, and it extends primary enforcement of 
restraint laws to more children. (All child restraint laws are primary, 
but most adult belt laws are secondary.)
    At the same time, government and other researchers are proceeding 
with studies to document the benefits that booster seats can and cannot 
provide. These studies should continue. We need to understand not only 
the limitations of lap/shoulder belts for children but also the aspects 
of booster seats that help remedy such limitations. Not all booster 
seats are the same, and we do not yet know which differences are the 
important ones. At a minimum, we need a federal definition of booster 
seats based on science and test requirements that are standard and 
realistic.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
State Traffic Laws Rated Good to Poor, Revealing Nation's Best and 
        Worst
Ratings Based on Likelihood Laws Will Enhance Traffic Safety by 
        Influencing Driver Behavior
    Traffic safety laws are on the books in every state to reduce 
deaths and injuries in crashes by changing driver behavior. The idea is 
to deter dangerous behavior like driving while impaired by alcohol and 
encourage beneficial habits like buckling up safety belts.
    How do these laws compare from state to state? Overall the 
strongest laws in the United States are in California, the District of 
Columbia, and Maryland. The weakest traffic safety laws are those in 
Montana, South Carolina, and South Dakota.
    Research has repeatedly shown the benefits of good traffic safety 
laws that are enforced. This has been established as the only way to 
achieve high belt use rates, for example. The starting point is to put 
a good law on the books, which is why the Institute has conducted a 
comprehensive assessment of key traffic safety laws in all 50 states 
and the District of Columbia.
    ``We didn't evaluate every law by any stretch,'' says Institute 
senior vice president Allan Williams. ``We looked at provisions of 
selected laws that research shows have improved driver behavior. 
Clearly some states do a better job than others of getting good traffic 
safety laws on the books.''
    Even if a law includes strong provisions, enacting it isn't 
sufficient to influence the behavior of many drivers. The necessary 
next step to maximize a law's effectiveness is to publicize and enforce 
it. ``People don't usually comply with traffic laws because they think 
doing so will prevent crashes or save lives. People comply if they 
believe there's a real chance of getting a ticket or points on their 
license if they don't. This is why we didn't give high marks to laws 
that are on the books but are hard to enforce,'' Williams explains.
    Institute researchers assessed alcohol-impaired driving laws, young 
driver licensing laws, safety belt use laws, child restraint use laws, 
motorcycle helmet use laws, and laws allowing camera enforcement of red 
light violations. A rating of good, acceptable, marginal, or poor is 
assigned to each law, or set of related laws, in each state (see pp. 
32-33). These ratings reflect how well the provisions of a given law 
can be expected to improve safety, based on research identifying what 
works and doesn't work to achieve such improvements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


DUI/DWI laws: ``There used to be a lot of high-profile activity to 
        reduce alcohol-impaired driving. But lately people seem to 
        believe we've solved this problem, so the push to strengthen 
        laws and enhance enforcement has waned,'' Williams says. The 
        Institute has evaluated four separate DUI/DWI laws in all 
        states and the District of Columbia.
    1. Under administrative license revocation laws, the license of 
every driver arrested for DUI/DWI is automatically revoked for a 
specified time. The success of such laws in reducing fatal crashes has 
been documented since the late 1980s (see Status Report, March 14, 
1988). The best administrative license revocation laws require driver's 
license removal for at least 30 days with few or no exceptions for 
hardship.
    ``Administrative license revocation is the cornerstone of an 
effective DUI or DWI program,'' Williams says. Yet Kentucky, Michigan, 
Montana, New Jersey, Pennsylvania, Rhode Island, South Carolina, South 
Dakota, and Tennessee still don't have such laws on the books. Another 
17 states don't require revocations lasting at least 30 days.
    2. Under the laws in 21 jurisdictions, it's illegal to drive with a 
blood alcohol concentration, or BAC, at or above 0.08 percent 
(elsewhere it's usually 0.10 percent). Research indicates that 0.08 
laws have reduced fatal crashes in which alcohol is a factor.
    3. Across the United States, it's illegal for people younger than 
21 to drive with any measurable BAC. All jurisdictions have such laws, 
dubbed zero tolerance, because in 1998 the federal government began 
withholding highway funds from states without the provisions. But the 
laws are far easier to enforce in some states than others. Institute 
researchers found that laws in Massachusetts, Nevada, New Jersey, New 
Mexico, North Dakota, Rhode Island, and Tennessee are virtually 
unenforceable because police must suspect a young driver has a high BAC 
before administering a breath test to check for violations of the zero 
tolerance law, under which any measurable BAC constitutes a violation 
(see Status Report, March 11, 2000; on the web at 
www.highwaysafety.org).
    4. High-profile sobriety checkpoints are effective ways to deter 
alcohol-impaired driving. They increase drivers' perceptions that 
apprehension is likely to follow the offense. Yet checkpoints aren't 
permitted in Idaho, Iowa, Michigan, Minnesota, Montana, Oregon, Rhode 
Island, Texas, Washington, Wisconsin, or Wyoming.
    Graduated licensing laws: The newest drivers are the most hazardous 
because they're not only inexperienced but also immature. Teenage 
drivers have the highest crash risk of any group, and 16 year-olds pose 
a much greater risk than older teens. This is why graduated licensing 
is being embraced by state legislators. Its purpose is to protect 
beginners by phasing in full driving privileges so teenagers graduate 
to unrestricted licenses over at least a year (see Status Report, March 
11, 2000; on the web at www. highwaysafety.org).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Beginning with Florida in 1996, ``graduated licensing has caught on 
rapidly,'' Williams points out. ``An impetus has been media attention 
on young driver crashes, especially fatal crashes. This attention has 
kept the issue in the forefront and helped make state legislators 
receptive to graduated licensing.''
    Now only nine states (Alabama, Arizona, Hawaii, Kansas, Montana, 
Nevada, Oklahoma, Texas, and Wyoming) fail to include any of the key 
provisions of graduated licensing. In the other 42 jurisdictions, 
there's wide variation in the strength of the provisions.
    Williams explains that ``the most important aspect of graduated 
licensing is to restrict driving once a beginner gets a license.
GOOD LAWS
ALCOHOL
    Alabama
    California
    Florida
    Hawaii
    Kansas
    New Hampshire
    Utah
    Vermont
YOUNG DRIVERS
    California
    District of Columbia
    Massachusetts
    New Jersey
    Oregon
    Tennessee
    Washington
SAFETY BELT USE
    California
    District of Columbia
    Oregon
CHILD RESTRAINT USE
    Alaska
    California
    Colorado
    Connecticut
    Delaware
    District of Columbia
    Georgia
    Hawaii
    Kansas
    Louisiana
    Maryland
    Michigan
    Missouri
    New Hampshire
    New York
    North Carolina
    North Dakota
    Oklahoma
    Oregon
    Rhode Island
    Tennessee
    Texas
    Utah
    Vermont
    Virginia
    Washington
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
HOW LAWS ARE RATED
Alcohol Laws
GOOD: an administrative license revocation law that mandates at least a 
30-day revocation for a violation with few or no exceptions for 
hardship; a law under which it's illegal to drive with a blood alcohol 
concentration (BAC) at or above 0.08 percent; a readily enforceable law 
under which it's illegal for anyone younger than 21 to drive with any 
measurable BAC (enforcement is impeded in some states because police 
must suspect that a young driver has a high BAC before administering an 
alcohol test to check for any measurable BAC); and sobriety checkpoints 
must be permitted
ACCEPTABLE: an administrative license revocation law (not necessarily 
including a 30-day revocation) or a law under which it's illegal to 
drive with a BAC at or above 0.08 percent plus at least one of the 
other provisions listed above (see GOOD)
MARGINAL: a readily enforceable law under which it's illegal for anyone 
younger than 21 to drive with any measurable BAC plus no limitations on 
conducting sobriety checkpoints
POOR: one or none of the four provisions listed above (see GOOD)
Young Driver Licensing Laws
GOOD: minimum 6-month learner's phase; once licensed, beginners are 
subject to restrictions beginning at 10 p.m. or earlier and extending 
to 5 a.m. and/or a restriction that allows no more than one passenger 
when driving unsupervised; and beginners must wait until age 17 for 
their unrestricted licenses
ACCEPTABLE: law includes the late evening/night driving restriction 
and/or passenger restriction listed above, and beginners must wait 
until age 17 for their unrestricted licenses; or law includes a minimum 
learner's phase (any length) plus some restrictions on driving hours 
and/or passengers, and beginners must wait until age 16\1/2\ for their 
unrestricted licenses
MARGINAL: law includes a minimum learner's phase (any length) plus, 
once a beginner is licensed, some restrictions on driving hours and/or 
passengers; or law includes only a learner's phase lasting a minimum of 
6 months; or law includes only restrictions on driving hours and/or 
passengers once a beginner is licensed
POOR: minimum learner's phase shorter than 6 months and no restrictions 
on driving by beginners
Safety Belt Use Laws
GOOD: law allows primary enforcement (police may stop and ticket 
motorists for belt law violations alone); fines and/or license points 
are imposed for violations; and law applies to occupants in rear as 
well as front seats
ACCEPTABLE: law allows primary enforcement but doesn't require belt use 
in rear seats
MARGINAL: law allows secondary enforcement (police must stop motorists 
for other violation before enforcing belt law)
POOR: either no belt use law or law doesn't impose any fine or license 
points
Child Restraint Use Laws
GOOD: all children younger than 13 in all vehicle seats are required to 
ride in infant restraints, child seats, or safety belts; enforcement is 
primary (see above for definition of primary enforcement)
MARGINAL: all children younger than 13 in all seats are required to 
ride in infant restraints, child seats, or safety belts; enforcement 
under adult belt laws may be secondary (see above for definition of 
secondary enforcement)
POOR: some children younger than 13 aren't required to be restrained
Motorcycle Helmet Use Laws
GOOD: all motorcycle riders must wear helmets
POOR: either no helmet use law or law covers only some riders
Red Light Camera Enforcement Laws
GOOD: law grants specific statewide authority for camera enforcement
ACCEPTABLE: operational camera enforcement without specific state 
authority
MARGINAL: law restricts authority for camera enforcement to specific 
communities only
POOR: no law grants authority for camera enforcement and no operational 
camera enforcement
GOOD LAWS
MOTORCYCLE HELMET USE LAWS
    Alabama
    California
    District of Columbia
    Georgia
    Maryland
    Massachusetts
    Michigan
    Mississippi
    Missouri
    Nebraska
    Nevada
    New Jersey
    New York
    North Carolina
    Oregon
    Pennsylvania
    Tennessee
    Vermont
    Virginia
    Washington
    West Virginia
RED LIGHT CAMERA ENFORCEMENT
    California
    Colorado
    Delaware
    District of Columbia
    Hawaii
    Maryland
    States accomplish this by prohibiting unsupervised driving in high-
risk situations like at night or with passengers. The tougher these 
restrictions are and the longer they last past a beginner's 16th 
birthday, the higher we rated a state's licensing law covering young 
drivers. Also important is an initial learning phase lasting six months 
or longer when only driving under supervision is allowed.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Safety belt use laws: In 1984, New York enacted the nation's first 
law requiring motorists to buckle up. Within 2 years, 22 jurisdictions 
had such laws, and now all but New Hampshire does. But the provisions 
vary widely.
    For example, most states still don't allow police to stop motorists 
solely for belt violations (primary enforcement). Enforcement is 
secondary, which means motorists have to be stopped for some other 
violation first. This impedes enforcement and explains, in part, why 
belt use is significantly lower in the United States than in Canada and 
elsewhere. The laws in only 17 U.S. states and the District of Columbia 
allow primary enforcement, and even in these states the laws don't 
always cover people riding in rear seats.
    ``One thing we know from repeated research conducted since the 
early 1980s is that belt law effectiveness depends on publicity and 
enforcement,'' Williams says (see Status Report, Jan. 15, 2000; on the 
web at www. highwaysafety.org). ``It's harder to enforce a secondary 
law. This is why, when we rated state belt use laws, we considered 
whether the provisions for enforcement are primary or secondary. We 
also considered whether all occupants are covered.''
    Child restraint laws: To evaluate these, the Institute assessed not 
only the comprehensiveness of state laws covering very young children 
but also the adequacy of adult belt laws, which cover older children. 
What matters most is whether these laws together provide primary 
coverage for all children younger than 13 in all seats or allow some 
children to ride unrestrained.
    For example, children too old to be covered under the child 
restraint laws in 14 states are protected by adult belt laws that apply 
only to people riding in the front seat. Thus, it's perfectly legal for 
children to ride unrestrained in rear seats.
    ``This makes no sense,'' Williams says. ``The back seat is where we 
tell parents it's safest for their children to ride, so restraint laws 
should cover the kids who sit there.''
    Motorcycle helmet use laws: By the 1970s, helmet laws had been 
enacted in virtually all states. All riders were covered, and injuries 
among cyclists were reduced. (Wearing a helmet reduces the risk of 
death in a motorcycle crash by about onethird). But by 1980 most states 
had abandoned their motorcycle helmet laws or substantially weakened 
them by applying them only to riders younger than a specified age, 
usually 18.
    Now all riders are covered in only 21 jurisdictions. Helmet laws 
aren't on the books in Colorado, Illinois, or Iowa, and they're watered 
down in another 27 states.
    ``You might as well not have a law that doesn't apply to all 
riders,'' Williams says, ``because so few motorcyclists are the younger 
riders covered under the weak laws. Helmet use rates in states with 
limited laws are about the same as in states without any laws at all'' 
(see Status Report, April 4, 1998; on the web at www.highwaysafety. 
org). For this reason, the Institute assigned poor ratings to the laws 
in all states where helmet laws don't apply to all riders.
    Red light camera enforcement: Running red lights is a good example 
of ``everyday'' aggressive driving. It's less spectacular but a lot 
more common than the occasional headline-grabbing instances of 
aggressive driving known as road rage.
    Until a few years ago, red light violators had to be apprehended 
and ticketed one by one. The odds of this were so small that offenders 
found little reason to change their ways. But now they do, at least 
where red light cameras have been installed to snap photos of vehicles 
whose drivers deliberately run red lights. Then the violators are 
ticketed by mail.
    Such programs reduce red light running by about 40 percent (see 
Status Report, July 11, 1998; on the web at www.highwaysafety. org), 
but there's a problem. Relatively few red light camera programs are 
operational, in many cases because state laws haven't been enacted to 
authorize them. In only six jurisdictions (California, Colorado, 
Delaware, the District of Columbia, Hawaii, and Maryland) is camera 
enforcement specifically authorized for use statewide.
    ``Cameras shouldn't merely be permitted in the United States. They 
should be in wide use, as in other countries,'' Williams says. ``Red 
light running kills hundreds of people every year, more than half of 
them struck by the signal violators. To make a dent in this toll, we've 
got to encourage the use of the camera technology we know will deter 
the would-be violators.''
    For more information: Specific provisions of selected traffic 
safety laws in all 50 states and the District of Columbia are detailed 
at www.highwaysafety.org. Click on ``safety facts'' and then choose 
``state laws.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Fitzgerald. Dr. Lund, thank you very much.
    Dr. Flaura Winston, the assistant professor of pediatrics 
at the Children's Hospital of Philadelphia. Thank you, Dr. 
Winston, for being here.

       STATEMENT OF FLAURA KOPLIN WINSTON, M.D., Ph.D., 
              ASSISTANT PROFESSOR OF PEDIATRICS, 
     CHILDREN'S HOSPITAL OF PHILADELPHIA AND UNIVERSITY OF 
                PENNSYLVANIA SCHOOL OF MEDICINE

    Dr. Winston. Good morning, Mr. Chairman, Members of the 
Committee. Thank you for the opportunity to speak. My name is 
Dr. Flaura Koplin Winston. I am a biomechanical engineer as 
well as a board-certified pediatrician and the mother of two 
young boys, Zachary and Andrew. I head a pediatric injury 
research center at the Children's Hospital of Philadelphia and 
the University of Pennsylvania.
    Together with State Farm Insurance Companies, we have 
created the world's largest surveillance system for children in 
motor vehicle crashes, Partners for Child Passenger Safety. We 
now have hard data on which to base policy--not simply fitting 
children in booster seats, not opinions, but hard data on 
137,000 children in real crashes. Based on these numbers, more 
than 1.5 million U.S. children are passengers in motor vehicle 
crashes annually.
    Today more than 750 children will be injured. Nearly 100 of 
these children will be seriously injured or killed. 
Unfortunately, the most common serious injuries are to the 
brain. I understand that in most cases, restraints will save a 
child's life. That has been demonstrated many times. But many 
children will still be seriously injured if they are 
inappropriately restrained. Many of these serious injuries will 
be to the brain.
    As a physician, I know the brain is the organ least able to 
recover. These injuries to the brain tend to be the most 
devastating to families and it is essential to prevent these 
injuries.
    In a nutshell, my research shows that most parents have 
gotten the message to place their youngest children in car 
seats in the rear of the vehicle. My research bears out that 
these properly restrained children are the least likely to 
sustain devastating injuries. But at the same time, it is 
glaringly obvious that most parents have not gotten the message 
that children under age 9 are too small for adult seat belts 
and require car seats or belt-positioning booster seats.
    This lack of awareness has led to devastating injuries that 
could be prevented. My research points to the need for ensuring 
a more consistent message to parents about appropriate 
restraint, backed up by consistent laws and their enforcement. 
Preventable injuries occur every day.
    Let me demonstrate the safety advantages of a belt-
positioning booster seat. This is a simulation that was based 
on multiple crashes that we investigated. The above simulation 
shows a 6 year old child properly restrained in a belt-
positioning booster seat. This child barely moves during the 35 
mile per hour crash.
    In the below simulation, the same child is improperly 
restrained in a seat belt. This child dummy demonstrates what 
many children will do with an uncomfortable seat belt that 
falls over their neck. The child would move the seat belt 
behind her back. As you can see, she is thrown forward 
dramatically without the torso protection.
    Our data indicate that inappropriately restrained children 
can strike their head, making them four times more likely to 
suffer brain injuries than children in booster seats. Further, 
children in adult seat belts, as you all very well know, suffer 
intestinal, liver, spleen, and spinal cord injuries, all due to 
the excessive bending during a crash from being in a seat belt 
rather than a belt-positioning booster seat.
    Now, please look at this graph of recommended restraint 
use. I am defining recommended restraint in that children under 
4 need to be in car seats and children 4 to 8 year olds need to 
be in booster seats. What you can see is an alarming dip in 
recommended restraint between the ages of 3 and 8. More than 80 
percent of children through age 2 are appropriately restrained 
in car seats, according to our study. This is good news.
    Beginning at age 3, appropriate restraint use drops to 52 
percent. Nearly half of 3 year old children are not in car 
seats. By age 4, the most prevalent form of restraint is, 
inappropriately, the adult seat belt and virtually no 7 or 8 
year old children are in belt-positioning booster seats.
    Instead of using car seats or belt-positioning booster 
seats, many children between ages 3 and 8 are inappropriately 
restrained in adult seat belts. It is important to note that 
many children older than 8 are too small for adult seat belts 
and may benefit from belt-positioning booster seats.
    Existing laws have been very effective in getting those 
youngest children into car seats. But the laws as they 
currently stand are a patchwork that differ widely and fail to 
incorporate current best practice guidelines. This serves as a 
source of confusion for parents.
    We have conducted extensive focus groups to actually ask 
about this and the parents in our study suggested that strong 
laws that are enforced are important for sending clear, 
consistent messages regarding child passenger safety. Parents, 
much like Ms. Skeen, look to the law.
    The responsibility for the safe transportation of children 
must be shared, though, by educators, regulators, legislators, 
manufacturers, and the parents. All of us must share 
responsibility for America's children. Clearly, we must ensure 
that all children are restrained. I agree with that. That will 
save lives.
    But this is not enough. We want the best protection for our 
children, and we now know that children over 40 pounds are 
seriously injured when they are improperly restrained. We want 
the best. We need to determine evidence-based uniform 
guidelines for appropriate restraint for all children. We need 
to consistently incorporate these guidelines into state laws 
and enforce them. We need to ensure that high quality, low 
cost, user friendly, comfortable restraints are available for 
all children in all vehicles.
    I am happy to say that State Farm Insurance Companies and 
the Children's Hospital of Philadelphia are doing their part. 
We have collaborated in many efforts to get the appropriate 
restraint message to parents, doctors, advocates, legislators, 
enforcement agencies, and manufacturers, and now have produced 
the nation's first in-school curriculum to educate young 
children about booster seats.
    Efforts such as these have resulted in an increased booster 
seat awareness. Our data are showing a trend of increased 
booster seat use. But overall, appropriate restraint use 
remains very, very low.
    Partners for Child Passenger Safety is here to help you in 
your important work and we commend all the hard work that you 
have been doing. If there is any way that we can provide 
additional data, we will be glad to do that.
    Mr. Chairman, I am ready to respond to any questions you 
might have.
    [The prepared statement of Dr. Winston follows:]

       Prepared Statement of Flaura Koplin Winston, M.D., Ph.D., 
       Assistant Professor of Pediatrics, Children's Hospital of 
     Philadelphia and University of Pennsylvania School of Medicine
    Good morning, Mr. Chairman, Members of the Committee. Thank you for 
the opportunity to speak.
    My name is Dr. Flaura Koplin Winston. I am a practicing 
pediatrician at The Children's Hospital of Philadelphia, a faculty 
member at the University of Pennsylvania School of Medicine, a 
biomechanical engineer, a clinical researcher, and a mother of two 
boys, Zachary and Andrew, who inspire my research to make every ride 
safe for children. The Children's Hospital of Philadelphia is a Level 
One Pediatric Trauma Center, designated to care for the most seriously 
injured children, but much of our work is devoted to preventing injury. 
We realize that the best way to care for our children is to keep them 
safe, avoiding the physical and emotional pain and suffering that 
accompany every childhood injury.
    I am the Principal Investigator of Partners for Child Passenger 
Safety, the world's largest surveillance system for children in 
automobile crashes. Begun in 1997, Partners for Child Passenger Safety, 
a collaboration between State Farm Insurance Companies, the University 
of Pennsylvania, and The Children's Hospital of Philadelphia, is the 
first comprehensive research study of how and why children are injured 
or killed in motor vehicle crashes.
    Each day the Partners research team receives information, with 
privacy safeguards, from State Farm on nearly 200 children involved in 
crashes in 15 states (AZ, CA, DE, IL, IN, M.D., MI, NC, NJ, NY, NV, OH, 
PA, VA, and WV) and the District of Columbia. The research team 
conducts in-depth telephone interviews and on-site crash investigations 
in order to estimate the number of children in crashes; identify 
specific safety problems for children in motor vehicles; suggest 
solutions to those problems; and evaluate real-world effectiveness of 
vehicle and restraint system features.
    In this testimony, I will describe the national problem of children 
in motor vehicle crashes in terms of the number of crashes involving 
children and the number of children who are injured in these crashes. I 
will also describe the high proportion of children who are 
inappropriately restrained for their age and size and the mechanism of 
injuries due to inappropriate restraint. The key message is that the 
vast majority of parents across the country are not adequately 
protecting their 4-to-8-year-old children in crashes. These parents can 
do a better job by appropriately restraining these children in belt-
positioning booster seats in the rear seat of their vehicles on every 
ride.
    With just two years of data collection, Partners for Child 
Passenger Safety has collected information on more than 90,000 crashes 
involving roughly 137,000 children under age 16. Based on these 
numbers, we estimate that each year in the United States, more than 1.5 
million children are passengers in motor vehicle crashes. More than 750 
children will be injured today, nearly 100 of these children will be 
seriously injured. Unfortunately, the most common serious injuries are 
to the brain, which can lead to devastating long-term disabilities.
    Motor vehicle crashes are very violent events that occur in 
milliseconds, in the blink of an eye. Our data indicate that nearly 
half of crashes involving children occur within seven minutes from 
home. All it takes is a split second for an errand, a car pool, or a 
family outing to turn into tragedy.
    Last summer we learned of a tragic case in which a 7-year-old, 
we'll call him Jared, was the only fatality. On a warm June evening in 
Arizona, Jared's father swerved and crossed the center line of the 
highway and struck a pickup truck head-on. There were no airbags in the 
vehicle, yet Jared's father survived this serious crash without brain, 
spinal cord, or organ injury. Jared, unfortunately, was inappropriately 
restrained in a lap-shoulder belt in the front seat of his father's 
mid-size sedan. During the crash, his sub-optimal restraint allowed him 
to move forward and strike the windshield. Jared suffered a lethal 
injury to his cervical spine--a fracture with complete dislocation. If 
Jared had been restrained in a belt-positioning booster seat in the 
back seat of his father's car, he likely would have survived. His 
younger siblings in the rear seat survived the crash. A simple action--
using the appropriate restraint and placing the child in the rear 
seat--could have likely prevented a family's lifetime of mourning.
    Just a few months ago, I learned of another preventable tragedy. At 
7:00 in the morning, a 5-year old girl from Ohio, let's call her 
Latasha, was the only passenger injured in a moderate severity crash. 
Her 22-year old mother was driving their full-size sedan when another 
vehicle made a left turn into the path of their vehicle, impacting the 
right side. Latasha's mother, who was wearing her lap and shoulder 
belt, was uninjured. Latasha's 18-month-old sister, who was 
appropriately restrained in her child safety seat in the rear seat, was 
uninjured. Latasha, who was sitting in the right rear seat next to her 
sister, was inappropriately restrained in a lap-shoulder belt. Latasha 
suffered bilateral severe kidney damage. Our investigation indicated 
that the inappropriate restraint caused the serious injuries known as 
``seat belt syndrome.'' If Latasha had been restrained in a belt-
positioning booster seat, she would likely have been uninjured.
    Preventable injuries such as these occur every day.
    Our data indicate that most parents ensure that their children are 
restrained. The simple act of restraining a child makes it three times 
less likely that that child will be injured in a crash. Many parents 
further protect their children by placing them in the back seat, 
thereby making it an additional two times less likely that their 
children will be injured in most vehicles. Further, most parents ensure 
that their youngest children are restrained in child safety seats. 
Accordingly, these children have the lowest chance of getting injured 
of any age group.
    However, I am particularly concerned with children between age 3 
and 8 years. That is where our data show an alarming decrease in 
recommended restraint use [refer to recommended restraint use chart--
Attachment A]. Note the u-shape in this graph of recommended restraint 
use by age. More than 80 percent of children through age 2 years are 
appropriately restrained. Beginning at age 3, appropriate restraint 
drops to 52 percent. By age 4, the most prevalent form of restraint is 
the adult seat belt. Only 24 percent of children age 4 are in booster 
seats. By age 7, virtually no children are in booster seats. Instead of 
using car seats or belt-positioning booster seats, many children ages 
3-to-8 years old are inappropriately restrained in adult seat belts. 
For optimal protection during crashes, children should ride in child 
safety seats with full harness until the seat is completely outgrown 
based on manufacturer height and weight limits. This is usually around 
4 years old and 40 pounds, at which point children should be placed in 
belt-positioning booster seats. They should remain in the belt-
positioning booster seat until they are big enough for the adult seat 
belt to fit correctly. Correct adult seat belt fit is not achieved 
until a child is at least 4 feet 9 inches tall and 80 pounds, often 
around the age of nine.
    Last June, Partner's for Child Passenger Safety published an 
article in the journal Pediatrics about the risk of premature 
graduation of children to adult seat belts. We found that 2-to-5-year-
old children who were placed in adult seat belts were 3.5 times more 
likely to suffer significant injury and four times more likely to 
suffer head injury when compared to children in the same age group who 
used car or booster seats. There is a 50 to 75 percent reduction in 
serious injuries to child passengers who are placed in belt-positioning 
booster seats rather than seat belts alone.
    Why are booster seats so much more effective than adult seat belts 
in protecting 4 to 8-year-olds in car crashes? Standard equipment 
vehicle seat belts are designed for adults. During a crash, adult seat 
belts spread the forces of the crash over the strong, hard bones--the 
hips, shoulders, and chest--and keep the occupant in place so that the 
head, face and chest are less likely to strike the inside of the 
vehicle. An adult seat belt fits correctly when the lap portion of the 
belt rides low over the hips and the shoulder portion of the belt 
crosses the sternum and shoulder. Correct seat belt fit is not usually 
achieved until a child is 9 years old, the age at which the child's 
thigh is long enough for the child to sit against the back of the seat, 
the hips are sufficiently developed to anchor the belt, and the child's 
sitting height is sufficient for the shoulder belt to fit properly over 
the shoulder and sternum.
    When a child is ``prematurely graduated'' to an adult seat belt, 
the lap portion of the belt rides up over the soft abdomen and the 
shoulder portion crosses the neck or face, causing many children to 
move the shoulder belt behind their back or under their arm. Incorrect 
fit of the vehicle belt places the child at risk for ``submarining'' or 
sliding out of the lap belt during a crash. Rapid, ``jack-knife'' 
bending around a poorly positioned vehicle adult seat belt increases 
the risk of intra-abdominal and spinal cord injuries, also known as 
``seat belt syndrome'' and brain injury due to impact of the head with 
the child's knees or the vehicle interior.
    Our data indicate that the majority of the injuries to children 
prematurely graduated to seat belts are to the head, likely due to 
excessive head excursion. In addition, Partners data show that children 
in adult seat belts suffered the only reported cases of abdominal 
injuries, including intestinal, liver, and spleen injuries.
    Let me demonstrate the safety advantage of a belt-positioning 
booster seat by this crash simulation. [Booster seat crash simulation 
computer model] The above simulation shows a 6-year-old child properly 
restrained in a belt-positioning booster seat. This child barely moves 
during the 35 m.p.h. crash. This same child is represented in the below 
simulation of the same crash. She is improperly restrained in an adult 
seat belt. Like many children, she has slipped the shoulder portion of 
the belt behind her back. As you can see, she is thrown forward 
dramatically. The inappropriate fit of the adult seat belt and lack of 
upper body restraint puts the child at risk for severe head, spine, 
abdominal and brain injury.
    What is at stake is the safety of our children. Under contract to 
the National Highway Traffic Safety Administration, we conducted focus 
groups and in-depth discussions with parents about the barriers to 
using belt-positioning booster seats. There are many reasons parents 
give for prematurely placing their child in vehicle seat belts. Some 
parents are unaware of the likelihood of crashes and the injuries that 
can result. Others are not awareof current best practice regarding 
child passenger safety. Still others do not realize that children are 
actually more comfortable in belt-positioning booster seats rather than 
in adult seat belts alone. Clearly, education is needed.
    Parents with older vehicles face additional challenges in finding a 
child restraint compatible with vehicles that only have lap belts in 
the rear seat. Clearly, there is a role for new technologies.
    However, many parents of 4-to-8-year-old children are aware of the 
risks of crashes, are aware of the injuries, know that belt-positioning 
booster seats can reduce the risk of injuries, and have vehicles that 
can accommodate belt-positioning booster seats in the rear. Yet, they 
fail to use these devices. According to parents in our focus groups, 
the only strategy to ensure that these parents are optimally protecting 
their children is through strong laws that are enforced.
    Our current laws are not in alignment with best practice 
recommendations from the National Highway Traffic Safety Administration 
and the American Academy of Pediatrics and this serves as a source of 
confusion for parents. Much of the opposition to closing the gaps in 
child passenger restraint laws concerns the inconvenience and cost to 
adults to comply with these laws. My question to you, Senators, is 
this: What value do we, as a nation, place in the life of a child? A 
backless belt-positioning booster seat costs less than $20 at my local 
retailer.
    I am happy to say that State Farm Insurance Companies and The 
Children's Hospital of Philadelphia are doing their part. We have 
collaborated in many efforts to get the appropriate restraint message 
to parents and have now collaborated to produce the nation's first in-
school curriculum, called Safe Cruisin' with the Good Neigh Bear, to 
educate young children about booster seats. We regularly share our 
study data with doctors, advocates, regulatory agencies, and 
manufacturers. In 2001 we will be producing state-specific fact sheets 
on each state involved in the Partners study to aid advocates in their 
educational efforts. But there is much more to be done.
    Efforts such as these have resulted in an increased awareness of 
booster seats. For the first time, Partners data is showing a trend of 
increased booster seat use. Maybe the climate is right for closing the 
gap in occupant restraint laws to require booster seats for older 
children.
    If parents continue to restrain their young children in vehicle 
seat belts or, worse, not restrain them at all, we will continue to 
have tragic, preventable, costly injuries to our children, our most 
precious resource. As a pediatrician, pediatric injury researcher, and 
mother of two young children, I am here to provide a voice for 
children, all children. They need our protection. They need appropriate 
restraint on every ride.
    Mr. Chairman, I am ready to respond to any questions the Committee 
might have.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Fitzgerald. Thank you, Dr. Winston.
    Dr. Quinlan from the Department of Pediatrics at the 
University of Chicago. Thank you for being here.

            STATEMENT OF KYRAN QUINLAN, M.D., MPH, 
        DEPARTMENT OF PEDIATRICS, UNIVERSITY OF CHICAGO

    Dr. Quinlan. Thank you. Good morning, Mr. Chairman. My name 
is Kyran Quinlan. I am a board-certified pediatrician on the 
faculty at the University of Chicago. I am an injury 
epidemiologist, trained at the National Center for Injury 
Prevention and Control at the Centers for Disease Control and 
Prevention, and I have a master's in public health in 
epidemiology. I am a child passenger safety researcher, a 
clinician, and a fellow in the American Academy of Pediatrics. 
I also have personal experience caring for children who have 
suffered preventable crash injuries. I regularly counsel 
parents in my practice on the need for belt-positioning 
boosters and I was a part of the recent unsuccessful attempt 
for a booster law in the chairman's home state of Illinois.
    Thank you for this opportunity to discuss this important 
issue. I am here today with two recommendations: First, that 
Congress promote booster laws in each state; and second, that 
Congress support the National Highway Traffic Safety 
Administration to lead an intensive and sustained public 
education campaign to promote belt-positioning boosters.
    Motor vehicle trauma is the leading threat to the health of 
our children. While most age groups have experienced recent 
significant declines in crash deaths, the unchanging annual 
count of 500 dead and nearly 90,000 injured has clearly 
established the 4 to 8 year age range as the forgotten children 
in traffic safety.
    These children are real. There was the 5 year old boy who 
was brought to our hospital recently after a crash. He was 
small for a 5 year old and, despite being buckled in a lap-
shoulder belt, he was ejected from his family's car. 
Unconscious and bloody, he lay motionless in the street with a 
broken skull, pelvis, thigh, and shin bones. He lived and his 
bones will mend, but he will have a long road back with 
rehabilitation for his severe brain injury.
    Then there was the 8 year old boy we recently treated. He 
had put the shoulder belt behind his back to keep it from 
rubbing and cutting across his neck. In the instant he was 
thrown violently forward in the crash, the poorly fitting lap 
belt crushed his soft internal organs and then fractured his 
spine, leaving him paralyzed. Multiple abdominal surgeries were 
successful at repairing the injuries to his intestines and 
other internal organs. Much less successful, however, have been 
the attempts to bring him out of the growing depression from 
realizing that, while only 8 years old, he will never walk 
again.
    Too big for a car seat, not big enough for seat belts made 
for adults, these children need belt-positioning booster seats. 
But few families are using them. Data from Partners for Child 
Passenger Safety, from Dr. Winston, tell us that in our state 
specifically, Mr. Chairman, that at most 20 percent of the 4 to 
5 year olds are using boosters, just a handful of 6 year olds 
do, and virtually no 7 or 8 year olds are currently using 
booster seats.
    This fits with what I see in my practice on the South Side 
of Chicago. I recently saw a family with a 4 year old who had 
outgrown her car seat, her forward-facing car seat, and was 
using just a seat belt. I discussed the need for a belt-
positioning booster and advised the family to get her one. The 
next time I saw them, they had not gotten a booster seat. The 
mom said: I remember what you told me, I remember you told me 
that my daughter's back could break in a crash and that she 
could be paralyzed, but I just have not gotten around to it 
yet.
    Being able to say that riding without a booster is against 
the law would help me to persuade parents to use one.
    So I recommend first that Congress promote booster laws in 
each state. The laws should require children to be in belt-
positioning boosters from the time they outgrow a forward-
facing car seat and until they are large enough to sit safely 
using the vehicle lap-shoulder belt. So far just three states--
Washington, California, and Arkansas--have passed booster laws. 
Many other states, including our own home state, Mr. Chairman, 
have introduced booster bills, but have not been successful in 
passing them.
    Booster laws will protect children. Fewer children will be 
injured and fewer will be killed when it becomes illegal to 
ride without one.
    Second, Congress should support NHTSA to lead an intensive 
and sustained public education campaign to promote belt-
positioning booster seats. Related to this is the section 
2003[b] of TEA-21, that is the child passenger protection 
education grants which fund innovative demonstration projects. 
Funding for section 2003[b] should be extended.
    While a huge undertaking, safety promotion on this scale 
has been done successfully before. 25 years ago, just a handful 
of infants and toddlers used car seats. Today usage in these 
two groups, as you mentioned, is over 90 percent. We can 
promote belt-positioning boosters and we will see an increase 
in their use. How quickly that happens will depend in part on 
the degree of different investment in promoting them now and 
promoting reasonable laws regarding their use.
    This is an exciting and historic time in child passenger 
safety, similar in many respects to 1977, when Tennessee passed 
the first car seat law. By 1985, just 8 years later, all states 
had one and putting an infant in a car seat started to become 
just what you do. Seeing the day that belt-positioning booster 
seats are in common use will require laws supported by 
sustained public education.
    Thank you for the opportunity to testify here today. I 
would be happy to answer any questions that you have.
    [The prepared statement of Dr. Quinlan follows:]

     Prepared Statement of Kyran Quinlan, M.D., MPH, Department of 
                   Pediatrics, University of Chicago
    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Kyran Quinlan. I am a pediatrician on faculty at the University of 
Chicago. I am a clinician, a child passenger safety researcher and a 
member of the American Academy of Pediatrics. Thank you for this 
opportunity to discuss this important issue.
    We are talking today about how to better protect our children from 
the greatest threat to their health. In the United States, nothing 
kills more children than motor vehicle crashes. Each year, about 500 of 
our children aged 4-8 years die and another 90,000 are injured while 
riding in a motor vehicle. With most occupant safety attention focused 
on younger child passengers, this older group of what has been termed 
``forgotten children'' has not experienced any real decrease in their 
occupant fatality rates over the last 20 years.
    These children are real. I could tell you about the 5-year-old boy 
who was brought to the University of Chicago recently after being in a 
crash. He was small for a 5-year-old. Despite being buckled up in a 
lap/shoulder belt, he was ejected from his family's car. Unconscious 
and bloody, he lay motionless in the street with a broken skull, 
pelvis, thigh and shin bones. He lived, and his bones will mend, but he 
will have a long road back with rehabilitation for his severe head 
injury. Or I could tell you about the 8-year-old boy who was recently 
cared for at our hospital after being in a crash. He put the shoulder 
belt behind his back to keep it from rubbing and cutting across his 
neck. In the instant he was thrown violently forward in the crash, the 
only thing that stopped him was the poorly-fitting lap belt. After 
crushing his soft internal organs, the lap belt then found and 
fractured his back bone leaving him paralyzed. Multiple abdominal 
surgeries were successful at repairing the injuries to his intestines 
and other internal organs. Much less successful however, have been the 
attempts to bring him out of the growing depression from realizing that 
while only 8, he will never walk again.
    These children are too big for a car seat, but are not big enough 
to fit safely in the seat belts of the car. They need booster seats to 
raise them up so that the lap belt fits low and snug across their upper 
thighs and the shoulder belt crosses their collarbone and not their 
neck. Not using a booster seat puts these children at unnecessary risk. 
As you have just heard from Dr. Winston, there is good evidence that 
boosters protect children, but few families are using them. In Illinois 
specifically, Dr. Winston's system tells us that at most about 20 
percent of the 4-5-year-olds use boosters, just a handful of 6-year-
olds do, and virtually no 7- or 8-year-olds do.
    This fits with what I see on the south side of Chicago. I recently 
saw a family with a 4-year-old who had outgrown her car seat and was 
using just a seat belt. I discussed the importance and need for a 
booster and advised them to get one for her. At the next visit, they 
told me they had not gotten a booster. I frankly told them I was 
interested to know if there was something I could have said that would 
have been more persuasive the first time. The mom said, ``no, I 
remember what you said. You told me that without a booster, my 
daughter's back could break and she could become paralyzed in a crash, 
but I just hadn't gotten around to it.'' I could use help to convince 
parents to use boosters. Being able to say that riding without a 
booster is against the law would certainly help.
    So there's a real problem here. We're dealing with the leading 
killer of children, and we know that boosters protect children, but 
changing the way people buckle their children up is difficult.
    What do I think Congress can do? 2 main things:

        1.  Congress should promote booster laws in each state. These 
        laws should require children to be in boosters from the time 
        they outgrow a forward-facing car seat until they are large 
        enough to sit safely using the vehicle lap/shoulder belt. So 
        far, just three states, Washington, California, and Arkansas 
        have booster laws. Many other states have introduced booster 
        bills but have not been successful. I was part of the recent 
        unsuccessful effort to pass booster legislation in Illinois. 
        Congress should consider providing incentives to the states to 
        pass booster laws. Tying the receipt of state highway funds to 
        passing a booster law is one mechanism. Booster laws will 
        protect children. Less children will be injured and less 
        children will be killed when it becomes illegal to ride without 
        a booster.

        2.  Congress should support the National Highway Traffic Safety 
        Administration to lead an intensive and prolonged public 
        education campaign to promote booster seats. The recent booster 
        promotion efforts by NHTSA and the National SAFE KIDS campaign 
        have been significant, but much more needs to be done. We are 
        talking here about changing a social norm, changing the way 
        virtually everyone buckles up this group of children. While it 
        is a huge undertaking, safety promotion on this scale has been 
        done successfully before. Twenty five years ago, just a handful 
        of infants and toddlers used car seats. Today, usage in these 
        two groups is over 90 percent. We can promote boosters, and we 
        will see increased use of boosters. How quickly that happens 
        will, in part, depend on the degree of federal investment in 
        promoting boosters now.

    Thank you, Mr. Chairman, for the opportunity to testify here today. 
I look forward to the day when parents would not think of taking a trip 
without their child in a booster. Getting booster use to be that common 
can be achieved through booster laws and intensive and sustained public 
education. I would be happy to answer any questions you and the members 
of the Subcommittee may have.
                                 ______
                                 
MMWR (Morbidity and Mortality Weekly Report)
    February 25, 2000/49(07);135-7
Motor-Vehicle Occupant Fatalities and Restraint Use Among Children Aged 
        4-8 Years--United States, 1994-1998
    In the United States, more children aged 4-8 years die as occupants 
in motor-vehicle--related crashes than from any other form of 
unintentional injury (1). To reduce the number of deaths and injuries 
caused by motor-vehicle-related trauma, child passengers in this age 
group should be restrained properly in a vehicle's back seat (2). To 
characterize fatalities, restraint use, and seating position among 
occupants aged 4-8 years involved in fatal crashes, CDC analyzed 1994-
1998 data from the Fatality Analysis Reporting System (FARS), which is 
maintained by the National Highway Traffic Safety Administration 
(NHTSA). This report summarizes the results of that analysis, which 
indicate that during 1994-1998, little change occurred in the death 
rate, restraint use, and seating position among children aged 4-8 years 
killed in crashes.
    Motor-vehicle occupants who died in crashes during 1994-1998 were 
included in the analysis of FARS data. FARS is a census of traffic 
crashes in which at least one occupant or nonmotorist (e.g., 
pedestrian) died within 30 days of a crash on a public road within the 
50 states, District of Columbia, and Puerto Rico. FARS includes 
information about restraint use and seating position derived from 
police crash reports. Restraint use (e.g., seat belts, child-safety 
seats [CSSs], and belt-positioning booster seats) was reported as used 
or not used. Seating position was designated as front, back, other, or 
unknown. Injury death rates per 100,000 population were calculated 
using annual estimates from the Bureau of the Census.
    During 1994-1998, 14,411 child occupants aged 4-8 years were 
involved in crashes where one or more fatalities occurred; of these, 
2549 (17.7 percent) died. Approximately 500 child occupants died each 
year during the study period; the average annual age-specific death 
rate was 2.6 per 100,000 population (Table 1). In 1994, restraint use 
among fatally injured children was 35.2 percent (177 of 503); in 1998, 
restraint use was 38.1 percent (201 of 527). The proportion of fatally 
injured children seated in the back seat of a vehicle involved in a 
crash was 50.1 percent (252 of 503) in 1994 and 53.7 percent (283 of 
527) in 1998.
    Reported by: Div of Unintentional Injury Prevention, National 
Center for Injury Prevention and Control, CDC.

 TABLE 1. Number of deaths, death rate,* restraint use, and seating position among fatally injured motor-vehicle
                                occupants aged 4-8years--United States, 1994-1998
----------------------------------------------------------------------------------------------------------------
                                                        No.         Restrained    No. seated  in  Seated in back
      Year         No.  deaths      Death  rate     restrained     (in percent)        back        (in percent)
----------------------------------------------------------------------------------------------------------------
         1994              503             2.65             177            35.2             252            50.1
         1995              498             2.58             168            33.7             208            41.8
         1996              499             2.55             188            37.7             250            50.1
         1997              522             2.64             198            37.9             257            49.2
         1998              527             2.66             201            38.1             283            53.7
----------------------------------------------------------------------------------------------------------------
        Total             2549             2.61             932            36.6            1250            49.0
----------------------------------------------------------------------------------------------------------------
*Per 100,000 age-specific population.
Source: Fatality Analysis Reporting System, National Highway Traffic Safety Administration.

    Editorial Note: During 1994-1998, child occupant death rates did 
not decrease, restraint use among fatally injured child occupants 
changed little, and the proportion of fatally injured children seated 
in the back seat of a motor vehicle involved in a crash remained fairly 
constant. Children aged 4-8 years represent a special population for 
motor-vehicle occupant protection. Having outgrown CSSs designed for 
younger passengers, children aged 4-8 years frequently sit unrestrained 
or are placed prematurely in adult seat belt systems. Public health and 
traffic safety organizations recommend that children in this age group 
be restrained properly in booster seats (3). This study found that 
nearly two thirds of fatally injured children were unrestrained at the 
time of the crash. Only 4%-6% of children aged 4-8 years used booster 
seats when riding in motor vehicles (4,5).
    Belt-positioning booster seats raise a child so that the shoulder 
belt fits securely between the neck and arm and the lap belt lies low 
and flat across the upper thighs. Children do not fit in adult lap/
shoulder belts without a booster seat until they are 58 inches tall and 
weigh 80 lbs (3,6). Children should ride in a booster seat from the 
time they graduate from their forward-facing CSS until approximately 
age 8 years or until they are tall enough for the knees to bend over 
the edge of the seat when the child's back is resting firmly against 
the seat back.
    Despite recommendations for children to ride in the back seat 
whenever possible to reduce risk for injury in a crash, approximately 
one fourth of child passengers ride in the front seat (7). Riding in 
the back virtually eliminates injury risk from deployed front-seat 
passenger air bags and places the child in the safest part of the 
vehicle in the event of a crash. As of January 1, 2000, 35 children 
aged 4-8 years have died while seated in front of air bags. Of these 
children, 31 (89 percent) were either unrestrained or improperly 
restrained (8). Riding in the back seat is associated with at least a 
30 percent reduction in the risk for fatal injury (9). Approximately 
half of those children in this study who were fatally injured were 
sitting in the back seat.
    The 50 states, District of Columbia, and Puerto Rico have child-
passenger safety laws; however, substantial gaps in coverage exist for 
child passengers aged 4-8 years. For example, in 19 states, children 
this age can ride unrestrained in the back seat of a motor vehicle. In 
most states, children as young as age 4 years may use an adult seat 
belt. No state requires the use of booster seats for children who have 
outgrown their CSSs (10). Three states have laws requiring that 
children be seated in the back seat of passenger vehicles. The ages of 
the children covered by these laws vary by state.
    The findings in this study are subject to at least three 
limitations. First, police crash reports overestimate restraint use; 
therefore, restraint use may be lower for children in this age group. 
Second, vehicle miles traveled have increased during 1994-1998; 
consequently, improvements in fatality rates may be masked by increased 
exposure to travel. Finally, increases in restraint use and resulting 
changes in occupant fatalities may require many years of investigation 
before they become apparent.
    Reducing fatalities among motor vehicle occupants aged 4-8 years 
will require finding effective strategies to promote booster seat use 
and placement of children in the back seat. Public health and traffic 
safety efforts should be accelerated to increase appropriate occupant 
protection among children aged 4-8 years as a primary means to reduce 
fatal motor-vehicle--related injuries. Efforts are under way by CDC and 
others to determine the best ways to encourage booster seat use and to 
increase the prevalence of properly restrained children riding in the 
back seat.
References
    1.  National Center for Health Statistics. Annual mortality tapes. 
Hyattsville, Maryland: US Department of Health and Human Services, CDC, 
1994-1998.
    2.  National Transportation Safety Board. Safety recommendation. 
Washington, DC: National Transportation Safety Board, 1997.
    3.  CDC. National Child Passenger Safety Week--February 14-20, 
1999. MMWR 1999;48:83-4.
    4.  Winston FK, Durbin DR, Bhatia E, Werner J, Sorenson W. Patterns 
of inappropriate restraint for children in crashes. Joint session 
organized by the European Vehicle Passive Safety Network, AAAM, and 
IRCOBI. London, England: Professional Engineering Publishing Limited, 
1999.
    5.  Decina LE, Knoebel KY. Child safety seat misuse patterns in 
four states. Accid Anal Prev 1997;29:125-32.
    6.  American Academy of Pediatrics Committee on Injury and Poison 
Prevention. Selecting and using the most appropriate car safety seats 
for growing children: guidelines for counseling parents. Pediatrics 
1996;97:761-2.
    7.  Segui-Gomez M, Glass R, Graham JD. Where children sit in motor 
vehicles: a comparison of selected European and American cities. Injury 
Prevention 1998;4:98-102.
    8.  National Highway Traffic Safety Administration. Special crash 
investigations monthly counts for airbag-related fatalities and 
seriously injured persons. Washington, DC: National Highway Traffic 
Safety Administration, 2000.
    9.  Braver ER, Whitfield R, Ferguson SA. Seating positions and 
children's risk of dying in motor vehicle crashes. Injury Prevention 
1998;4:181-7.
    10.  Insurance Institute for Highway Safety. Child restraint, belt 
laws as of January 2000. Available at: http://www.highwaysafety.org/
safety_facts/state_laws/restrain.htm. Accessed January 31, 2000.
                                 ______
                                 
    MMWR (Morbidity and Mortality Weekly Report)
    February 5, 1999/48(04); 83-84
    Notice to Readers
National Child Passenger Safety Week--February 14-20, 1999
    In 1997, 1791 U.S. children aged <15 years were killed and 282,000 
were injured while riding in motor vehicles (1). National Child 
Passenger Safety Week, February 14-20, 1999, will highlight safety 
recommendations for children aged >4 years and weighing >40 lbs who 
have outgrown their child safety seats.
    Children who are too large for child safety seats often are 
restrained improperly or not at all. A recent observational study in 
four states indicated that, of children weighing 40-60 lbs, 75 percent 
were improperly restrained, and 19 percent were unrestrained (2). Of 
passengers aged 5-9 years in fatal crashes in 1997, 46 percent were 
unrestrained (1).
    For proper restraint, children who have outgrown child safety seats 
require booster seats used with vehicle lap/shoulder belts. Lap/
shoulder belts usually do not fit children properly until they are 58 
inches tall, have a sitting height of 29 inches, and weigh 80 lbs (3). 
Therefore, children aged <10 years probably will not be big enough to 
use a lap/shoulder belt without a booster seat. When smaller children 
restrained with only a lap belt or a poorly fitting lap/shoulder belt 
become involved in a crash, the belt tends to ride up onto the abdomen, 
allowing the pelvis to slide under the belt. This places pressure 
directly on the abdominal organs and may lead to the child flexing over 
the belt above the hips, resulting in abdominal and/or spinal injuries 
(4).
    Children should remain in their convertible child safety seats as 
long as they fit well. Convertible seats are the appropriate restraints 
for children until their ears reach the top of the back of the safety 
seat and their shoulders are above the top strap slots, or until they 
reach the upper weight limit of the seat. To help prevent deaths and 
injuries among young passengers who have outgrown their child safety 
seats, CDC recommends the following:

  <bullet> Belt-positioning booster seats should be used until lap/
        shoulder belts fit properly (5). Belt-positioning boosters 
        raise children so that the safety belt fits correctly (Figure 
        1) and should always be used with a lap/shoulder belt. Booster 
        seats with high backs are recommended for vehicles with seat 
        backs that do not support a child's head. Shield boosters, 
        which have a plastic shield in front of the child, do not 
        provide as much upper-body protection and are no longer 
        certified for children weighing >40 lbs. The American Academy 
        of Pediatrics recommends that shield boosters not be used for 
        children weighing <40 lbs, even if they are labeled for use at 
        a lower weight (6). Shield boosters should only be used with 
        their shields removed so they can function as belt-positioning 
        booster seats with lap-shoulder belts.

  <bullet> Lap/shoulder belts should fit properly (Figure 1). A child 
        cannot ride comfortably and remain properly restrained until 
        tall enough for the knees to bend over the edge of the seat 
        when the child's back is resting firmly against the seat back.

  <bullet> Whenever possible, child passengers should be placed in the 
        back seat.

    The National Transportation Safety Board recommends that states 
upgrade their child passenger protection laws to require age-
appropriate child restraint systems and booster seats for children aged 
<8 years and has asked automobile manufacturers to redesign the back 
seats of cars to be more accommodating to children (7). Additional 
information on child passenger protection is available on the World-
Wide Web from the American Academy of Pediatrics at http://www.aap.org, 
the Society of Automotive Engineers at http://www.sae.org, the National 
Highway Traffic Safety Administration at http://www.nhtsa.dot.gov, the 
National Transportation Safety Board at http://www.ntsb.gov, and CDC's 
National Center for Injury Prevention and Control at http://
www.cdc.gov/ncipc.
References
    1.  US Department of Transportation, National Highway Traffic 
Safety Administration. Children: traffic safety facts 1997. Washington, 
DC: US Department of Transportation, National Highway Traffic Safety 
Administration, 1998.
    2.  Decina LE, Knoebel KY. Child safety seat misuse patterns in 
four states. Accid Anal Prev 1997;29:125-32.
    3.  Klinch KD, Pritz HB, Beebe MS, et al. Study of older child 
restraint/booster seat fit and NASS injury analysis. Washington, DC: US 
Department of Transportation, National Highway Traffic Safety 
Administration, November 1994; report no. DOT-HS-808-248.
    4.  Lane JC. The seat belt syndrome in children. Warrendale, 
Pennsylvania: Society of Automotive Engineers, 1993:159-64. (SAE no. 
933098).
    5.  American Academy of Pediatrics, Committee on Injury and Poison 
Prevention. Selecting and using the most appropriate car safety seats 
for growing children: guidelines for counseling parents. Pediatrics 
1996;97:761-2.
    6.  American Academy of Pediatrics. 1998 family shopping guide to 
car seats. Elk Grove Village, Illinois: American Academy of Pediatrics, 
1998.
    7.  National Transportation Safety Board. The performance and use 
of child restraints, seatbelts, and air bags for children in passenger 
vehicles. Washington, DC: US Department of Transportation, 1996; 
document no. NTSB/SS-96/01.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Fitzgerald. Thank you, Dr. Quinlan.
    Ms. Stone, thank you for being here. You are the State of 
Advocates for Highway and Auto Safety, and I compliment you for 
your long-time involvement in this issue.

           STATEMENT OF JUDITH LEE STONE, PRESIDENT, 
             ADVOCATES FOR HIGHWAY AND AUTO SAFETY

    Ms. Stone. Thank you so much, Mr. Chairman. Advocates has a 
long history of working on state and federal initiatives to 
improve child passenger safety. We have been at the forefront 
of lobbying in the states to close deadly loopholes in child 
restraint laws, to urge adoption of laws to encourage everyone 
to buckle up, and pushing the U.S. DOT to address regulatory 
gaps and omissions that affect the safety of children.
    In 1991 the Senate Commerce Committee authored and enacted 
a NHTSA reauthorization bill that contained a motor vehicle 
safety agenda as part of the larger ISTEA legislation. Under 
the leadership at that time of Senators Hollings, Danforth, 
Bryan, and Gorton, this legislation was a watershed for 
improvements in passenger vehicle safety.
    One of the provisions in ISTEA was intended to upgrade the 
safety of booster seats. More recently, the TREAD Act includes 
many provisions that can enhance the safety of child occupants 
and we commend you, Senator Fitzgerald, and other co-sponsors 
for your legislation and the reforms that it requires.
    Why should we be concerned at this time? Today there are 
over 20 million children in this age group of about 4 to 9, and 
each year approximately 500 children ages 5 to 9 die, the 
equivalent of two to three elementary school populations. 
Nearly 100,000 more are injured as occupants in passenger 
vehicles. 40 percent of the children killed are completely 
unrestrained.
    While other children, those in the ranges of zero to 4 
years and 10 to 15 years, have experienced reductions in death 
and injury in motor vehicle crashes over the past 20 years, the 
rate for those in this category, ages 5 to 9, has remained 
constant during that same period. Obviously we are not doing 
enough to protect these children.
    Since the back seat is supposed to be safer for children, 
it is our obligation as a society to provide for the safety of 
those children when their parents and guardians follow this 
safety recommendation.
    There are no federal safety standards for booster seats 
recommended for children over 50 pounds, as you have heard and 
others have said, and recommendations for their use are 
dependent upon voluntary manufacturer testing, with no 
government oversight. While booster seats may have backs or 
arms that prevent the lap belt portion of the seat belt from 
changing position, neither of these features are required by 
federal law.
    There are no structural or performance requirements for 
booster seats. Booster seats that are recommended for children 
who weigh 50 pounds or less fall within the scope of the 
existing child restraint standard.
    States are moving to enact laws requiring booster seat use. 
Within the last 2 years, 3 states have passed booster seat laws 
and 15 to 20 states have introduced some form of booster seat 
legislation just this year.
    Laws requiring the use of booster seats are important 
because they better protect children who use them and they 
educate parents and guardians. Currently, only 6.1 percent of 
booster-aged children are restrained in booster seats and 
booster seat laws will undoubtedly increase the percentage of 
children using them.
    What federal regulatory actions are needed? In 1991 
Advocates worked with this Committee to enact into law 
legislative language in the ISTEA bill, which I mentioned 
before, which conferred broad legislative authority on NHTSA to 
address the safety of child booster seats used in passenger 
cars. Congress intended the agency to take aggressive action to 
improve the regulation and protection afforded by booster 
seats. Unfortunately, NHTSA responded narrowly and only took 
action to delete the prohibition against belt-positioning 
booster seats so that they now can be used without an overhead 
tether.
    This was a squandered opportunity for comprehensive 
improvements in booster seat protection. Advocates strongly 
recommends that these federal regulatory actions be implemented 
immediately. NHTSA should expand the scope of the child 
restraint standard to children who weigh up to 80 pounds. NHTSA 
should establish minimum requirements for booster seat 
performance and structural integrity, including booster seat 
back requirements that afford head and neck protection, 
requirements for the height of the booster seat platform, and 
requirements to ensure that the belt-positioning features 
function as designed.
    NHTSA should develop a child test dummy that is 
representative of a 10 year old child that can be used in 
testing booster seats.
    NHTSA should upgrade the seat back strength standard to 
protect against injuries from front seats collapsing onto 
children in the rear seat. This standard has not been 
substantially revised since 1971 and failure of a front seat 
back in a crash resulting in its falling back onto the space 
occupied by a child in the rear greatly endangers the child.
    Because the rear seat environment is not fully friendly for 
children ages 4 to 8 years old, other actions need to be taken. 
Auto manufacturers should make built-in booster seats standard 
equipment in some model lines and promote the availability of 
this option in other models. Some manufacturers say these are 
available, but few dealers know about them and say that they 
can provide them.
    As more states enact child booster seat laws, there will be 
a demand for built-in booster seats. It will make compliance 
and enforcement of these laws easier and more effective.
    NHTSA and auto manufacturers should seek other 
opportunities to enhance the safety of children in the rear 
seat environment, including providing head restraints that 
protect taller children, vehicle seat designs that better 
accommodate children, and making adjustable upper anchorages 
for safety belts available as standard equipment in all rear 
seating positions of all passenger vehicles.
    Thank you, Mr. Chairman. I am happy to answer questions.
    [The prepared statement of Ms. Stone follows:]

   Prepared Statement of Judith Lee Stone, President, Advocates for 
                        Highway and Auto Safety
                          Summary of Testimony
                 Advocates for Highway and Auto Safety
    Child restraints are required and regulated for children up to four 
years of age, and lap/shoulder belts are designed to protect adults. In 
between is the ``forgotten child,''roughly ages 5 to 9 years old, who 
has not been the focus of safety laws and regulations. There are over 
19.5 million children in the 5 to 9 year old age group, and about 500 
of these children die each year as occupants in motor vehicle crashes. 
The motor vehicle fatality rate for this age group has remained 
constant over the past two decades, despite the fact that the fatality 
rate has decreased for other age groups--children 0 to 4, and children 
10 to 15 years old, in the same time period.
    In addition, safety recommendations from government agencies and 
private organizations alike advise parents to place their children in 
the rear to maximize their safety. The safety of these children can be 
improved by requiring the use of booster seats, so that adult lap/
shoulder belts will better fit these children, by regulating the 
performance of booster seats to ensure safety, and by making changes to 
improve the rear seat environment to afford children a safer ride.
    Advocates' testimony contains the following recommendations:

  <bullet> Every state should adopt a mandatory booster seat use law.

  <bullet> NHTSA should expand the scope of the child restraint 
        standard to children who weigh up to 80 pounds.

  <bullet> NHTSA should establish minimum requirements for booster seat 
        performance and structural integrity including booster seat 
        back requirements that afford head and neck protection, 
        requirements for the height of the booster seat platform, and 
        requirements to ensure that belt-positioning features function 
        as designed.

  <bullet> NHTSA should develop a child test dummy that is 
        representative of a 10-year-old child that can be used in 
        testing booster seats.

  <bullet> NHTSA should upgrade the seat back strength standard to 
        protect against injuries from front seats collapsing onto 
        children in the rear seat.

  <bullet> Auto manufacturers should make built-in booster seats 
        standard equipment in some model lines and promote the 
        availability of this option in other models.

  <bullet> NHTSA and vehicle manufacturers should seek other 
        opportunities to enhance the safety of children in the rear 
        seat environment including providing head restraints that 
        protect taller children, vehicle seat designs that accommodate 
        children, and making adjustable upper anchorages for safety 
        belts available as standard equipment in all rear seating 
        positions of all passenger vehicles.
I. Introduction
    Good morning, Mr. Chairman and Members of the Subcommittee on 
Consumer Affairs, Foreign Trade and Tourism. My name is Judith Lee 
Stone, and I am the President of Advocates for Highway and Auto Safety 
(Advocates), a coalition of consumer, health and safety groups and 
insurance organizations working together to reduce motor vehicle deaths 
and injuries. Since its inception in 1989, Advocates has been involved 
in all aspects of child safety and protection issues in motor vehicles.
    Advocates has conducted legislative and educational campaigns to 
promote child safety and child restraint use including the ``Children 
At Risk'' campaign in 1993 and the ``Kids, Cars and Crashes'' campaign 
launched in 1996. In 1999, I participated as a member of the Blue 
Ribbon Panel--Protecting Our Older Child Passengers--which issued a set 
of recommendations on child occupant safety, a copy of which I will 
submit for the record. I currently serve as a member of the Advisory 
Board of ``Partners for Child Passenger Safety,'' a ground breaking 
research project at The Children's Hospital of Philadelphia supported 
by State Farm Insurance Companies.
    Advocates has been in the forefront of efforts to enact state laws 
to improve child safety in motor vehicles including amendments to close 
the gaps in existing state child restraint laws, and more recently, 
booster seat laws. Despite many efforts, there remains a long list of 
states whose occupant protection laws do not cover all ages of children 
in every seating position. A chart of states with ``gaps'' in their 
child restraint laws is attached to my testimony.
    On Capitol Hill, Advocates has worked to include child safety 
protection provisions in federal legislation such as the Intermodal 
Surface Transportation Efficiency Act of 1991 (ISTEA). The Senate 
Commerce Committee is to be commended for its role in drafting and 
enacting the motor vehicle safety provisions contained in the ISTEA 
legislation. Under the leadership of Senators Hollings, Danforth, Bryan 
and Gorton, the 1991 ISTEA legislation was a watershed for improvements 
in passenger vehicle safety. Ten years ago Advocates worked with the 
Committee to include a provision in ISTEA intended to upgrade the 
safety of booster seats.
    Advocates has also provided assistance on safety provisions 
contained in the Transportation Equity Act for the 21st Century (TEA-
21) and, most recently, the Transportation Recall Enhancement, 
Accountability and Documentation or TREAD Act. Section 14 of the TREAD 
Act includes many provisions that can enhance the safety of child 
occupants, including improvements in child restraint testing, more 
stringent injury criteria and performance requirements for booster 
seats, to name just three. These and other child safety ideas were 
originally contained in the Child Passenger Protection Act of 2000, 
which was introduced by Sen. Fitzgerald as S. 2070 in the last 
Congress, a bill that was wholeheartedly supported by Advocates.
    Advocates is acutely aware of the need for improved child safety 
and we have documented that this concern is shared by the American 
public. In a 1999 poll, commissioned by Advocates, the eminent pollster 
Lou Harris found that 93 percent of the American public overwhelmingly 
supports the federal government's mission to set highway and auto 
safety standards, including standards for child safety. A 1998 Lou 
Harris poll showed that an impressive 90 percent of the public supports 
aggressive enforcement of child safety seat laws.
    While there have been improvements in safety for child passengers, 
clearly more can and should be done. My testimony will address the 
problem of the ``forgotten child,'' discuss what has been done on the 
state and federal levels, and recommend actions to prevent the 
continuation of needless deaths and injuries of our nation's children.
II. The Problem: Preventable Deaths and Injuries of Our Children
A. The ``Forgotten Child''
    Each year approximately 500 children ages 5 to 9 die and nearly 
100,000 more are injured as occupants in passenger vehicles. More than 
40 percent of the children killed are completely unrestrained. Over the 
past 20 years, between 1978 and 1998, the combined rate of motor 
vehicle occupant deaths and injuries per one hundred thousand children 
in the population has dropped significantly for children ages 0-4, by 
35 percent, and for children ages 10-14, by 15 percent. The rate among 
motor vehicle occupants ages 5-9, however, has remained constant. The 
fatality rate for children in these age groups, when analyzed 
separately from the injury data, tells a similar story. I have attached 
to my testimony charts from the NHTSA's Fatal Analysis Reporting System 
(FARS) that display these facts. These statistics are based on a 
current population of over 19.5 million children in the 5 to 9 year old 
age bracket.
    While a great deal of attention has been paid to child restraint 
systems for infants and toddlers, much less emphasis has been placed on 
providing for the safety of children generally between 4 and 8 years of 
age, and older, known as the ``forgotten child.'' These children have 
outgrown their toddler-sized child restraints but are still too small 
to fit properly in seat belt systems, the three-point lap/shoulder 
belts made to fit adults. Since the back seat is supposed to be safer 
for children than the front seat, and because parents are being told to 
put their children in the back seat, it is our obligation as a society 
to provide for the safety of those children when their parents follow 
this safety recommendation.
B. Booster Seats: Child Restraints for Older Children
    Child restraint systems were developed to protect young children in 
moving vehicles. Child restraints for infants and toddlers generally 
have a hard plastic shell including a back and sides and an internal 
belt and buckle to hold the child securely within the restraint in the 
event of a crash. While the federal child restraint safety standard 
governs the structural performance and levels of safety protection 
afforded children up to 50 pounds, the legal obligation to place 
children in restraints emanates from mandatory child restraint use laws 
passed by each of the 50 states, the District of Columbia, and Puerto 
Rico. These state laws establish the maximum age or weight limit for 
children who are required to be in a restraint system, and those limits 
have predominantly been set at 4 years or 40 pounds.
    Although booster seats are a type of child restraint, they are 
intended for use by older children who because of their size have 
outgrown child restraints made for toddlers. Toddler restraints are 
intended to provide support and protection in a crash and keep the 
child inside the restraint. Booster seats are only intended to provide 
a platform that lifts the child up off the vehicle seat in order to 
improve the fit of the child in the adult seat belt. An improper fit of 
an adult seat belt causes the lap belt to ride up over the stomach and 
the shoulder belt to cut across the neck. In a crash a seat belt that 
does not fit properly can cause critical or even fatal injuries. In 
addition, if the shoulder strap portion of the lap/shoulder belt is 
uncomfortable, children will place it behind their backs, defeating any 
safety benefits the belt system might provide. Studies show that most 
adult belt systems do not fit children under 4'9'' and less than 80 
pounds.
    While booster seats may have backs, or arms that prevent the lap 
belt portion of the seat belt from changing position, neither of these 
features are required by federal law. In fact, there are no structural 
or performance requirements, as such, for booster seats. Booster seats 
that are recommended for children who weigh 50 pounds or less fall 
within the scope of the existing child restraint standard. However, 
most booster seats are recommended for children over 50 pounds and are 
not covered by the federal child restraint standard. As a result, 
booster seats are, for the most part, not regulated and recommendations 
for their use are dependent upon voluntary manufacturer testing with no 
government oversight.
III. Steps That Have Been Taken to Improve Child Passenger Safety on 
        the State and Federal Levels
A. State Laws
    Within the last two years, three states have passed booster seat 
laws. In March 2000, Washington enacted the first law requiring 
children between a minimum of 4 years of age or over 40 pounds and a 
maximum of 6 years of age or under 60 pounds to be in booster seats, 
and it goes into effect on July 2, 2002. This law was inspired by 
Autumn Skeen who is here today to testify. Her son was killed when he 
was ejected from a vehicle while his seat belt was on. Even though the 
seat belt remained buckled, it did not keep him in the seat.
    In September 2000, California passed a law requiring children less 
than 6 years of age or less than 60 pounds to be properly restrained in 
a child passenger restraint system, effectively requiring booster 
seats; it goes into effect on January 1, 2002. In February 2001, 
Arkansas became the third state to adopt a booster seat law requiring 
children up to age 6 and 60 pounds to be restrained in a child 
passenger safety seat, again effectively requiring booster seats, and 
the law will take effect later this year. While these states have led 
the nation with new booster seat laws, many states are considering 
following suit. Between 15 and 20 states have introduced some form of 
booster seat legislation this year. Laws requiring the use of booster 
seats are important because they better protect children who use them 
and educate parents and guardians.
    In addition to education, child restraint laws have been proven to 
increase use rates. According to NHTSA, restraint use from birth to age 
one is 97 percent, and ages one to four is 91 percent. From age five to 
15, however, restraint use plummets more than 29 points to 68.7 
percent. Additionally, a NHTSA study showed that only 6.1 percent of 
booster-aged children were restrained in booster seats. Booster laws 
would undoubtedly increase this percentage.
    Furthermore, research supports the enactment of state booster seat 
laws. The Children's Hospital of Philadelphia and State Farm Insurance 
Companies have brought this issue to the forefront of the national 
agenda on child passenger safety by creating the largest single 
research project in the country and the first comprehensive study 
devoted exclusively to pediatric motor vehicle injury. Findings from 
this research initiative, ``Partners for Child Passenger Safety,'' show 
that 83 percent of children in this country between the ages of 4 and 8 
are improperly restrained in adult safety belts. Many of these 
children, who should be using child safety seats or booster seats, are 
instead prematurely graduated to adult safety belts. This inappropriate 
restraint results in a 3.5-fold increased risk of significant injury 
and a more than four-fold increased risk of significant head injury.
    Advocates supports the adoption of booster seat laws in every 
state.
B. Federal Regulation of Child Safety
    Although in the last 20 years there has been unequivocal progress 
in motor vehicle child safety, with improved child safety seat 
protection and adoption of state laws requiring their use, there has 
not been a great deal of progress with booster seats. The more we know, 
the more we are compelled to act in order to ensure maximum protection 
for every child of every age, on every ride in a motor vehicle. NHTSA 
has been in the lead on improving child safety in a number of ways. For 
example, in a 1995 final rule, the agency required child restraint 
manufacturers to determine the recommended use of their restraints in 
ranges of height and weight based on testing with different sizes of 
child crash test dummies.
    More recently, in 1999 NHTSA issued a rule to require a new system 
of child restraint anchorages in order to reduce the chances of 
incorrect installation of child restraints. At present, child 
restraints are secured to the vehicle frame with the vehicle lap belt 
or lap/shoulder belt system provided for adult occupants. The new 
``LATCH'' system, which stands for ``lower anchors and tether for 
children,'' provides a separate set of restraint-to-vehicle connectors 
and an overhead tether strap. The requirement, which applies to toddler 
restraints, but not to booster seats, is being phased-in and when fully 
implemented after September 1, 2002, will require each new vehicle to 
have a set of connecting bars that will interlock with matching 
connectors on new child restraints. The LATCH system will allow child 
restraints to be installed without using an adult lap belt or an adult 
lap/shoulder belt. Vehicles are already being produced with ready-to-
use upper tether anchorages that will secure the top of the child 
restraint to the vehicle chassis.
    Although NHTSA's record on child safety is commendable in many 
respects, and Advocates has strongly supported the agency in this area, 
the agency has not taken action on other important child safety 
initiatives. An opportunity to improve safety for the forgotten child 
was provided by Congress in 1991. ISTEA included a provision authored 
by the Senate requiring that NHTSA address through regulation the 
``safety of child booster seats used in passenger cars and other 
appropriate motor vehicles.'' Although Congress conferred broad 
legislative authority on NHTSA and intended the agency to take 
aggressive action to improve the regulation and safety protection 
afforded by booster seats, NHTSA chose to respond narrowly. The only 
action the agency took was to delete the prohibition against belt-
positioning booster seats, so that they now can be used without an 
overhead tether. This de minimus response by the agency to the 1991 
ISTEA requirement squandered an opportunity for comprehensive 
improvements in booster seat protection for children ages 4-8 years.
    To date, NHTSA has still made only a recommendation that when 
children outgrow child restraint seats, at around 40 pounds, they 
should be restrained in booster seats until they are big enough to fit 
in an adult safety belt, at about 80 pounds and about 4'9'' tall. While 
this recommendation is useful, it does little reduce the annual 
fatality toll of 5-9 year olds. In 1999, another 500 children in this 
age group died as occupants in motor vehicles. This is the equivalent 
population of two or three elementary schools. Regulatory action is 
needed to address the broader safety concerns of booster seat 
performance and use, including expanding the scope of the child 
restraint standard to cover booster seats for children who weigh up to 
80 pounds.
IV. What Needs to Be Done: Advocates' Recommendations
A. The Rear Seat Environment
    It has long been known that the rear seat is a safer location in 
most crashes. In recent years this message has been included in the 
recommendations to parents from many organizations, including NHTSA. 
However, the rear seat of most passenger vehicles is not designed for 
the comfort or safety of young children. Manufacturers have largely 
been concerned with designing features to accommodate adults. Although 
enormous resources have been expended to develop and market 
entertainment equipment for children in motor vehicles, particularly in 
the rear seat, by contrast little has been done to provide comfortable 
seating for children that would enhance safety. Moreover, agency 
regulations have also focused primarily on safety performance for 
adults, and on requirements for add-on child restraints for children 0-
4 years old. As a result, the rear seat environment is not particularly 
friendly for children ages 4 to 8 years old.
    Adult seat belts do not fit or properly restrain younger children. 
The required three-point lap/shoulder belt systems were designed for 
adults and provide crash protection for adults ranging in size, 
generally, from shorter females up to tall males. Adjustable upper 
anchorages were introduced to improve the comfort and fit of lap/
shoulder belts for adults. But even with the addition of adjustable 
upper anchorages, which allow for some movement in the positioning of 
the shoulder portion of the belt, adult seat belts do not fit the 
average sized 4 to 8 year old child. Moreover, NHTSA only requires 
adjustable upper anchorages in the front seat, so only a small 
percentage of vehicles even have adjustable upper anchors in the rear 
outboard seating positions.
    Even when a child is large enough to fit in a lap/shoulder belt, 
most manufacturers provide lap/shoulder belts only in the rear outboard 
seating positions, where children (and adults) are at greater risk in a 
side impact crash. While some manufacturers make lap/shoulder belts 
available as options in the center seating position, few provide this 
design as standard equipment. Generally, only lap belts are available 
for children in the center rear seating position.
    Head restraints are also not currently required in rear seating 
positions. While rear seat head restraints have become more popular in 
recent years, they are still not available in most passenger vehicles 
and are not standard equipment. The heads of taller children may rise 
above the top of the vehicle seat back, especially if they are using a 
backless booster seat. Thus, taller children using backless booster 
seats may have no head and neck support in the event of a rear end 
collision. At present, few booster seats are designed with backs. 
Although the lack of head restraints in rear seating positions is most 
certainly a problem for adults, it also poses a severe problem for 
taller children since they are likely to have weaker neck muscles than 
adults.
    Rear seats are primarily designed to suit the comfort and 
convenience of adults in terms of both seat angle and depth. Since 
manufacturers have moved to angled or sloped seats to improve comfort 
for adults, children end up sitting even lower and have less visibility 
out of windows than when bench seats were the norm. In addition, the 
depth of rear seats, from front to back, is too long for the shorter 
legs of children, and particularly the shorter femurs (thigh bones) of 
younger children, who cannot bend their legs at the knee if they are 
seated with their backs against the vehicle seat back. As a result of 
these two design features, children of booster seat age are often 
uncomfortable when they sit back in the vehicle seat because they may 
not be able to bend their legs at the knee. This discomfort motivates 
children to move forward on the seat both to get a better view out of 
the front windows because of the slope of the seat, and to sit more 
comfortably with their legs bent and feet on the floor. This 
positioning compromises the protection afforded by the seat belt and 
booster seat.
    Finally, the collapse of front seats in a crash also poses a danger 
to children in the rear seat. When a front seat back fails in a crash, 
it falls back into the space occupied by a child in the rear. Not only 
can a child be struck by the collapsing seat and head restraint, but 
the front seat occupant can be thrown rearward, over the collapsed 
front seat colliding with an occupant in the rear seat with a great 
deal of force. Such secondary collisions within the vehicle have 
anecdotally been reported as the injury mechanism in a number of deaths 
and serious injuries to children. In order to protect all rear seat 
occupants, but especially children, NHTSA must improve the seat back 
strength requirements in the current vehicle safety standards. The 
current federal safety standard for seat back strength has not been 
substantially revised to improve seat back performance since the 
standard was first adopted in 1971. In fact, NHTSA research and tests 
for the proposed amendments to the fuel integrity standard showed that 
almost all front seats failed in 50 miles-per-hour rear impact 
collisions.
    This confluence of design issues makes it all the more important 
that manufacturers and NHTSA focus on the plight of the forgotten 
child. Since parents are being instructed to place children in this age 
group in the rear seat for their own safety, it is imperative that the 
rear seat be a safe environment in which comfort reinforces safe 
behaviors.
B. Stuck in Neutral Recommendations
    Advocates addressed several aspects of the child restraint issue in 
our 1999 safety report entitled Stuck In Neutral--Recommendations For 
Shifting The Highway And Auto Safety Agenda Into High Gear, which is 
available on Advocates' web site at www.saferoads.org. With respect to 
child restraints, the report concluded that NHTSA should take action on 
the following four recommendations:

        1)  expand the scope of the child restraint standard to 
        children who weigh 80 pounds;
        2)  establish minimum requirements for child booster seats and 
        belt-adjusting devices;
        3)  develop a child test dummy that is representative of a 10-
        year-old child; and,
        4)  require that child restraints be dynamically [crash] 
        tested.

    The first three of these recommendations are specifically relevant 
to booster seats. The provisions of section 14 of the TREAD Act require 
NHTSA to consider these issues as part of a larger rulemaking on child 
restraint safety.
C. Child Restraints up to 80 Pounds
    NHTSA should expand the scope of the child restraint standard to 
children who weigh up to 80 pounds. Advocates wholeheartedly supports 
the language in section 14 of the TREAD Act that requires consideration 
of protection for children who weigh more than 50 pounds. Advocates has 
on many occasions stated that children ages 4 to 8 years old, and 
older, are disenfranchised under both state restraint laws and federal 
occupant protection requirements. We firmly believe that the current 50 
pound weight limit should be raised to 80 pounds and that minimum 
performance requirements for booster seats should be regulated by 
NHTSA. Additionally, NHTSA should enhance its education and publicity 
campaign to disseminate information about the need for, and to promote 
the use of, child booster seats.
D. Booster Seat Design/performance Requirements
    NHTSA should establish minimum requirements for child booster seats 
and belt-adjusting devices. Advocates also supports the initiative in 
Section 14 of the TREAD Act to have NHTSA determine the need to 
establish minimum requirements for booster seat performance and 
structural integrity that are dynamically tested. We realize that 
booster seats function differently from infant/toddler restraints, and 
are intended to enable children to use adult seat belts to provide 
safety protection in a crash. Booster seats may also not be considered 
as complex, from an engineering standpoint, as infant/toddler 
restraints. Nevertheless, NHTSA should ensure that booster seats 
perform this function properly and afford children adequate levels of 
safety.
    Currently, booster seats are subject to performance requirements 
and compliance testing for all child restraints, but only up to the 50 
pound limit of the child restraint standard. Booster seats recommended 
for children over 50 pounds are not subject to the requirements of that 
standard. This means that parents have no means to independently 
evaluate the safety of a booster seat for older children and they must 
rely on manufacturer recommendations. NHTSA should determine what 
performance requirements and safety features, as a minimum, should be 
common to all booster seats. For example, since booster seats are 
intended to lift children and improve their fit in an adult seat belt, 
a requirement might be appropriate to set a minimum height for the 
booster seat platform above the vehicle seat. Use recommendations could 
be based on this requirement. Also, booster seats without backs may 
result in neck or head injuries, especially for taller, older children 
whose heads and necks clear the top of the rear vehicle seat back. 
Currently, even booster seats with backs are not required to provide 
crash protection for the child's head and neck. Booster seats with 
improved backs may be necessary to protect taller children from head 
and neck injuries. Likewise, belt-adjusting arms should be examined to 
determine whether they are necessary to enhance booster seat safety. 
The agency should also test booster seat features to ensure that they 
do not interfere with safe performance of the seat belt system in a 
crash.
    In addition, NHTSA should adopt separate injury criteria for 
children and adults. More stringent injury criteria scaled for the 
bodies of children have already been adopted by NHTSA for the occupant 
protection standard which governs safety belts and air bag performance. 
The agency should also adopt these more stringent injury criteria for 
the child restraint standard. These scaled injury criteria should also 
be applied to any extension of the child restraint standard to children 
who weigh over 50 pounds.
E. 10-year Old Crash Test Dummy
    NHTSA should develop a child test dummy that is representative of a 
10-year-old child that can be used in testing booster seats. This was 
among the recommendations of the Blue Ribbon Panel on Protecting Our 
Older Child Passengers, and Advocates fully endorses this proposal. 
While there is already an effort to develop such a test dummy, efforts 
should be made to ensure that it is ready for use in the near future. 
Adoption of a 10-year-old child test dummy will permit testing at the 
upper weight range of booster seat recommendations. Auto manufacturers 
will also be able to use the 10-year-old dummy to improve the designs 
of rear seats to better accommodate the safety of all sizes of 
children.
F. Built-in Booster Seats
    Similar to the design of integrated child restraints, booster seats 
can be built into vehicle seats. Built-in booster seats would afford 
greater stability and protection since the seat is built into the 
vehicle seat and attached to the vehicle chassis. Built-in booster 
seats would be specifically designed to function with the three point 
lap/shoulder belts installed at the same seating position. As more 
states enact child booster seat laws there will be a demand for built-
in booster seats. It will make compliance and enforcement of these laws 
easier and more effective. Parents, relatives, friends and visitors 
will be able to accommodate children as passengers in a safer, more 
convenient way.
    Thank you, Mr. Chairman, for the opportunity to address these 
important issues.
    Advocates is prepared to work with the Committee in its evaluation 
of the implementation of the TREAD Act and other safety 
recommendations, and I will answer any questions you and the Committee 
may have.
                                 ______
                                 
               Disclosure of Federal Grants and Contracts
    I, Judith Lee Stone, President of Advocates for Highway and Auto 
Safety, hereby certify that Advocates for Highway and Auto Safety has 
not received any federal funds in fiscal years 2000 and 2001.
        Respectfully submitted,
                                          Judith Lee Stone,
                                                         President.
                                 ______
                                 
                 Advocates for Highway and Auto Safety

                                 Table 6
  Occupant Fatality and Injury Rates per Population by Age Group, 1975-
                                  1999
                            Age Group (Years)
                 (Fatality Rate per 100,000 Population)
 
       Year                -5                5-9              10-15
 
          1975               4.50              2.71              5.71
          1976               4.50              2.56              6.14
          1977               4.68              2.83              6.44
          1978               4.61              2.66              6.60
          1979               4.35              2.84              6.13
          1980               4.24              2.67              6.00
          1981               3.75              2.43              5.24
          1982               3.67              2.22              4.85
          1983               3.55              2.33              4.60
          1984               3.13              2.33              5.21
          1985               3.18              2.36              5.52
          1986               3.42              2.30              6.07
          1987               3.78              2.60              6.00
          1988               3.82              2.64              5.74
          1989               3.93              2.92              5.48
          1990               3.30              2.50              5.25
          1991               3.13              2.39              4.86
          1992               2.99              2.41              4.75
          1993               3.14              2.35              4.67
          1994               3.46              2.35              5.07
          1995               3.17              2.46              5.15
          1996               3.40              2.34              5.07
          1997               3.16              2.42              4.96
          1998               3.03              2.60              4.60
          1999               2.93              2.54              4.48
 

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

KEY TO STATE HIGHWAY SAFETY LAW CHART
    Graduated Driver Licensing (GDL) Systems--Optimal graduated driver 
licensing systems consist of a learner's stage, an intermediate stage 
and an unrestricted driving stage. Within each of these stages, there 
are provisions that are optimal to providing safe circumstances under 
which to develop driving skills. Four of these provisions are #1-4 
below. Each state's law is intricate and this chart should serve only 
as a guide. To fully understand a state's law, one should review it. 

    A. Learner's Stage
        1.  Six Month Holding Period: A novice driver must be 
        supervised by an adult licensed driver at all times. If the 
        learner remains conviction free for six months, he or she 
        progresses to the intermediate stage. In an optimal provision, 
        there is not a reduction in this amount of time if the driver 
        takes a driver's education course.
        2.  30-50 Hours of Supervised Driving: A novice driver must 
        receive 30-50 hours of behind-the-wheel training with an adult 
        licensed driver. In an optimal provision, there is not a 
        reduction in this amount of time if the driver takes a driver's 
        education course.
    B. Intermediate Stage: While optimally this stage should continue 
until age 18, states have been given credit in this chart for having 
the following two restrictions for any period of time, i.e., 6 months.
        3.  Nighttime Restriction: Because a majority of the crashes 
        involving teens occur before midnight, the optimal period for 
        supervised nighttime driving is from 9 or 10 p.m. to 5 a.m. 
        Unsupervised driving during this period is prohibited.
        4.  Passenger Restriction: Limits the number of teenage 
        passengers that ride with a teen driver driving without adult 
        supervision. The optimal limit is no more than one teenage 
        passenger. Sometimes family members are excepted.
        5.  Child Restraint Law--No Gaps: A state is considered not to 
        have gaps in its child restraint laws if all occupants up to 
        age 16 are covered by either a child restraint law or a safety 
        belt law.
        6.  Statewide Red Light Camera Law: Laws vary widely among the 
        states. While some states require legislation to allow 
        localities to operate red light running photo enforcement 
        programs, other states do not require enabling legislation and 
        laws are passed at a local level. States with an ``X'' in this 
        column have statewide laws. For more information on state laws 
        and legislation, see Advocates' intersection safety chart.
        7.  Repeat Offender Law: Complies with the Transportation 
        Equity Act for the 21st Century (TEA-21): States with an ``X'' 
        in this column have voluntarily submitted their repeat offender 
        law to the National Highway Traffic Safety Administration 
        (NHTSA) for review and have been found to be in compliance with 
        the provision in the federal highway bill, TEA-21. (Note: 
        States may have one or more of the repeat offender law 
        requirements under TEA-21, but only those states that fully 
        comply with the federal law are listed as in compliance.)
        8.  Open Container Law: Complies with the Transportation Equity 
        Act for the 21st Century (TEA-21): States with an ``X'' in this 
        column have voluntarily submitted their open container law to 
        the National Highway Traffic Safety Administration (NHTSA) for 
        review and have been found to be in compliance with the 
        provision in the federal highway bill, TEA-21. (Note: States 
        may have one or more of the open container law requirements 
        under TEA-21, but only those states that fully comply with the 
        federal law are listed as in compliance.)
        9.  Unattended Children Law: A person responsible for a child 
        who is 8 years of age or younger shall not leave that child in 
        a motor vehicle without being supervised in the motor vehicle 
        by a person who is at least 14 years of age.
    10.  U.S. Population: U.S. population data taken from the 2000 
state population estimates according to the Population Estimates 
Program, Population division, U.S. Census Bureau. Available on-line at 
http://www.census.gov/statab/www/part6.html.
    (Sources: Advocates for Highway and Auto Safety, Air Bag and Seat 
Belt Safety Campaign, American Automobile Association, Federal Highway 
Administration, Insurance Institute for Highway Safety, Mothers Against 
Drunk Driving, National Committee on Uniform Traffic Laws and 
Ordinances, National Highway Traffic Safety Administration, National 
Transportation Safety Board, National SAFE KIDS Campaign, state 
agencies and U.S. Census Bureau) 

    Senator Fitzgerald. Ms. Stone, thank you very much. All of 
you, thank you for your testimony.
    I would like to go to some questions and I would prefer to 
kind of keep this free-wheeling and have any of you jump in if 
you want to respond to something that somebody else on the 
panel is saying.
    My first thought listening to all this is, what about a 
requirement that automobile manufacturers make the seat belts 
adjustable so that they could come down to fit a young child, 
perhaps doing that as an alternative to a requirement--have a 
requirement that your child be in a booster seat or that he or 
she be fastened in an adjustable safety belt that can be 
properly fitted for a youngster? Nobody has mentioned that. Dr. 
Winston?
    Dr. Winston. The problem with that is that the issue is 
more thigh length than how tall the child is. The injuries that 
we worry about are not as much the injuries to the neck. That 
is not where the problem is. The problem is that the thigh is 
too short, and the child will slide forward on the seat, 
causing the lap portion of the belt to ride up. This will then 
make the shoulder portion even more uncomfortable and also will 
have the child further far forward, and in the event of a crash 
the child will be able to slip out of the belt or move forward 
and hit the head.
    There are quite a few vehicles that already have adjustable 
shoulder restraints.
    Senator Fitzgerald. What vehicles are they?
    Dr. Winston. I would defer to the manufacturers.
    Mr. Shelton. We have a list, Mr. Chairman. I do not recall 
any off the top of my head, but we have a brochure we put out 
called ``Buying a Safer Car for Child Passengers,'' and in that 
brochure we identify vehicles that have adjustable rear safety 
belts in them. I believe it is around 20 percent of the new 
vehicle fleet have them.
    Senator Fitzgerald. Is that right? Okay.
    Mr. Shelton. Approximately, off the top of my head. But I 
would like to reiterate what Dr. Winston said. One of the 
concerns that we would have is one of the main reasons children 
need booster seats is because of lap belt fit and an adjustable 
shoulder belt does not address the issue of lap belt fit.
    Senator Fitzgerald. Well, can the lap belt be adjustable? 
Clearly you could make a lap belt that fit a child, right?
    Mr. Shelton. It is not a matter of length. It is a matter 
of angle and location--unfortunately, there is a compromise 
between protection for adults and protection for children.
    Dr. Lund. Mr. Chairman, if I could followup on that.
    Senator Fitzgerald. Yes.
    Dr. Lund. You pose an interesting idea and I think one that 
has a lot of merit. Certainly in Europe there is a move in 
their new car assessment program to put more of the onus for 
how car safety seats for children and booster seats as well 
perform in those cars, putting more of the onus on the 
manufacturer of that vehicle, asking them to name the child 
seat that could be used in a test.
    I personally think that as we go forward part of what is 
going to have to happen to make sure that booster seats perform 
as we on this panel all want them to perform is there is going 
to have to be greater coordination between the child seat 
manufacturers or booster seat manufacturers and the vehicle 
manufacturers to make sure that the boosters or the child seats 
are compatible with the seats themselves. So that is one thing. 
The onus is going on them.
    I would like to also come back and say that one of the 
developments that we thought was very positive here, and it is 
a shame to see that the public is not picking up on it that 
greatly, is the provision by manufacturers of built-in child 
restraints.
    You talked about making the belts adjustable, and it is 
very difficult, as Mr. Shelton said, to adjust the lap belt. 
But you can put in a built-in child seat that folds down or 
folds up or modifies the seat geometry so that it works.
    Senator Fitzgerald. How many manufacturers are doing that 
right now?
    Dr. Lund. They are available from a number of 
manufacturers. We were able to get pictures only of a Volvo. It 
was the only one being delivered. But we have the Dodge 
Caravan; Daimler-Chrysler provided this in minivans for some 
time. You can ask Daimler-Chrysler, but I think that they will 
tell you that the uptake on that option by consumers was not 
very good.
    Ms. Stone. Mr. Chairman, if I could just respond to that 
same question. We made some calls around to some dealers just 
before this hearing to see and practically none of the dealers 
we talked to even knew what they were. So no matter whether 
they are available as an option, the dealerships really do not 
know about them.
    So I think that they are largely unavailable unless they 
come as standard equipment.
    Senator Fitzgerald. I have never heard of them being 
offered and I am someone who has an 8 year old boy and have 
been thinking about this issue for years and always on the 
lookout for cars that have it as an available option. I have 
never heard of it being offered.
    Ms. Weinstein. Mr. Chairman, I would like to add to the 
discussion. The Safety Board, as I mentioned, made three 
recommendations to the auto manufacturers to design the back 
seats of cars for children. One of the recommendations was for 
built-in car seats; one of the recommendations was for 
adjustable upper anchorages.
    What we are getting in response on the adjustable upper 
anchorages is that the design of the car does not really permit 
them to put the adjustable anchorage in the back seat the same 
as it does in the front seat. What some of the manufacturers 
have done is lowered the retractor anchorage to the back of the 
back seat, which does make it fit a little bit better for 
shorter adults and taller children.
    On the built-in child restraint systems, the manufacturers 
are telling us that there is no market out there for them. Our 
question back to them is, what have you done to sell them, and 
they have not done very much. I think that that is certainly an 
area that could solve a lot of problems, including for low 
income families, because when they would buy the car the built-
in child restraint would already be there.
    Dr. Quinlan. If I could add one other bit, I want to make 
it very clear, adjustable upper anchorages alone are not a 
solution. It has to be combined with some integrated support 
from below. The lap belt is the safety issue for children, for 
children in this age range, is the lap belt, the lap belt 
riding over the hips, crossing across the tender stomach.
    In the violence of the crash, the lap belt wraps around the 
abdomen like a rope around a pillow. There is nothing to stop 
it until it reaches bone when it hits the back bone, and 
finally the child is stopped by the fracture of the spine.
    So a lower cushion to boost the child up is absolutely 
necessary. Adjustable upper anchorages do not do that.
    Senator Fitzgerald. I have an Oldsmobile Aurora that does 
not have in the center of the rear seat a three-point lap belt 
and my wife does not even want to let me drive my son in my 
car. She makes me take him in her car, which has a three-point 
lap belt in the center rear seat.
    What should parents do who have a car with a rear seat that 
does not have a three-point shoulder belt in the center rear? 
Would they be better off putting them to one of the outboard 
sides, where are at greater risk of side impact collision? 
Would anybody care to speak to that issue?
    Mr. Shelton. Again, Mr. Chairman--well, not again, but as I 
mentioned before we have a brochure for parents who are looking 
for a new car. The ``Buying a Safer Car'' brochure for a child 
passenger does identify vehicles that have a center lap 
shoulder belt standard or optional. In many cases also, 
manufacturers will offer a retrofit shoulder belt for the rear 
seat, although it is typically for an outboard position, not a 
center seating position.
    So if you have a car I think you have to use what you have, 
which would be to put the child in the outside seating position 
using the three-point belt, and the child would be much better 
off than putting the child in the center seating position, on 
balance.
    Senator Fitzgerald. Autumn.
    Ms. Skeen. I live in a part of the state that is quite 
agricultural. We have more than a 30 percent Hispanic 
population. One of the things that I have noticed in the 
national brochures is that they are not in Spanish. Certainly, 
my concern and one of the reasons that I have pushed for the 
law is that I wanted this to not be just safety for the urban 
and the well educated and the well to do. My concern is that 
you have to be fairly educated to even know that there is a 
brochure out there that says that there are certain kinds of 
vehicles.
    Also, from talking to local dealerships, if you want safety 
equipment like that you have to special order. Oftentimes I 
think people just sort of go out and buy a car off the lot 
almost, not quite on impulse but almost. So as far as 
availability, it is not quite out there.
    Dr. Quinlan. If I can also add, I would like to use this as 
an opportunity to make sure people are aware of the over 14,000 
child passenger safety technicians that are out there in the 
country right now, who are ready to help with specific child 
passenger questions like the one you just asked.
    Senator Fitzgerald. Where are they?
    Dr. Quinlan. You can go to NHTSA's web site and you can 
locate your closest technician by entering your zip code.
    Senator Fitzgerald. Are these people typically at car 
dealerships?
    Dr. Quinlan. Sometimes at car dealerships, sometimes at 
hospitals, sometimes at traffic safety offices, law enforcement 
agencies.
    Senator Fitzgerald. Are these people certified?
    Dr. Quinlan. They are trained by NHTSA in a 4-day course 
and certified by AAA, and they are a very reliable source of 
specific technical information that I really think is 
underutilized.
    But there are products specific for your case. There is a 
seat out there that can go to 60 pounds with just a lap belt, 
so a child who is under 60 pounds can get into a Futura 20/60 
and can use that, just lap belt in the center, in exactly the 
situation you said. So there is a variety of special products 
the technicians are the experts on knowing.
    Senator Fitzgerald. Dr. Lund, correct me if I am wrong, but 
you have been a little bit of a contrarian with respect to the 
booster seats. In your testimony you said ``Emphasizing booster 
seats is a misplaced priority'' and that what we really need to 
do is focus on encouraging the use of seat belts because you 
point out that better to be restrained than completely 
unrestrained, and we have too many kids in this country who are 
completely unrestrained.
    But we have got to be concerned, do you not think, about 
the kids like Anton, so that there are kids who are restrained, 
but who are too small for that three-point seat belt, and in a 
serious collision could go flying out the seat? What do we do 
about that?
    Dr. Lund. Mr. Chairman, I do agree with you. We are all 
here because we are all concerned about child passenger safety. 
There is no question about that. I think we do need to do 
something about the situations such as Anton. This is a case 
where the belt has failed him.
    The problem that the Institute is dealing with is not that 
the adult lap-shoulder belts are perfect or the final answer, 
but what I do not want to do is to move to a law that requires 
parents to put children in booster seats and a parent goes out 
and buys a booster seat because the manufacturer says, this is 
a booster seat, so now I am in compliance with the law, and 
then we have the child in a booster seat that fits the way that 
the Komfort did on Camron and then have that parent later say: 
I did not realize that the lap belt coming across the stomach 
was a problem; why did not somebody tell me? Why was that seat 
available for my child?
    The same situation--I do not want to see that happen. The 
law does become a way of telling people information about what 
is good. They will buy the booster rather than the concept of 
proper belt fit.
    We have heard a lot about educating the parents the put 
children in boosters, but I think where we are right now is we 
do know how belts should fit. What we do not know is that all 
boosters do that and they do need to be educated on belt fit 
and parents need to be educated to shop for the booster, not 
just go buy a booster to comply with the law.
    Senator Fitzgerald. Well, do you think we should have as a 
first step federal minimum standards on requirements for 
booster seats, and then once we have those down, once we have 
the science behind that, then think about encouraging the 
states to adopt mandatory booster seat usage laws?
    Dr. Lund. Absolutely, Mr. Chairman. This is--as I said, it 
is a misplaced priority, which means a timing issue. We are all 
on the same side here.
    Senator Fitzgerald. So we have to get the standards here.
    Dr. Lund. We have to know what we want parents to use 
first.
    Senator Fitzgerald. Do you all agree that we ought to have 
federal standards that go up to, say, 80 pounds as opposed to 
the 50 pounds? Does anybody disagree with that?
    [No response.]
    Senator Fitzgerald. No.
    Dr. Winston, you are anxious to speak.
    Dr. Winston. Yes. I think one of the challenges with the 
photographs that you saw from the Insurance Institute is those 
are children placed in booster seats. They are not children in 
crashes. I think we need to think about it. I wholeheartedly 
agree that we should have standards for the booster seats. It 
is very confusing to the parents that there still are shield 
boosters out on the market. There are many different varieties 
of boosters and parents get confused.
    But the real world experience with children in crashes, 
demonstrates that existing belt-positioning booster seats are 
exceedingly effective. It is rare to find serious injuries to 
children in belt-positioning booster seats in our study. The 
same experience is in Sweden. When a child is in a belt-
positioning booster seat, they have many fewer minor injuries 
than children in seat belts.
    Senator Fitzgerald. Your studies are based on data provided 
by State Farm?
    Dr. Winston. What happens in our study is that each day we 
hear about crashes that are reported to State Farm Insurance 
Companies in 15 states and the District of Columbia. With the 
appropriate privacy safeguards, State Farm sends information to 
the Children's Hospital of Philadelphia, from claims in which 
consent to release data was obtained.
    We then do onsite crash investigations and in-depth 
telephone interviews with parents and have amassed the world's 
largest data base related to children in crashes.
    Senator Fitzgerald. How many crashes are in that data base 
total?
    Dr. Winston. So far, we have 137,000 children in 
approximately 90,000 crashes.
    Senator Fitzgerald. There is no other bigger data base, I 
would imagine, that is out there.
    Dr. Winston. No.
    Senator Fitzgerald. You have a fantastic set of data.
    Dr. Winston. We are very lucky. The generosity of State 
Farm has been great.
    The issue that I am pointing out is that real world data 
are more important than photographs. In the first photograph of 
the child who was more properly restrained, she would have 
moved that shoulder belt behind her back. It was right over her 
neck. If you look at that photograph, she would have been 
uncomfortable, if the belt had remained over her neck.
    But in the event of a crash, when a child is in a belt-
positioning booster seat, the belt would fit well. The child 
would remain in the shoulder belt and our data are bearing out 
that the children do quite well.
    Let us keep in mind how much a booster seat costs. This is 
an important issue vs. the cost of a child's injuries. A belt-
positioning booster seat, a backless belt-positioning booster 
seat at my retailer, is under $20. That is what we are talking 
about here.
    One of the challenges with the integrated seats, as much as 
I think they are wonderful, is they are quite expensive. These 
backless boosters work well and are very effective.
    Ms. Weinstein. Mr. Chairman, I would like to point out that 
speed is another issue that needs to be considered in this 
discussion. In the Safety Board's 1996 study we found that for 
children who were in high-speed crashes it mattered whether 
they were in the appropriate restraint for their age, height 
and weight. The children who were improperly restrained in 
high-speed crashes, which we define as a change in velocity of 
more than 20 miles an hour, those who were improperly 
restrained were much more likely to be killed and seriously 
injured.
    Dr. Lund. Mr. Chairman, if I might, I would like to 
followup on one thing that Dr. Winston said. It is by way of 
making sure that we do not think that the better belt 
positioning offered by boosters is a panacea for restraint use. 
We recently--the assumption is made that if the belt fits 
better the child will not move the shoulder belt or will leave 
it on. We recently had--our photographer who was involved in 
taking these pictures has children in this age group and he 
took a week-long trip and he took some of our better fitting 
booster seats.
    He found that, with the exception of one of them, the 
children did move the belts. They wiggled in the booster seats 
just as they did on a car seat. They did in fact remove that 
and come out from behind the shoulder belt.
    So we must keep in mind that this is not a panacea. The 
main thing it cannot do, as Kyran Quinlan said, is that if you 
get a good booster that moves the child up and positions that 
lap belt better, that is the main benefit that we can get.
    Senator Fitzgerald. I would like to give, if I could, 
Senator Dorgan the opportunity to speak for a moment. He is the 
ranking member of this Committee. Then, because of time 
constraints, we are going to have to go on to the second panel. 
Senator Dorgan, thank you.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    I wanted to say to the panelists that we appreciate very 
much your being here. As is often the case in the Senate, this 
week is very busy with hearings. I have 16 hearings of 
committees and subcommittees this week, and I was not able to 
be here earlier because I am on the Appropriations Committee 
and we are meeting with Secretary Norton right at the moment. 
So I am going to go back there.
    But I did want to come and say this. I had the opportunity 
to review much of your testimony in your prepared statements. I 
think your contribution in that testimony is very significant.
    Senator Fitzgerald has had an abiding interest in this 
subject and, despite the fact that my colleagues and I have 
been absent this morning, Senator Fitzgerald and I will work on 
these issues with great diligence, especially with Senator 
Fitzgerald's leadership. This hearing I hope will help us make 
some progress in a very significant area.
    I have a 14 year old son and a 12 year old daughter and we 
have been through this period. My wife insisted the cars not 
move an inch until everyone was belted up and cinched down 
correctly in the right car seats and booster seats and so on. I 
understand the concerns. I understand the dangers that are 
involved with children in automobiles in circumstances where 
they are not properly restrained.
    I think this hearing is a real contribution. I want to 
thank our chairman and thank you for your indulgence. I just 
want you to understand why I was not here and why many of my 
colleagues are not here, but I think you are making a very 
significant contribution this morning.
    I thank you for being here and presenting the testimony.
    Senator Fitzgerald. Senator Dorgan, thank you very much.
    We will take just one more comment from Ms. Stone here and 
then we will go on to the second panel.
    Ms. Stone. Thank you very much, Senator. I just wanted to 
talk a little bit about history repeating itself in part. Dr. 
Quinlan mentioned in his testimony about the child restraint 
laws being passed starting over 25 years ago. The first one was 
in 1978. I was at the Department of Transportation at that 
time, as were some others in this room.
    It really was an amazing situation, because that was a 
movement that was started by pediatricians as well. So we are 
glad to see the pediatricians out here again.
    What I wanted to say about it is that the states did not 
wait for perfect science. The standard was in place, but it was 
not the best standard it could be. They went ahead and passed 
the laws. No, they were not perfect, but they did pass them.
    I really believe that we are at the exact same spot on this 
issue with booster seats. I would not want to wait until 
everything, all the t's are crossed in i's are dotted, in order 
to move forward with state laws, because I think that we can do 
a lot of help, do a lot of service to the American people, by 
passing those laws and using them as education tools.
    I do not know how they will be enforced. I think they will 
be difficult to enforce. Any traffic safety law is. But I 
really believe that it is time for us to use them as 
educational tools, as they were used starting in 1978. That is 
how we got where we are today.
    Senator Fitzgerald. Ms. Stone, thank you very much for 
those remarks. All of you, you were excellent witnesses. I want 
to thank you for coming here and participating.
    We will now go to our second panel. We will take just a 1 
or a 2-minute break and we will come back.
    [Recess.]
    Senator Fitzgerald. I would like to resume the hearing now. 
On the second panel we have three witnesses: Ms. Heather Paul, 
Executive Director of the National SAFE Kids Campaign. Ms. 
Paul, thank you for being here. Mr. James Vondale, Director of 
Automotive Safety Office of Ford Motor Company. Mr. Vondale, 
thank you. Mr. Baloga, the President of Britax Child Safety, 
Inc., and I think we saw a picture of one of your child safety 
seats earlier. Thank you, Mr. Baloga, for being here.
    Ms. Paul, if you would like to begin.

               STATEMENT OF HEATHER PAUL, Ph.D., 
        EXECUTIVE DIRECTOR, NATIONAL SAFE KIDS CAMPAIGN

    Ms. Paul. Senator, thank you so much. You have done 
wonderful work in this area and I think I am a witness to 
history here today to see so much attention paid to specifics 
of booster seats. I have seen tremendous transformation of this 
whole traffic safety community since I started only 7 years 
ago. So thank you again.
    I am here on behalf of 303 SAFE Kids Coalitions, made up of 
firefighters, traffic safety police, public health department 
officials. Actually, we are making up some of the core child 
passenger safety technicians who you alluded to earlier. I have 
Joe Colella and Karen DiCapua here, who are some of the best 
technicians in the country. Because of them and so many others, 
we have seen this problem of booster seat use from the micro 
perspective as well as a macro one.
    In regards to the micro one, we have been hands on, have 
checked over 160,000 car seats since we began in 1996 with the 
first car seat checkups, with a national campaign in place 
thanks to the support of General Motors. Ironically, we began 
just the same year that Autumn Skeen's son was taken so 
tragically, and a lot has happened in the last 5 years.
    We have also been with 3200 General Motors dealerships, 
training them, having them stage these car seat checkups. In 
addition, we have been in the parking lots and the shopping 
malls, in the daycare centers, with the UAW, La Raza, and NAACP 
in distributing over $5 million worth of free car seats.
    So we have seen it all. We have seen the upscale fathers in 
their Mercedes sport utility vehicles and we looked at 
absolutely the poorest of the poor in remote rural areas, in 
the inner city, where the back seat of their cars is a 
testament to the state of their poverty. They are pre-1989, 
they are in a state of deterioration, they have lap belt only 
if they are lucky, if they have just the amount of children who 
could even be restrained in that back seat.
    When it comes to booster seats, actually it is the same 
problem whether you are rich or poor: tremendous 
underutilization, as all these other articulate experts have 
cited today, and a fundamental cluelessness on the part of 
parents on why they think they need them.
    We know this through our conducting thousands of car seat 
checkups, which take about 40 minutes each. If you think of 
that, it is an extraordinary act of public service. Parents say 
all kinds of things about boosters through our focus groups and 
through the car seat checkups. Why would they use this low-back 
booster, for instance, this thing that looks like something 
that you just sit tall on in a restaurant? What is so important 
about this seat? What, seat belt syndrome? What is that? Why 
this seat? Why not an adult belt system? Surely the absence of 
that little seat cannot give my child spinal cord injuries, or 
cause major internal organ damage that is impossible. Finally: 
Why would I use that? There is no law in my state, is there? As 
other very responsible parents--we abide by the law--So why on 
earth would you ask me to use this?
    These are very legitimate questions. So there is an awful 
lot we need to do on the public education side. That attitude 
and perception on the part of parents segues right into the 
other aspect of our work, and you have cited that--thank you so 
much--through our recent study. This is the first-ever, in-
depth analysis of current child occupant protection laws across 
the country.
    It is not a pretty picture, Senator. As you well know, even 
Illinois is not doing very well, and I will get to that in a 
second.
    So we were harsh graders. SAFE KIDS gave half the states 
Fs. That is quite extraordinary. Another third earn D's, and 
there were other shocking facts. How could children be exempt 
in some states because they are nursing when their mother is up 
front? How could children be exempt from using restraints in 
the back seat or the front seat if they are driving with an out 
of state driver with out of state plates? How can they be 
exempt from the law if they are simply sitting in the back 
seat?
    In fact, only two states, California and Washington--and 
they were cited here today, and now Arkansas--have a law that 
goes only as high, finally, as 5, not to the age of 8, what we 
are talking about today. These new laws in California and 
Washington do not even take effect until 2002. In fact, 
Arkansas, most recently passed, does go into effect this 
summer.
    Another 11 states dictate a child restraint only up to the 
age of 4. So that means the rest of the states fundamentally 
say it is just okay to be in an adult belt system.
    No state law covers children in a child restraint up until 
the age of 8. I am sorry to say, Senator, in the state of 
Illinois that children between the ages of 6 and 8 can actually 
ride totally unrestrained in the back seat if they are with a 
driver over the age of 18. Obviously, that is counterintuitive 
and quite absurd.
    In our rating of child occupant protection laws we thought 
we took some risks with very stringent grading. No good teacher 
would stand behind half your students getting F's. But we are 
really dealing with the harsh realities of motor vehicle 
crashes and killing thousands of children and injuring them 
every year. So we know that it matters, so much so that we have 
presented a grid to you today--Judy Stone has alluded to it as 
well--where 23 states since our report was issued in February, 
with Safe Kids' assistance, have moved forward, either 
introducing a bill, improving that bill that was already 
introduced, or actually enacting a much better law, which is 
the case with Arkansas.
    So once in a while a stick works as well as a carrot, there 
is no question about it.
    In terms of the research, we certainly, as an advocacy 
group, rely on the facts of groups like Flaura Winston as well 
as NHTSA, and we indeed want a universal standard, more 
research, heavier crash test dummies when it comes to children 
up to the age of 8.
    I will also say that the National SAFE Kids Campaign is 
affiliated with Children's National Medical Center and there is 
a NHTSA-supported siren study there, the only study in the 
country that is doing a review, forensic studies of kids in 
crashes who were improperly restrained, and Dr. Eichelberger 
and his team look at those cases as they come into Children's 
Hospital.
    There is no question, even though this data base, as is the 
problem here, is very small--20, 30 cases--that he sees very 
serious injuries from seat belt syndrome that would not be 
there, according to his team, if these same children were in 
booster seats.
    Outside of the issue of demand, which we are talking about 
right now namely--the need to better educate parents so that 
they ask for these seats, there is also the other side of the 
ratio, which is the supply. What does it look like in the 
marketplace? How can we mandate, how can we ask parents to 
choose a different restraint system if they are not easily 
accessible.
    It is a changing situation. According to the car seat 
manufacturers that I spoke with, only 5 years ago it was a very 
grim picture. There was hardly anything out there. In fact 
there were less than a half million, booster seats, sold a 
year. That now is up to a million seats a year.
    Now, that does not put a dent in the roughly 20 million 
children between the ages of 4 and 8, that is true.
    Senator Fitzgerald. How many car seats are sold each year, 
do you know?
    Ms. Paul. Twice that amount.
    Senator Fitzgerald. Twice that amount.
    Ms. Paul. Yes, two million car seats a year according to 
one manufacturer who I discussed this with this week. Perhaps 
folks from Britax can qualify that, but that is the information 
I have.
    Also, there is a positive trend in that, more retail space 
is being allocated for booster seats, maybe up to one to one, 
as many booster seats are on some shelves as car seats.
    There is another interesting phenomenon, which maybe you 
will speak to this as well, 70 percent of booster seats are 
sold by four retailers: Walmart, Kmart, Toys-R-Us and Target. 
That is not the best situation. That means that they 
potentially have a stranglehold on the nature of the booster 
seats available. Really, it might depend on brand managers or 
other aspects of retail life that would command exactly how 
parents see, perceive them, what education they get onsite as 
to what booster seats to choose.
    Also, its important to note that relatively the industry is 
small. It is a $350 million industry that handles all car seats 
in America. The advertising budgets are also small. If we want 
public education done, we certainly can not rely on the 
manufacturers when they do not even have the money for a 
television ad. When is the last time you saw a television ad on 
car seats in general? We can get Pokemon ads from Toys-R-Us, 
but we are not going to get one on car seats. So therefore the 
burden is even greater on advocates like us, as well as the 
government, to provide that public education.
    So finally, I would say too, as Flaura has, that our 300 
coalitions stand ready to help in any way we can. Thanks to the 
incredible generosity of General Motors, they have committed to 
us for another 5 years, and that we will be checking tens of 
thousands more car seats, getting more data. If there is any 
way that we can contribute our traffic safety folks in terms of 
surveillance, more public education, demonstrations on what 
works, how can we get to parents with the incredible 
seriousness of an issue that Autumn has revealed so painfully.
    So on that note, thank you very much.
    [The prepared statement of Ms. Paul follows:]

Prepared Statement of Heather Paul Ph.D., Executive Director, National 
                           Safe Kids Campaign
    My name is Heather Paul and I am the Executive Director of the 
National SAFE KIDS Campaign. It is my pleasure to testify before the 
Subcommittee today. Mr. Chairman, thank you for inviting me to address 
this important topic of child restraints for older children and other 
critical child occupant protection initiatives. I also want to take 
this opportunity to express our appreciation for your sponsorship of 
last year's Child Passenger Protection Act and for making child 
passenger safety a priority for your Subcommittee. The Child Passenger 
Protection Act, passed by the 106th Congress, helped us to refocus on 
how we can all protect children when they are traveling on our nation's 
roads.
I. History of the National SAFE KIDS Campaign
    As you and many Members of the Subcommittee know, the National SAFE 
KIDS Campaign is the first and only national organization solely 
dedicated to addressing an often unrecognized problem: More children 
under age 14 are being killed by what people call ``accidents'' (motor 
vehicle crashes, fires, and other injuries) than by any other cause.
    For well over a decade, the National SAFE KIDS Campaign 
(hereinafter ``SAFE KIDS'') has been focusing on this problem through 
the work of its national headquarters and its over 300 state and local 
SAFE KIDS coalitions--including thirteen SAFE KIDS coalitions in 
Illinois alone. From its inception, SAFE KIDS has relied on developing 
injury prevention strategies that work in the real world--conducting 
public outreach and awareness campaigns, organizing and implementing 
hands-on grassroots activity, and working to make injury prevention a 
public policy priority.
    The on-going work of SAFE KIDS coalitions reaching out to local 
communities with injury prevention messages has helped lead to the 
decline of the unintentional injury death rate during the past decade--
a 35 percent decline for children ages 14 and under. However, with one 
out of every four children--or more than 14 million children ages 14 
and under--sustaining injuries that are serious enough to require 
medical attention each year, SAFE KIDS remains committed to reducing 
unintentional injury by implementing prevention strategies, and 
increasing public awareness of the problem and its solutions.
II. National SAFE KIDS Campaign's Child Occupant Protection Initiatives
    Since 1996, SAFE KIDS has partnered with General Motors to develop 
and implement the SAFE KIDS BUCKLE UP program to address the needless 
tragedies associated with motor vehicle crashes--the leading cause of 
unintentional-related death among children ages 14 and under. The SAFE 
KIDS/General Motors program is an historic long-term, initiative that 
has committed over $20 million to the problem. The partnership's 
commitment and longevity are certainly warranted. Consider these 
statistics:

  <bullet> In 1998, 1,765 child occupants ages 14 and under died in 
        motor vehicle crashes. Children ages 4 and under accounted for 
        33 percent of these childhood motor vehicle occupant deaths.

  <bullet> In 1999, an estimated 272,000 children ages 14 and under 
        were injured as occupants in motor vehicle-related crashes.

  <bullet> As of November 1, 2000, 98 children were killed by passenger 
        side air bags. Nearly 89 percent of all children killed by 
        passenger side air bags were either unrestrained or improperly 
        restrained at the time of the crash.

A. Alarming Child Safety Seat Misuse Rate: 4 out of 5 Child Safety 
        Seats Improperly Installed
    An integral component of our the SAFE KIDS/GM partnership are Car 
Seat Check Up events conducted nationwide by the more than 300 SAFE 
KIDS coalitions, together with General Motors dealerships and its 
employees. These events are open to the public and provide families 
with free, hands on instruction on how to use child safety seats, 
booster seats, and safety belts correctly. The events not only occur at 
fixed sites like General Motors dealerships, but are also held at 
places where families go on a more regular basis, such as shopping 
malls and childcare centers. SAFE KIDS is better able to reach these 
additional families when we expanded our General Motors' partnership 
and created the first ever nationwide Mobile Car Seat Check Up program. 
General Motors donated 51 Mobile Car Seat Check Up vans to coalitions 
in each state and the District of Columbia. These vans are packed with 
child passenger safety literature, tents, cones, child safety seats, 
booster seats, and everything necessary to hold a Car Seat Check Up 
event at a community venue.
    As we have found at these events and reported in our 1999 study, 
Child Passengers at Risk in America: A National Study of Car Seat 
Misuse, misuse of child safety seats is widespread. It is estimated 
that although 96 percent of parents believe they install their child 
safety seat correctly, approximately 85 percent of children placed in 
child safety seats are actually improperly restrained. Over the past 
four years, the National SAFE KIDS Campaign has checked more than 
160,000 child safety seats through over 4,000 nationwide Check Up 
events and given away more than 100,000 child safety seats to families 
in need. Our national numbers are consistent with what we find in Check 
Up events in Illinois. In Illinois, close to 200 Check Up events 
resulted in over 6,000 child safety seats being checked--with a 90 
percent misuse rate. We know that those parents and caregivers who 
attend our check up events leave not only with their child safety seat 
installed correctly, but also leave with a better understanding about 
how to travel with their children safely.
B. Shocking Child Safety Seat Nonuse Rate: 40 Percent of Children 
        Continue to Ride Completely Unrestrained
    Our dealership-based and mobile check-up events have helped address 
the alarming misuse rate of child safety seats. Significantly, however, 
a full 30 percent of children still ride completely unrestrained. Our 
SAFE KIDS/General Motors' child occupant protection program addresses 
this problem also. In May of 1998, the United Auto Workers and General 
Motors joined the America's Promise initiative by committing $5 million 
over three years to purchase child safety seats for families in low-
income communities. The program aims to reduce the 1,800 deaths and 
270,000 injuries among children in motor vehicle crashes every year. 
Far too often kids hurt in car crashes are not restrained at all. 
Special emphasis is placed on serving African-American and Latino 
children, who are being killed and injured in disproportionate numbers 
on our nation's highways. The seats are being distributed through a 
partnership with the National Council of La Raza (NCLR), the National 
Association for the Advancement of Colored People (NAACP), General 
Motors and SAFE KIDS.
    As of March of 2001, a total of 30 NCLR affiliates and five NAACP 
branches in 24 different sites have established themselves as ongoing 
distribution centers, after receiving training and technical assistance 
in child passenger safety from SAFE KIDS coalitions and child passenger 
safety experts. Twenty-one additional NAACP branches joined with SAFE 
KIDS coalitions to hold one-day child safety seat checkup and 
distribution events in September of 2000. Representatives from these 
affiliates and branches have distributed over 76,000 child safety 
seats, including over 27,000 booster seats, and educated low-income 
families on proper use.
    SAFE KIDS adamantly believes a properly used and correctly 
installed child safety seat is the best way to protect our nation's 
children from the dangers of car crashes. We believe, through our 
program and with the help of other dedicated child safety advocates and 
partner organizations, children will be better protected on our 
nation's highways.
III. Most State Child Occupant Protection Laws Have Dangerous Gaps and 
        Weaknesses
    We know the best practices as to how to protect children when they 
travel and we know that in order to persuade parents to buckle up their 
children, we need to educate them about the benefits of proper 
restraint and the consequences of not restraining their children at 
all. Most experts agree that strong occupant protection laws, coupled 
with consistent enforcement, are a proven way to get children and 
adults to buckle up. Yet shockingly, a majority of states have gaps in 
their coverage--leaving certain motor vehicle occupants, especially 
children, unprotected. Loopholes in child passenger safety laws are 
confusing to parents who look to the law for guidance on how to best 
protect their children. They also serve as disincentives to law 
enforcement by negating the law's intent and failing to give police 
officers a clear directive to keep kids safe when traveling. These laws 
can leave children lawfully restrained, but woefully at risk.
A. Child Passengers At Risk in America: A National Rating of Child 
        Occupant Protection Laws
    The first child occupant protection law was passed in Tennessee in 
1978. Since then, all states have passed laws mandating that children 
be restrained in motor vehicles. Disappointingly, the numbers of 
unrestrained children injured and killed on America's roadways have 
remained alarmingly high for the last two decades, bringing renewed 
attention to all aspects of child passenger safety.
    The reasons for nonuse and misuse are complex. However, most 
experts agree that one key factor has been weak state laws, many of 
which have gaps in coverage related to age, seating position, lack of 
specific child safety seat use, and other exemptions and insufficient 
penalties. Loopholes in child passenger safety laws are confusing to 
parents who look to the law for guidance on how to best protect their 
children. Weak laws also prevent police officers from adequately 
helping to protect children who travel on roads in their states.
    Many safety advocates are working toward improving their child 
occupant protection laws. To further these efforts, the National SAFE 
KIDS Campaign recently completed the most comprehensive analysis of our 
nation's child occupant protection laws. We reviewed each existing 
child occupant protection law and then measured them against a model 
law that we believe provides a benchmark for every state legislature. 
Assessments were based on the language of each law, not on its 
implementation, enforcement, or other state child passenger safety 
programs.
    Existing weaknesses and gaps are frightening. Nearly half of all 
states earned F's and more than a third earned D's.

  <bullet> Nineteen states allow children to ride completely 
        unrestrained. For instance, New Jersey's state law permits any 
        child ages 5 and older to ride completely unrestrained in the 
        back seat. Pennsylvania's law is even worse--a father can 
        transport his four year old without safety restraints in the 
        rear seat. In a crash, these unrestrained children are thrown 
        violently within the interior of the car or even ejected from 
        the vehicle all together.

  <bullet> Thirty-four states allow kids to ride completely 
        unrestrained in certain circumstances by exempting drivers and/
        or other responsible parties from compliance with their child 
        restraint laws. For example, in Idaho and Tennessee a child can 
        lawfully ride unrestrained if he/she is being nursed or his/her 
        ``personal needs'' are being attended to. SAFE KIDS believes 
        that a child should never be unrestrained in a moving vehicle 
        merely because the child, at a moment in time, needs some extra 
        attention.

  <bullet> According to a majority of state laws, if there are not 
        enough safety belts for all passengers, children can ride 
        completely unrestrained. Other states allow children traveling 
        in cars with out-of-state plates, or being driven by a resident 
        of another state, to ride completely unrestrained. SAFE KIDS 
        believes a child born in Louisiana, traveling in Louisiana, but 
        driven by his out-of-state grandmother still deserves the full 
        protection of an effective law.

    Although all these scenarios are legal, they leave our children in 
potentially dangerous, life-threatening situations. Inconsistent state 
laws do children a grave injustice. No child in America should be 
dependant on the state in which they live for their safety on the road. 
SAFE KIDS believes that child passenger safety laws should apply 
equally across all of the states and the District of Columbia.
B. Closing the Gaps Across the Map by 2006
    This rating of state child restraint laws clearly demonstrates that 
child safety needs to be a higher priority for our state legislators, 
governors, and citizens. In response, SAFE KIDS and its more than 300 
coalitions have launched a five-year initiative to ``close the gaps'' 
in these laws, helping to ensure that all children are properly 
protected while traveling in motor vehicles. SAFE KIDS has provided 
individualized, tailored recommendations to each state legislature on 
how it can better protect its most vulnerable population and supplied 
model provisions to guide them in their efforts. Nationwide, SAFE KIDS 
coalitions have been working to upgrade their state child occupant 
protection laws, educating families on how to properly restrain their 
children, and assisting states in their law enforcement efforts. 
Already, at least 20 states have introduced bills to upgrade their law 
and three states (Arkansas, Georgia, and New Mexico), in response to 
their poor grades, have improved their existing laws--raising their 
failing or near failing grades to Bs.
IV. Conclusion
    SAFE KIDS believes that a strong law, coupled with effective 
programming, is the cornerstone of any state's commitment to child 
passenger safety. SAFE KIDS is dedicated to continuing its effort to 
both helping parents safely transport their children and assisting 
state legislatures with improving their child restraint laws. Today's 
hearing, along with the awareness it will produce, will help SAFE KIDS 
and other child safety advocates better protect our nation's children.

    Senator Fitzgerald. Ms. Paul, thank you very much.
    Mr. Vondale.

             STATEMENT OF JAMES VONDALE, DIRECTOR, 
          AUTOMOTIVE SAFETY OFFICE, FORD MOTOR COMPANY

    Mr. Vondale. Thank you. Good morning, Mr. Chairman. I am 
James Vondale, Director of the Automotive Safety Office for 
Ford Motor Company, and I appreciate the opportunity to be here 
today to discuss child safety and also booster seats. Ford has 
worked for many years to increase the proper restraint use by 
vehicle occupants of all ages and, while our overall efforts 
will continue, we have increased our focus recently on the need 
to further improve the effectiveness of restraint systems for 
children aged 4 to 8.
    Ford believes that booster seats should be used by children 
who have outgrown child safety belts but are too small to wear 
the safety belts in the vehicle now. In a crash, poor belt fit 
can reduce the protection that the safety belts should provide 
against the risk of serious or fatal injuries. Booster seats 
help address that concern by raising the child in the seat, 
filling the size gap so that the safety belts fit properly.
    Booster seats are simple to use and they can be moved 
easily, they can be moved easily from vehicle to vehicle. 
Unfortunately, as we know, available data shows that only a 
small percentage of children aged 4 to 8 use booster seats.
    Ford strongly supports the efforts of this Committee and 
the other initiatives that can increase booster seat use. In 
fact, Ford believes booster seats and child safety are so 
important that we launched the Boost America! program in April 
of last year. Because of the importance and broad scope of this 
undertaking, we partnered with a number of prominent safety-
minded organizations and individuals. Like all of our prior 
efforts to increase proper use of safety restraints, we believe 
education is critical to increasing booster seat use.
    A key component of our education strategy is the 
distribution of innovative, professionally developed 
educational materials to daycare centers, preschools, and 
elementary schools across the country. The Boost America! 
program has already forwarded educational materials to more 
than 150,000 daycare centers, preschools, and elementary 
schools, and through direct financial grants to states and 
local programs Boost America has already sponsored more than 60 
car seat inspection events in 13 states and the District of 
Columbia and Puerto Rico, and we have certified over 300 new 
child passenger safety technicians during 20 certification 
courses in 7 states.
    Additionally, the Boost America! program will distribute 
one million free booster seats nationwide. Half a million of 
those seats will be distributed to lower income families 
through United Way of America agencies around the country. The 
remaining half a million seats will be distributed by a voucher 
system through Ford Motor Company dealers and our partners. The 
vouchers will permit the remaining seats to be obtained at 
Toys-R-Us stores.
    With your permission, I would like to submit additional 
information about the Boost America! program to the Committee 
for the record.
    In conclusion, Ford Motor Company is a leading champion of 
child safety and booster seats. In fact, Ford was the first 
vehicle manufacturer to market a child restraint system in the 
U.S., beginning way back in 1957. In fact, Ford Motor Company 
was the first, second, and third manufacturer to market child 
restraint systems in the United States. Ford's Tot-Guard child 
restraint was introduced back in 1967 and it was sold by Ford 
and its dealers for many years until more modern child 
restraint systems became readily available in the marketplace.
    Ford's sponsorship of the Boost America! program 
demonstrates our firm commitment to dramatically increase the 
use of booster seats, and we look forward to working together 
with you and with others in the safety community on this very 
important safety issue.
    Thank you.
    [The prepared statement of Mr. Vondale follows:]

   Prepared Statement of James Vondale, Director, Automotive Safety 
                       Office, Ford Motor Company
    Good morning, Mr. Chairman, Members of the Committee. I am James 
Vondale, Director of Ford Motor Company's Automotive Safety Office. I 
appreciate the opportunity to be here today to discuss child safety and 
booster seats.
    Over the past-few-decades, significant advances have been made in 
vehicle safety technology, and traffic fatality rates have declined 
steadily. Unfortunately, motor vehicle crashes remain the leading cause 
of death of children ages 5 to 14 in the U.S. Additionally, while 
injuries and fatalities involving infants and toddlers are down because 
of new developments in restraint technology, the wide availability of 
child safety seats, and aggressive education efforts, injuries and 
fatalities among children ages four to eight have declined only 
slightly. We are pleased with the progress that has been made to 
improve child passenger safety. But, Ford Motor Company is not 
satisfied and we continue to put motor vehicle safety, and particularly 
child safety, high on our agenda for continuing efforts for 
improvement.
    Ford has worked for many years to increase proper restraint use by 
vehicle occupants of all ages. While our overall efforts will continue, 
we have increased our focus recently on the need to further improve the 
effectiveness of restraint systems for children. Ford believes that 
booster seats should be used by children who have outgrown child safety 
seats but are too small to wear vehicle safety belts properly. 
According to the National Highway Traffic Safety Administration, a 
child under 80 pounds is almost always too small physically to benefit 
as much from an adult safety belt alone as the child could benefit if 
better positioned by a booster seat. In a crash, poor belt fit can 
reduce the protection that the safety belts otherwise would provide 
against the risk of serious or fatal injuries. Booster seats help 
address that concern by raising the child in the seat, filling the size 
gap so the safety belts fit properly. Booster seats are also simple to 
use and can be moved easily among different vehicles. Unfortunately, 
available data indicates that only a small percentage of children 
between the ages of 4 and 8 are using booster seats.
    Ford strongly supports the efforts of this Committee and other 
initiatives that can increase booster seat use. In fact, Ford believes 
booster seats and child safety are so important that we launched the 
Boost America! program in April of last year. Because of the importance 
and broad scope of this undertaking, we have partnered with a number of 
prominent safety minded organizations. Like all of our prior efforts to 
increase proper use of safety restraints, we believe education is 
critical to increasing booster seat use. A key component of our 
education strategy is the distribution of innovative, professionally 
developed educational materials to day care centers, pre- schools and 
elementary schools across the country. The Boost America! program has 
forwarded educational materials to more than 150,000 centers and 
schools. Boost America! has already sponsored more than 60 car seat 
inspection events in 13 states, the District of Columbia and Puerto 
Rico and certified 317 new child passenger safety technicians during 20 
certification courses in 7 states.
    Additionally, the Boost America! program will distribute 1 million 
free booster seats nationwide. Half a million of the seats will be 
distributed to lower income families through United Way of America 
agencies around the country. The remaining half a million seats will be 
distributed by a voucher system through Ford Motor Company dealers and 
our partners. The vouchers will permit the remaining seats to be 
obtained at Toys-R-Us stores. I would like to submit additional 
information about the Boost America! program to the Committee for the 
record.
    In conclusion, Ford Motor Company is a leading champion of child 
safety and booster seats. In fact, Ford was the first vehicle 
manufacturer to market a child restraint system in the U.S., beginning 
in 1957. Ford's Tot Guard child restraint was introduced in 1967 and 
sold by Ford and its dealers for many years until more modern child 
restraint systems became readily available in the marketplace. Ford's 
sponsorship of the Boost America! program demonstrates our firm 
commitment to dramatically increase the use of booster seats and we 
look forward to working together with you and others in the safety 
community on this important safety issue.

    Senator Fitzgerald. Mr. Vondale, thank you very much for 
that, and congratulations to Ford Motor Company for the good 
work you are doing in this area.
    When will you be distributing the one million booster 
seats? Over what period of time is that?
    Mr. Vondale. That will be distributed shortly, the 
distribution period will begin. I believe that will cover about 
a 2-year period.
    Senator Fitzgerald. It is very important work and I 
compliment you and Ford Motor Company for your efforts in this 
area. Thank you.
    Mr. Baloga, thank you for being here.

              STATEMENT OF TOM BALOGA, PRESIDENT, 
                   BRITAX CHILD SAFETY, INC.

    Mr. Baloga. You are welcome, Mr. Chairman. I am Tom Baloga, 
President of Britax Child Safety, Incorporated. My company is 
located in Charlotte, North Carolina. We are the U.S. 
subsidiary of Britax International, Warwick, England. Based on 
global sales, Britax is the world leader in child restraint 
sales. We have manufacturing and R and D in England, Germany, 
Australia, and sales offices in France, Sweden, Finland, and 
the Far East, and we have been manufacturing in the U.S. since 
1996. So we have a very global perspective on child restraints.
    I would like to make three main points in my testimony. No. 
1, adult belts are too big for children 4 to 8 years old and 
most parents do not know this, and a national child restraint 
law would correct this. No. 2, we child restraint manufacturers 
must do a better job attracting 4 to 8 year olds to use 
restraints. No. 3, Congress has the power to remove an 
impediment to education by passing a Good Samaritan law for 
child restraint educators.
    All over the world, children in child seats are being 
protected. Despite everything, child seats are doing an 
excellent job protecting children. But we can and must always 
do better. Seat belts in vehicles are primarily designed to be 
used by themselves to protect adults, not children, and the 
reason is that vehicle seat belts are positioned optimally for 
adults and therefore they are too big for children.
    If vehicles were produced with a wide range of adjustment 
for adults and bigger children, as you had asked the question 
earlier, there would be a potentially huge problem of misuse by 
adults who would never adjust the seat belt to the adult 
position. What that means is that if you can accommodate 
children and move the seat belt low enough for the child, you 
would have a large number of adults who would never adjust it 
to the higher position and you could severely compromise 
protection.
    Most parents wrongly believe that at 40 pounds or 3 to 4 
years of age their children can safely use an adult seat belt 
and they do not understand that a child's hip bones do not 
develop sufficiently until about the age of 7 to 10, and then 
the child can be big enough to avoid a lap belt resting against 
the soft abdomen, as previous people have testified.
    Seat belts must hold a human in a crash via the human's 
bone structure. Only strong bone can support the crash loads. 
Frontal crash forces can easily make the child's body 
momentarily weigh 2,000 pounds. This would be a 50-pound child 
experience a 45-g frontal crash, as in, for example, a 30 mile 
crash into a bridge abutment.
    If a restrained child presses against a seat belt with a 
momentarily 2,000-pound force into the abdomen, the child will 
suffer lap belt syndrome, which has been mentioned by previous 
testifiers. This means severe internal injuries, including 
spinal column separation and paralysis. This happens if the 
child is too small for the adult belt and the lap belt rides up 
on the abdomen.
    The problem is not one of available products to protect 
children, since there are many restraints on the U.S. market 
for children older than 3 years old. The problem is that most 
parents honestly do not know adult seat belts are too big for 
their children and this false impression is partly due to state 
laws that end requirements for child restraint too young.
    Most infants and toddlers are being restrained, but parents 
find out that state laws for child restraints end at about 3 
years of age and they wrongly believe that above this age their 
children can safely use the adult belt.
    I believe that the same formula for success in getting 
infants and toddlers into child seats will work for getting big 
kids into restraints. Laws need to be updated as soon as 
possible and, since state laws seem to be very slow getting 
started, it may be appropriate to consider enacting a national 
child restraint use law.
    For about 10 years Germany, Sweden and Austria have 
required the use of an appropriate restraint device for 
children up to 12 years old or less than 1.5 meters in height, 
which is about 4 foot 11. This has resulted in a tremendous 
number of children being protected and using booster seats. 
There is now activity under way to make this a Europe-wide 
directive.
    A U.S. federal law or strong encouragement for states to 
adopt a uniform child restraint law up to 80 pounds would be 
very desirable. Recently, the Florida State Senate approved 
legislation to require children 8 or younger to ride in a child 
restraint and we hope this sparks interest and action by other 
states. I hope that bringing attention to this issue can at 
least educate parents that adult belts are too big for 
children.
    We manufacturers must do more. As child restraint 
manufacturers, we have an obligation to do even better to make 
big kids' seats attractive to kids. There are boosters on the 
market now in fabrics of denim, camouflage, and themes for 
older kids, like NASCAR racing and so forth. But we 
manufacturers need to mobilize our efforts to prove that it is 
cool to be restrained. Peer pressure at that age is very, very 
important to keep children riding safely.
    I believe our industry via our Juvenile Product 
Manufacturers Association is ready and willing to do its part 
to attract older kids, and I will carry that forward with our 
JPMA.
    Removing a road block to education. There are many 
wonderful organizations like SAFE Kids and volunteers providing 
education on proper child restraint use. The majority of adults 
want all children to be protected and when they realize the 
need they will respond. In the U.S. there is currently a 
significant disincentive for more people to become involved in 
education on child restraints. Fear of litigation stops many 
organizations, volunteers, and sales people from helping 
educate adults on proper child restraint use. A Good Samaritan 
law for child passenger protection educators would remove this 
disincentive and free up tremendous resources to provide 
personal education to those who can use it. I have sent a 
request to you to respectfully consider sponsoring such 
legislation for a Good Samaritan law.
    While instructions, labels, flyers, videos, manuals and 
demonstrations are important, person to person information with 
hands-on guidance is often most effective. It is frustrating to 
us as a manufacturer when retailers tell us they are afraid to 
provide detailed fitting instructions to consumers because they 
fear product liability lawsuits. On the advice of legal 
counsel, most retailers forbid their staff from attaching a 
child seat into a consumer's vehicle and volunteer advocates 
who conduct safety seat checks do a terrific job, but many 
admit they operate in fear of litigation.
    In closing, I would like to reiterate that products are 
already on the market to better protect children and parents 
often wrongly believe that adult seat belts are okay after 3 
years of age, and updating laws and improving education can 
lead to significant improvements to restraints for big kids.
    Thank you and I am ready to answer any questions you might 
have.
    [The prepared statement of Mr. Baloga follows:]

 Prepared Statement of Tom Baloga, President, Britax Child Safety, Inc.
    Mr. Chairman and Members of the Subcommittee, I am Tom Baloga, 
President of Britax Child Safety, Inc. My company is located in 
Charlotte, NC and we are the U.S. subsidiary of Britax International, 
Warwick, England. Based on global sales, Britax is the world's leading 
manufacturer of child restraints. Britax has manufacturing and R&D in 
England, Germany, and Australia and sales offices in France, Sweden, 
Finland, and the Far East. We have been manufacturing in the U.S. since 
1996.
    All over the world, children in childseats are being protected. 
Despite everything, childseats are doing an excellent job protecting 
children, but we can and must always do better.
    Seat belts in vehicles are primarily designed to be used, by 
themselves, to protect adults not children. The reason is that the 
vehicle seatbelts are positioned optimally for adults and they are 
therefore ``too big'' for children. If vehicles were produced with a 
wide range of adjustment for adults and bigger children there would be 
a potentially huge problem of misuse by adults who would never adjust 
the seatbelts to the ``adult position.'' Most parents wrongly believe 
that after 40 lbs. or 3-4 years of age their children can safely use an 
adult seatbelt. They don't understand that until a child's iliac crests 
(hip bones) are developed at about the age of 7 to 10 and the child is 
big enough to avoid the lap belt resting against the soft abdomen, an 
adult seatbelt provides inadequate protection to a young child.
    Seatbelts MUST hold a human in a crash via the human's bone 
structure. Only strong bone can support the crash loads. Frontal crash 
forces can easily make the child's body momentarily ``weigh'' 2,000 
pounds This would be a 50 pound child experiencing a 45 g. frontal 
crash as in a 30 mph crash into a bridge abutment. If a restrained 
child presses against a seatbelt with a momentary 2000 pound force and 
the force is going into the abdomen, the child will suffer ``lap belt 
syndrome'' which means severe internal injuries including spinal column 
separation and paralysis. This happens if the child is too small for 
the adult belt and the lap belt rides up on the abdomen.
    The problem is NOT one of available products to protect children 
since there are many restraints on the U.S. market for children older 
than 3 years old. The problem is that most parents honestly don't know 
adult seatbelts are too big for their children and this false 
impression is partly due to state laws that end requirements for child 
restraint too young.
Current State Laws Are Out of Date
    Most infants and toddlers are being restrained but many parents 
find out that state laws for child restraints end at about 3 years of 
age and they believe that above this age children can safely use adult 
belts. I believe that the same formula for success in getting infants 
and toddlers into childseats will work for getting ``big kids'' into 
restraints. Laws need to be updated as soon as possible. Since state 
laws seem to be very slow in getting started it may be appropriate to 
enact a National Child Restraint Use Law. For about the 10 years 
Germany, Sweden and Austria require the use ``an appropriate restraint 
device'' for children up to 12 years old or less than 1.5 meter in 
height (i.e. 59 inches or 4 ft. 11 in.). There is now activity underway 
to make this a Europe-wide directive. A U.S. Federal Law or strong 
encouragement to states to adopt uniform child restraint laws up to 80 
lbs. or 4 ft. 9 in. would be very desirable. Recently the Florida State 
Senate approved legislation to require children 8 or younger to ride in 
child restraints and we hope this sparks interest and action by other 
states. I hope that bringing attention to the issue can at least 
educate parents that adult belts are too big.
Manufacturers Must Do More
    We child restraint manufacturers have an obligation to do even more 
to make our ``big kids seats'' attractive to the kids. There are 
boosters on the market with fabrics in denim, camouflage, and themes 
for older kids like NASCAR racing etc. but we manufacturers need to 
mobilize our efforts to prove that it's cool to be restrained. I 
believe our industry via the Juvenile Products Manufacturer's 
Association (JPMA) is ready and willing to do it's part to attract 
older kids.
Removing a Roadblock to Education
    There are many wonderful organizations and volunteers providing 
education on child restraint use. The majority of adults want all 
children to be protected and when they realize the need they will 
respond. In the U.S. there is currently a significant disincentive for 
more people to become involved in education on child restraints. Fear 
of litigation stops many organizations, volunteers, and sales people 
from helping educate adults on proper child restraint use. A ``Good 
Samaritan Law for Child Passenger Protection Educators'' would remove 
this disincentive and free up tremendous resources to provide personal 
education to those who can use it.
    While instructions, labels, flyers, videos, manuals, and 
demonstration fixtures are important, person-to-person information with 
hands-on guidance is often most effective.
    It is frustrating to us when retailers tell us that they are afraid 
to provide detailed fitting instructions to consumers because they fear 
product liability lawsuits. On the advice of legal counsel most 
retailers forbid their staff from attaching a childseat into a 
consumer's vehicle. Volunteer advocates who conduct safety seat checks 
do a terrific job but many admit that they operate in fear of 
litigation.
    In closing I would like to reiterate that :

  <bullet> Products are already on the market to better protect 
        children

  <bullet> Parents often wrongly believe that adult seatbelts are ok 
        after 3 years of age

  <bullet> Updating laws and improving education can lead to 
        significant improvements to restraints for big kids.

    Thank you and I'm ready to answer any questions you might have.

    Senator Fitzgerald. Thank you very much.
    Mr. Baloga, are those child safety seats or booster seats 
manufactured by your company?
    Mr. Baloga. No.
    Senator Fitzgerald. No. I do not know if anybody--who put 
those up there? Did anybody want to do a demonstration?
    Ms. Paul. I turn to Joe Colella. Would you like to see?
    Senator Fitzgerald. Well, I was wondering if those were for 
demonstration purposes.
    Ms. Paul. This low back booster seat illustrates how 
parents might dismiss its importance. It really doesn't look so 
sturdy, therefore parents might not think it important and 
certainly cannot be the difference between life and death or 
serious injury caused by an adult belt system. Then there's a 
high back boosert that more imitates a front-facing convertible 
seat, so that parents see this as a more obvious transition, a 
graduation from small child into larger child seat. So there 
are some interesting issues of perception.
    Mr. Baloga. I can point out the aspects of the booster that 
are very, very critical to proper attachment of the seat belt 
on the child. These are horns that hold the seat belt down low 
so that it does not creep up on the child's abdomen. When 
adults sit in a vehicle, the belt is raised up sufficiently so 
that the belt lays across the thighs. That is the optimal 
position.
    On a child who sits too low, it is very easy for the belt 
to ride up and that is where the loads of the seat belt are 
going the push into the soft abdomen. Of course, the abdomen 
has no bone protection. You do not have the hip bones developed 
until they are about 8 years old. So these horns artificially 
act as the hip bones and they will hold the lap belt down low.
    Senator Fitzgerald. So that alone is a booster seat. Most 
booster seats that I have seen and the ones that my own son 
used, they had a full back to it as well.
    Mr. Baloga. Like this, yes.
    Senator Fitzgerald. But that is a booster seat, not just a 
child safety seat?
    Mr. Baloga. Correct. It converts into a booster seat. You 
know, the harness can be removed. The lap belt, if you notice 
the cutout here, this holds it down low to simulate these 
horns. That will hold the lap belt down low. Then I have 
possibilities here to slide the shoulder belt in different 
locations. There are three possible locations to hold the 
shoulder belt in the proper position.
    Senator Fitzgerald. Great. Well, thank you very much. That 
was a helpful illustration.
    I wanted to get back to the issue. A few of you have 
mentioned the standards in the European Community and suggested 
that they are much tougher than we are here. In fact, some of 
the European countries have a requirement that all children 
under age 11--did I hear that correctly----
    Mr. Baloga. 12.
    Senator Fitzgerald. 12?
    Mr. Baloga. Yes.
    Senator Fitzgerald.--must ride in some child restraint. 
Could you tell us a little bit more about the specifics of 
those laws in Europe? Apparently the European Union is 
considering a Europe-wide standard?
    Mr. Baloga. Yes. The age is 12 years old or 1.5 meters, 
which is about 4 foot 11. If you are shorter, if you are 
shorter than this or you are younger than this, you must ride 
in an appropriate restraint. That means either an infant seat, 
a toddler seat, or a booster seat.
    Senator Fitzgerald. Does the law get more specific than 
that? Does it break down the age at which you must be riding in 
a booster seat, as opposed to a child safety seat?
    Mr. Baloga. No, no. That is taken care of by the European 
requirements for the appropriateness of the actual child 
restraint, to have group zero, group one, group two, and so 
forth. So depending on the weight of the child, you will select 
a restraint appropriate for the child. So the law states that 
below 12 years old you must be riding in an appropriate 
restraint, and then ``appropriate'' is determined by the actual 
restraint itself, if you follow the labeling instructions.
    Senator Fitzgerald. Do you think we should have a law like 
that in the United States?
    Mr. Baloga. Yes. I would say 80 pounds would be the weight 
limit that I would recommend, 8 years, 80 pounds.
    Senator Fitzgerald. Do you think the Europeans are wrong in 
going up to 12 years of age?
    Mr. Baloga. I think it is too high. I think it is 
unnecessary. I think it is a situation where you would be hard 
pressed to find an 11 year old who would sit in a booster seat. 
I think we should be more realistic.
    Senator Fitzgerald. They just do not want to sit in those 
seats. They are anxious to graduate out of that.
    Mr. Baloga. Which is what I mentioned about we 
manufacturers have to do a better job of attracting these older 
kids.
    Senator Fitzgerald. But the Europeans must have felt they 
had some science behind their requirement there, kids up to 12 
years old. What is the science behind it? They must be finding 
injuries.
    Mr. Baloga. It originated in that in some of those European 
countries a child 12 years and younger could not ride in a 
front seat and that was the origin of it. For many, many years 
a child could not ride in a front seat until they were 12. With 
the advent of two-seaters and convertibles and so forth, they 
needed to make amendments to that. But that is really the 
origin, that riding in the front was not permitted.
    Senator Fitzgerald. Now, with respect to an appropriate 
booster seat in Europe, what qualifies as an appropriate 
booster seat and would some of the booster seats on the market 
in this country not qualify as appropriate booster seats in 
Europe?
    Mr. Baloga. As far as meeting the European requirements, I 
do not have a good answer because we do not take the U.S. 
booster seats and test them to the European requirements. I 
know that our Britax seats meet the European requirements.
    Senator Fitzgerald. You do sell them in Europe?
    Mr. Baloga. Yes.
    Senator Fitzgerald. You designed them to meet the European 
specifications?
    Mr. Baloga. And the U.S., yes.
    Senator Fitzgerald. And the U.S. But we only have--what are 
our specifications?
    Mr. Baloga. Well, when you start with a booster seat below 
50 pounds you are automatically required to meet Standard 213, 
because Standard 213, the U.S. requirement, goes up to 50 
pounds. So for example, our booster seat that goes from 40 
pounds to 100 pounds--and we have three models that do that--
they must meet the requirements of Standard 213 anyway.
    So we would test them, for example, with a 6 year old child 
that weighed--the dummy weighs 47 pounds, and it would have to 
meet U.S. requirements. Above that, we would use a European P-
10 dummy that is equivalent to a test for 80 pounds. Then for 
100 pounds we would use a fifth percentile female U.S. dummy 
that is weighing 104 pounds.
    So there are devices for testing and they are capable of 
being used for compliance and also for assurances to us as a 
company that we are protecting children. We are running these 
tests regardless of whether there is a U.S. requirement or not.
    Senator Fitzgerald. How many booster seats a year does 
Britax sell?
    Mr. Baloga. In the world or in the U.S.?
    Senator Fitzgerald. In the world and in the U.S. Would you 
know?
    Mr. Baloga. In the world, probably one million. In the 
U.S., we are very new in this market, so we are very small; on 
the order of 100,000.
    Senator Fitzgerald. Is that right? So most of your sales 
are overseas. But you are headquartered here, right?
    Mr. Baloga. We are headquartered in Warwick, England.
    Senator Fitzgerald. Okay.
    Mr. Baloga. We are only in the U.S. since 1996.
    Senator Fitzgerald. You are a British company?
    Mr. Baloga. Yes.
    Senator Fitzgerald. Okay.
    Mr. Vondale, does Ford Motor Company collaborate at all 
with the manufacturers of the child safety seats and booster 
seats? Does the auto industry generally?
    Mr. Vondale. Yes, we collaborate with the child seat 
manufacturers. In fact, as a part of our Boost America program 
we collaborated very closely with several of the 
manufacturers--Century. We developed with them the booster 
seats that we are going to be distributing across the United 
States.
    Senator Fitzgerald. Oh, you developed a specific booster 
seat for this program?
    Mr. Vondale. One of the seats, the high-backed booster, was 
developed especially for this distribution and it is available 
only through the distribution. The other seat is similar to a 
seat that is on the market, but again it was developed and 
tested and evaluated very carefully with the two child 
restraint manufacturers.
    Senator Fitzgerald. So you had your own engineers involved 
in that process of designing that seat?
    Mr. Vondale. They were involved from the beginning in terms 
of the evaluation of that seat, in fact both seats.
    Senator Fitzgerald. Ms. Paul, you look anxious to speak.
    Ms. Paul. I was just going to say as a sidebar, talking 
about the state of child restraints in Europe, we are doing 
some work in Brazil now and we have lots of testimony from 
other developing nations, and it is a very, sorry situation. 5 
percent of kids in Brazil are in car seats and car seats cost 
over $200 because of high import tariffs. So the problems are 
just so replete worldwide as traffic and urbanization become 
the number one way kids are really going to die in the streets.
    Senator Fitzgerald. They are putting tariffs on safety 
equipment like that.
    Ms. Paul. Yes.
    Senator Fitzgerald. That does not seem like a good public 
policy.
    Ms. Paul. No, it does not seem like a good public policy.
    Senator Fitzgerald. For Ms. Paul: Do we know that passing 
or improving a gap-closing law actually changes behavior? Would 
just passage of a law improve the usage of child safety seats?
    Ms. Paul. That is a universal question in the halls of 
Congress, is it not, oftentimes? There is some evidence and we 
rely strongly on--for instance, we know that when you have a 
primary enforcement law you can expect that seat belt usage 
rates on the average go up by 17 percent. Now, that is adult 
use. But then there is research that correlates adult seat belt 
use with parents and caregivers using child restraints.
    We also know when we look at bike helmet laws that SAFE 
Kids has helped pass bike helmet laws in 16 states and we have 
seen a 60 percent drop in head trauma from bicycles because of 
the use of the helmets. So you can sort of tease out some of 
these correlations.
    The CDC has also done a study that tracks, I believe, a 
correlation between primary seat belt laws passed and a rise in 
use by African Americans of seat belts. So we put together 
these isolated studies to make a case that laws really matter. 
Of course, we know attitudinally they absolutely matter, 
because parents say: If there is no law I am not sure I feel 
bound to do this.
    I will say, too, parenthetically, looking at the 23 states 
that are moving ahead in closing those gaps, most include 
language that only covers children up to the age of 6. So the 
concerns that the Insurance Institute have are valid in that we 
should move ahead with research at the same time as we move 
ahead with passing booster seat laws. If we are going to demand 
8 years of age and 80 pounds, we need good research behind 
these laws. Probably the research on booster seat effectiveness 
is most needed on older children of higher weights. These are 
the children who are much more emotionally independent, they 
demand freedom, autonomy, they want to be in that adult belt 
system. We know that.
    So these are important reasons why we need the research 
behind mandates for booster seats of seven and eight year olds.
    Senator Fitzgerald. Mr. Vondale, Ford now owns Volvo, is 
that correct?
    Mr. Vondale. Yes, that is true.
    Senator Fitzgerald. I understand that Volvo's web site 
regarding its Safety Concept Car states that: ``Today's 
generation of rear seats is designed for adults and modified to 
suit children. In the Volvo SCC, Volvo cars approach the matter 
from the opposite direction and presents a rear seat that is 
designed first and foremost for children, while functioning 
perfectly well for adults, too. Both the seats in the rear of 
the SCC have electrically adjustable seat cushions that can be 
varied vertically. This is done so that the rear seat can be 
altered to suit all those children who have outgrown rearward-
facing child seats. The seat cushion height is adjusted 
steplessly to exactly match the child's height and with due 
attention to belt geometry, comfort, and forward visibility.''
    Is Ford considering incorporating this feature into its 
regular Ford cars as opposed to its Volvo subsidiary?
    Mr. Vondale. Senator, one of the advantages of having Volvo 
as one of Ford's brands now is our ability to use the strength 
of Volvo's safety reputation and safety expertise to develop 
new concepts and new ways to address these issues. So we are 
working with Volvo to, as a concept car, to evaluate those 
types of systems.
    Certainly one of our plans with Ford Motor Company is if 
these systems are in fact proven out and they are feasible, 
then they can be considered for cascading through the other 
Ford brands. Right now we are working with Volvo on those types 
of concepts and we think that it does have some promise.
    Senator Fitzgerald. Are those adjustable seats available on 
the market now with Volvo, or is that just a concept?
    Mr. Vondale. That is a concept car. In fact, I was handed a 
note: The concept car will be here on May 7th, and we probably 
will be able to share that information with you. But it is a 
concept car.
    Senator Fitzgerald. Will it be here for an exhibit on May 
7th? Okay. But that is not offered in any production model, 
then, yet, these adjustable seats?
    Mr. Vondale. No. That is a very new and----
    Senator Fitzgerald. Revolutionary.
    Mr. Vondale.--revolutionary concept that is being explored 
as a part of the Volvo concept car.
    Senator Fitzgerald. I guess my question, just to followup 
on that a little bit, would be, if we were to go forward and 
mandate booster seats or greater booster seat usage, that would 
clearly be one way of addressing this whole issue. But do you 
think the technology will be out there that we can actually 
mandate that the cars themselves have seats that are adjustable 
to fit children?
    Now, in the past panel the panelists did not seem to think 
the mandating any requirements in the cars was the way to go 
because they thought it was too difficult. Clearly, the car 
seat or booster seat industry would probably prefer us the 
require booster seats. After all, there is some self-interest 
in this. If we mandate booster seats, that is going to mandate 
buying your product.
    But I do not know if that is the right thing to do for our 
kids in this country.
    Mr. Baloga. Senator, when my son Matthew was born we looked 
for a built-in child restraint and could have bought one from 
Chrysler at the time. The question that we asked was, will it 
accommodate an infant? The answer was no, because infant 
restraints have to be rear-facing and they are very complicated 
to build into a seat and bulky, so that is out of the question.
    Then the second issue was, if we buy a vehicle with a 
built-in child restraint we also have to buy a portable 
restraint because when grandma and grandpa and our relatives 
take the child we would then be expected to give them our car, 
which is rather inconvenient. So the practical issue is built-
in restraints have been available and the public has decided it 
is not convenient.
    You also have to sit on the restraint when it is folded in, 
which makes it very hard and uncomfortable. While I would grant 
you that technologically it is not impossible to design a 
system, at this point it is just not practicable to do so. From 
the issue of the relatives transporting children, you would 
have to buy a portable restraint anyway.
    Senator Fitzgerald. But any kind of federal mandate it 
seems to me could be written in such a way so that a parent or 
a caregiver is complying with the law if they have got their 
child in the required safety restraint, whether it is built 
into the car or it is portable and it is basically a booster 
seat.
    Mr. Baloga. Yes.
    Senator Fitzgerald. Would Ford have anything to add here?
    Mr. Vondale. Senator, I think just looking at the booster 
seats that are presented in front of us it is pretty clear that 
particularly the backless booster seat is a clear example of a 
very simple seat that we have found is very effective in 
addressing the issues here, and that is also very affordable to 
the customer and one that can be moved from vehicle to vehicle. 
All of those kinds of things are very important to customers.
    Senator Fitzgerald. Is the backless booster seat as 
effective as one with a back?
    Mr. Vondale. When we have looked at both backless and high 
back, we find that the backless booster seat works very well in 
vehicles that have a sufficient high back behind the child. We 
want to make sure that the child's head and neck are protected. 
In those vehicles, particularly much older vehicles, where the 
back seat is much lower, you would want to consider a high-
backed booster seat. So I think that is the real issue of 
choosing between a backless booster and the high-backed 
booster, is the neck protection that is available to the child 
in the vehicle that it is being used in.
    Senator Fitzgerald. The ones that you are going to be 
distributing as part of your campaign, they have a high back?
    Mr. Vondale. We are distributing both. We have a backless 
booster that will be available for vehicles that have a 
sufficiently high back seat to help protect the child's neck 
and head, and then we will have high-backed boosters for those 
vehicles that need the high back, extra height protection.
    Senator Fitzgerald. Are you doing any advertising campaign 
to demonstrate the availability of your, or publicize the 
availability of the seats you will be giving away?
    Mr. Vondale. As I said, there is a strong educational 
program that is going forth. We are using United Way and their 
network to help get to those people who are of lower income. We 
think that is a very effective way, rather than advertising, to 
get directly to the people who need these seats.
    As a part of the Ford Motor Company and our partners' give-
away--for example, AAA and others will be involved with us--
yes, there will be communications to let customers know about 
the availability of this program.
    Ms. Paul. I think you have also hit on the complexity that 
has not been really worked out yet as to what the protocol is 
to determine exactly which low-back, high-back seat is best, 
considering all the variables of car seat dimensions and a 
child's weight and size, and the fact that when you talk 
about--and many people get this wrong--a give-away program, you 
just cannot give a low income mom a seat and expect her to know 
what to do with it. So then we are back to the trained 
technicians who need to be certified by at least 4 days of 
training and hundreds more hours of hands-on experience, being 
able to guide them best, to then help them put that seat in 
right.
    So it is a really complicated business.
    Mr. Vondale. That is a good point. One of the other reasons 
we are using the United Way is the agencies there will be able 
to work with the people who are getting these seats, to give 
them information, so that they make the right choice and the 
seat fits properly.
    Senator Fitzgerald. Well, with that I want to thank all of 
you. Both panels have been wonderful. I really appreciate your 
interest and willingness to come here to Washington to testify. 
I am hoping that some good will come out of this. I think we 
have learned a lot here.
    For the most part, I think all the witnesses have given 
pretty clear direction on what we ought to be doing. We will 
take all of your full written statements and put them in the 
record, and we will look forward to continuing to work with you 
on this very important issue.
    Thank you all very much for being here. Thanks. With that, 
I am going to adjourn this meeting.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]
                                APPENDIX

 Prepared Statement of The National Association of Governors' Highway 
                         Safety Representatives
Introduction
    The The National Association of Governors' Highway Safety 
Representatives (NAGHSR) is pleased to submit testimony to the Consumer 
Subcommittee on the issue of child passenger safety. NAGHSR is a 
nonprofit association representing state highway safety agencies. Its 
members are appointed by their governors to administer federal 
behavioral highway safety grant programs, develop the annual state 
Highway Safety Plan, and implement highway safety programs in the 
state. NAGHSR focuses on the behavioral aspects of highway safety such 
as impaired driving, failure to use occupant restraints and child 
passenger restraints, excessive speeding and aggressive driving, 
distracted and fatigued driving, and unsafe bicycling, walking and 
motorcycling.
Overview of the Problem
    Research by the National Highway Safety Administration (NHTSA) has 
consistently shown that occupant restraints are the most cost-effective 
way to prevent deaths and injuries in motor vehicle crashes. Hence, the 
failure to properly restrain drivers and occupants of a vehicle, 
including children, is a priority issue for NAGHSR members.
    Unrestrained children in motor vehicle crashes are an especially 
troublesome, often tragic, yet preventable problem. However, it is 
important to keep the problem in perspective. Inadequate occupant 
protection is still overwhelmingly an adult problem. According to 1999 
data from the Fatal Analysis Reporting System (FARS), children aged 
nine and under represented only 3 percent of occupants killed in a 
motor vehicle crash and 5.4 percent of occupants injured in such 
crashes. Children nine and under killed in a vehicle who were 
unrestrained represent only 2.9 percent of the total unrestrained 
occupants.
    Additionally, ensuring that children are placed in restraints is a 
far bigger problem than ensuring that the restraints are used properly. 
According to 1999 FARS data, 55 percent of fatally injured children 
ages four to nine are completely unrestrained. Restraint use for 
children from birth to age one is 97 percent, and ages one to four, 91 
percent. From age five to 15, restraint use plummets to 68.7 percent. 
Hence, a major focus of state occupant protection efforts for children 
is to make sure that children are restrained and that they are kept in 
appropriate restraints for as long as possible before being moved to 
safety belts.
    Generally, state child passenger protection programs have three or 
four components: legislation, public information and education 
programs, enforcement and child safety seat clinics and fitting 
stations. Although legislation is a very important component, it is 
only one element of a comprehensive approach to child passenger safety. 
Without education and enforcement, legislation alone will have a 
limited impact upon behavior.
Legislation
    Two states had enacted booster seat laws prior to the 2001 
legislative session. In 2000, Washington was the first to enact a 
booster seat law which requires children up to 6 years old or 60 pounds 
to be restrained in booster seats. The law will take effect July 1, 
2002. California subsequently enacted a law that would require children 
up to 6 years old or 60 pounds to be in booster seats. California's law 
will take effect Jan. 1, 2002.
    During this year's sessions, the states have been very active on 
the legislative front. Many states have pending legislation that would 
close the gaps in child restraint laws or specifically require older 
children to be restrained in booster seats.
    There are two distinct problems with the drafting of state booster 
seat legislation. First, all state child restraint laws require that 
children be placed in child restraint systems that are consistent with 
federal safety standards (FMVSS 213). (See attached Arkansas law which 
is typical of how state laws are written.)* However, the current 
federal child restraint standard only covers safety seats for children 
49 pounds or less. Hence, by referencing the federal standard, state 
booster seat laws encourage parents to put children into boosters that 
are untested and potentially unsafe.
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Further, by referencing the federal standard such laws are put into 
a legal ``grey'' area. A good defense lawyer could easily mount a 
challenge to such a law in court because there is no federal standard 
for child restraints for children 50 pounds or above. In order to 
rectify this situation, the National Highway Traffic Safety 
Administration (NHTSA) must raise the standard for child restraints and 
do so as quickly as possible.
    Secondly, there is currently no consensus on the appropriate age or 
weight for booster seats and hence, it is difficult to know how to 
write a state law. Some states have used a 6 year old or 60 pounds 
limit. Others have higher limits. The difficulty with a limit based on 
age or weight is that there are always exceptions. A standard child 
passenger safety seat may better serve children who have reached the 
age limit but not the weight limit. Larger children who have reached 
the weight limit but not the age limit may better suited to a booster 
seat. A number of researchers and child safety advocates believe that 
the best test for children is a ``fit'' test. If the child can sit in a 
booster seat with his/her legs bent over the edge, with the lap belt 
low on the hips, and with the shoulder belt properly positioned across 
the chest, then that seat is right for the child. It is difficult, 
however, to write a fit test into state legislation. NHTSA should 
reconvene its Blue Ribbon Panel on Child Restraint Usage and encourage 
it to take the lead on the development of research-based guidelines for 
use of booster seats.
    There are also concerns about mandating booster seats in states 
that have large low income populations. These populations typically own 
older vehicles with lap-only belts in rear seats. Booster seats are not 
compatible with and cannot be used with such vehicles. Retrofit kits 
for older cars are expensive and scarce. Child restraint manufacturers 
should be encouraged to develop booster seats that can be properly used 
with lap-only seat belts.
    Despite these difficulties, many states have forged ahead with 
booster seat legislation because they are concerned about the safety of 
young children and want to take every precaution to protect them. 
NAGHSR conducted an informal poll of its member State Highway Safety 
Offices (SHSO's) the week of April 16 and 33 states have responded to 
date. Of the 33 respondents, 14 states have introduced booster seat 
laws this session. Of those, one was enacted (Arkansas) and one was 
killed (Maryland). The remainder are still pending. Individual state 
responses are as follows:
    Arkansas--legislation enacted in February that would require 
children 6 years of age or at least 60 pounds to be in an age-
appropriate child passenger safety seat. The law will go into effect 
this summer.
    Colorado--booster seat bill may be introduced next session.
    Connecticut--legislation is pending that strengthens existing CPS 
law.
    Delaware--booster seat bill is pending.
    District of Columbia--current child restraint law is being re-
written and strengthened. A booster seat bill is expected to be 
introduced shortly.
    Georgia--legislation introduced to strengthen child safety seat law 
and mandate booster seat use. Booster seat portion not accepted by 
legislature.
    Hawaii--booster seat bill pending. The legislature enacted a 
booster seat bill that would require children to be in booster seats if 
they are under 80 pounds or 8 years old. The bill is awaiting the 
Governor's signature. It would go into effect Jan. 1, 2002.
    Iowa--bill pending which would raise the age of child restraint 
coverage to 5 and would require children age 13 or younger to be 
restrained in any seating position in a vehicle.
    Illinois--booster seat bill is pending.
    Kansas--booster seat bill introduced. Senate passed bill but no 
action has been taken by House. Passage unlikely.
    Louisiana--booster seat bill is pending.
    Maryland--booster seat bill passed Maryland Senate 41-4 but killed 
on House floor.
    Massachusetts--booster seat bill is pending.
    Missouri--Senate bill passed but House action is uncertain. Passage 
unlikely.
    Minnesota--Booster seat bill introduced but stalled in committee.
    New Hampshire--may file a booster seat bill later this spring.
    North Carolina--will hold a study commission on the issue this 
year; expect to file a booster seat bill in 2002.
    New Jersey--booster seat bill is pending. Bill also requires 
children 8-18 to wear safety belts in any seating position in vehicle.
    New Mexico--current CPS law strengthened, effective 7/1/2001.
    Oregon--booster seat bill is pending.
    Rhode Island--booster seat bill pending; chances of passage are 
very good.
    Texas--booster seat bill is pending.
    Vermont--booster seat bill is pending.
Clinics and Fitting Stations
    Every state has trained Child Passenger Safety (CPS) technicians 
who are certified in NHTSA's four day standardized training curriculum. 
The course includes three days of classroom instruction and one day of 
hands-on training and student evaluation. There are strict standards a 
student must pass before he/she can become a certified technician. 
Technicians learn about and are evaluated on booster seats as part of 
their standardized NHTSA training.
    State Highway Safety Offices are the primary financial supporters 
of technician training. They pay for technician training from a variety 
of federal sources: Section 402 State and Community Highway Safety 
grants (23 U.S.C. 402); Section 157 incentive grants to increase seat 
belt usage (23 U.S.C. 157); Section 405 occupant protection incentive 
grants (23 U.S.C. 405); and Section 2003(b) child passenger protection 
incentive grants (Section 2003(b) of TEA-21). According to NHTSA, there 
are more than 15,000 trained CPS technicians, and more are being 
trained every day.
    Every state also conducts CPS clinics on a regular basis. The 
clinics are special events held during a fixed period of time on an 
identified date. At a clinic, trained technicians check the proper 
installation of child restraints, hand out information about child 
restraints, and educate parents and caregivers on the proper type, use 
and fit of child restraints. Correction of booster seat installations 
and booster seat education are a big part of state CPS clinics. The 
clinics are typically held in conjunction with safety fairs, at grocery 
stores or pre-schools, at local retailers, hospitals, or day care 
centers, etc.
    States may also conduct a select number of special events each year 
focused on booster seats. Utah, for example, conducted 150 clinics in 
both rural and urban areas last year. At least one special event 
focused on booster seats. Parents with children aged 4-8 were 
encouraged to attend, and special booster seat education was provided. 
Low cost or no-cost booster seats were also given to attending parents.
    Nearly every state also has permanant fitting stations. These are 
places with a trained technician open to the public on a regularly 
schedule basis. A parent or caregiver can make an appointment and bring 
his/her vehicle and child restraint for an inspection by a trained 
technician. As with the CPS clinics, booster seat education is an 
integral part of the fitting. The fitting stations are typically car 
dealerships, fire stations, local police departments, county health 
departments, etc. Some states operate mobile fitting stations (usually 
a retrofitted bus) which can provide child safety seat and booster seat 
inspections in less densely populated areas of a state.
    Most states also give child restraints (including booster seats) to 
low income families. Last year, Utah distributed approximately 3,500 
booster seats to needy families. Delaware's Office of Highway Safety is 
presently coordinating a number of booster seat distributions for low 
income families with such partners as the federal Women, Infants, and 
Children (WIC) program, Head Start, PTA's, elementary schools, and 
pediatricians.
    Even small states actively promote booster seats at their CPS 
clinics and fitting stations. Montana, for example, conducts clinics 
all year long in the seven largest counties and several of the smaller 
counties. The state also operates twelve fitting stations. At almost 
all of these forums, booster seats are included in the process to 
educate parents about child safety seat usage and installation.
    The Section 2003(b) program is a major source of funding for both 
fitting stations, CPS clinics, and child restraints (including booster 
seats). This program was authorized under TEA-21 at $7.5 million for 
2000 and 2001 only. The 2003(b) program, which is an earmark out of the 
obligation limitation for federal-aid highways, should be funded at 
$7.5 million each year for the remaining two years of TEA-21.
Public Information and Education
    In addition to fitting stations and clinics, every state also has 
an educational program aimed at informing parents about the proper use 
of child restraints, including booster seats. States typically provide 
education through public service announcements, websites, banners, 
posters, brochures, special contests and media events, press releases, 
videos, or through classes for parents. States may also conduct CPS 
workshops and summits to keep trained technicians apprised of the 
latest developments in child passenger safety, including booster seat 
safety. The technicians, in turn, use the updated information when they 
communicate with parents at fairs, clinics, fitting stations, and the 
like.
    Some State Highway Safety Offices have special educational programs 
for targeted populations. Connecticut, for example, has a safety 
program specially geared toward the Latino population to teach them 
about the importance of child restraints, including booster seats. In 
Georgia, an aggressive outreach program was implemented to raise 
awareness and increase child restraint use (including booster seat use) 
in designated low-income, minority and rural Georgia communities. 
Georgia is also partnering with minority organizations, minority 
sororities and fraternities, historically black colleges and faith 
communities to host minority health fairs and help educate the minority 
community about the need for child restraints, including booster seats. 
The Oklahoma highway safety office is funding a full-time traffic 
safety educator through the Latino Community Development Agency. The 
educator will hold twenty workshops in English and Spanish to educate 
parents about child restraint use, including booster seats, and will 
distribute printed materials as well.
    Maryland's educational program is typical of those found in most 
states. The Maryland Kids in Safety Seats (KISS) program is the primary 
educational resource for child passenger safety. Information is 
provided to parents about child restraints and booster seats through a 
partnership with social clubs, day care centers, preschools, elementary 
schools, the health care community, and other community organizations. 
Another component is the ``Prescription for Your Child's Safety,'' a 
partnership between the Maryland Chapter of the American Academy of 
Pediatrics, the Maryland Highway Safety Office, and Maryland Safe Kids. 
The program, which has reached more than 3,000 family practitioners and 
pediatricians in the state, provides a check-off form for doctors to 
use with families. The form provides guidance to doctors on appropriate 
child restraints, including booster seats. The Baltimore City Community 
Traffic Safety Program, in partnership with the Baltimore Safe Kids 
Coalition, has offered a Give Kids A Boost program for the last several 
years for city residents. When children are brought to specified 
locations to visit the TIKEmobile, they can receive an immunization 
booster shot as well as a free booster seat. Parents are also given 
assistance with installation of all child restraints.
    NAGHSR and its members have also been an active participant in the 
Ford Motor Company Boost America! Campaign. This $30 million campaign 
is intended to raise public awareness about the importance of booster 
seats and has three parts: an educational component, a booster seat 
distribution component, and a grant component. The State Highway Safety 
Offices will be a key partner in the booster seat distribution 
component. A half a million booster seats will be given to low income 
families. The booster seats will be disseminated at press events that 
will be held in a different state each week for the next year. The 
SHSO's will help organize these events, and state-funded child 
passenger safety technicians will be on hand to disseminate the seats 
and offer installation advice.
    Once a state enacts a booster seat law, the state typically 
undertakes an educational campaign to notify parents of the new law. 
Washington, for example, used its Child Passenger Safety Teams--located 
in 30 of 39 counties--to get the word out. The SHSO has also developed 
booster seat public service announcements for both radio and 
television. The office is also developing an interactive educational 
video for kids of booster seat age. Additionally, the SHSO is working 
with broadcast companies and radio stations who are sponsoring booster 
seat events.
Enforcement
    Since there are no booster seat laws currently in effect, the 
states have not yet undertaken special booster seat enforcement 
efforts. Rather, states typically enforce child restraint laws as part 
of their regular enforcement waves and biannual enforcement campaigns. 
In Michigan, for example, booster seat use is a prime message in all 
occupant protection enforcement campaigns. As more and more states 
enact booster seat laws, it can be expected that states will undertake 
special enforcement efforts to increase usage rates.
Summary of Recommendations
    In summary, all states are conducting a number of activities to 
promote booster seats. In order to maximize state efforts, however, the 
following should be undertaken:

  <bullet> NHTSA should upgrade FMVSS 213 to cover restraints that can 
        accommodate children up to 80 pounds.

  <bullet> NHTSA should reconvene the Blue Ribbon Panel on Child 
        Restraint Usage and develop uniform guidelines on the use of 
        booster seats.

  <bullet> Manufacturers should be encouraged to develop booster seats 
        that are compatible with lap-only belts for use in the rear 
        seats of older vehicles.

  <bullet> Congress should extend the funding for the Section 2003(b) 
        program which is slated to expire at the end of FY 2001.

    Thank you for the opportunity to submit the views and 
recommendations of the National Association of Governors' Highway 
Safety Representatives (NAGHSR).

                                  <all>

</pre></body></html>
